<html>
<title> - H.R. 4218, HIGH-PERFORMANCE COMPUTING REVITALIZATION ACT OF 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                      H.R. 4218, HIGH-PERFORMANCE
                      COMPUTING REVITALIZATION ACT
                                OF 2004

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 13, 2004

                               __________

                           Serial No. 108-55

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                 U.S. GOVERNMENT PRINTING OFFICE

93-214                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001










                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY













                            C O N T E N T S

                              May 13, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    17
    Written Statement............................................    18

Statement by Representative Judy Biggert, Member, Committee on 
  Science, U.S. House of Representatives.........................    18
    Written Statement............................................    19

Statement by Representative Lincoln Davis, Member, Committee on 
  Science, U.S. House of Representatives.........................    20
    Written Statement............................................    20

Prepared Statement by Representative Nick Smith, Member, 
  Committee on Science, U.S. House of Representatives............    21

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    22

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    22

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    23

                               Witnesses

Dr. John H. Marburger, III, Director, White House Office of 
  Science and Technology Policy
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    31

Dr. Irving Wladawsky-Berger, Vice President for Technology and 
  Strategy, IBM Corporation
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    39
    Financial Disclosure.........................................    40

Dr. Rick Stevens, Director, Mathematics and Computer Science 
  Division, Argonne National Laboratory
    Oral Statement...............................................    40
    Written Statement............................................    42
    Biography....................................................    47
    Financial Disclosure.........................................    48

Dr. Daniel A. Reed, William R. Kenan, Jr. Eminent Professor, 
  University of North Carolina at Chapel Hill
    Oral Statement...............................................    49
    Written Statement............................................    51
    Biography....................................................    54
    Financial Disclosure.........................................    55

Discussion.......................................................    57

              Appendix: Additional Material for the Record

H.R. 4218, High-Performance Computing Revitalization Act of 2004.    74

Testimony of Mr. Bob Bishop, Chairman and Chief Executive 
  Officer, Silicon Graphics, Inc.................................    88












    H.R. 4218, HIGH-PERFORMANCE COMPUTING REVITALIZATION ACT OF 2004

                              ----------                              


                         THURSDAY, MAY 13, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:30 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      H.R. 4218, High-Performance

                      Computing Revitalization Act

                                of 2004

                         thursday, may 13, 2004
                         10:30 a.m.-12:30 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, May 13, 2004, the House Science Committee will hold a 
hearing to examine federal high-performance computing research and 
development (R&D) activities and to consider H.R. 4218, the High-
Performance Computing Revitalization Act of 2004, which would amend the 
High-Performance Computing Act of 1991.
    The bill is timely because high-performance computing in the U.S. 
is at a turning point. The fastest computer in the world today is in 
Japan not the U.S., and several federal agencies are in the process of 
reformulating their high-performance computing programs, in part, in 
response to the challenge posed by Japan.

2. Witnesses

Dr. John H. Marburger, III is the Director of the White House Office of 
Science and Technology Policy (OSTP). Prior to joining OSTP, Dr. 
Marburger served as President of the State University of New York at 
Stony Brook and as Director of the Brookhaven National Laboratory.

Dr. Irving Wladawsky-Berger is Vice President for Technology and 
Strategy for IBM Corporation. Dr. Wladawsky-Berger previously served as 
co-chair of the President's Information Technology Advisory Committee 
(PITAC), and as a founding member of the Computer Sciences and 
Telecommunications Board of the National Academy of Sciences.

Dr. Rick Stevens is the Director of the Mathematics and Computer 
Science Division at Argonne National Laboratory (ANL). He is also a 
Director of the National Science Foundation (NSF) TeraGrid project, 
which aims to build the Nation's most comprehensive, open 
infrastructure for scientific computing.

Dr. Daniel Reed is the William R. Kenan, Jr. Eminent Professor at the 
University of North Carolina at Chapel Hill (UNC-CH). Previously, Dr. 
Reed served as Director of the National Center for Supercomputing 
Applications at the University of Illinois Urbana-Champaign, one of 
NSF's university-based centers for high-performance computing. Dr. Reed 
is a current member of PITAC.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1.  How does high-performance computing affect the 
        international competitiveness of the U.S. scientific 
        enterprise?

        2.  Are current efforts on the part of the federal civilian 
        science agencies in high-performance computing sufficient to 
        assure U.S. leadership in this area? What should agencies such 
        as the NSF and the Department of Energy (DOE) be doing that 
        they are currently are not?

        3.  Where should the U.S. be targeting its high-performance 
        computing research efforts? Are there particular industrial 
        sectors or science and engineering disciplines that will 
        benefit in the near-term from anticipated high-performance 
        computing developments?

4. Brief Overview

        <bullet>  High-performance computers (also called 
        supercomputers or high-end computers) are an essential 
        component of U.S. scientific, industrial, and military 
        competitiveness. However, the fastest and most efficient 
        supercomputer in the world today is in Japan, not the U.S. 
        Japan was successful in producing a computer far ahead of the 
        American machines in part because Japan focused on a type of 
        computer architecture that the U.S. had ceased developing. 
        Also, Japan focused a large amount of money on a single 
        machine, while the U.S. funds a variety of computer development 
        projects.

        <bullet>  Despite the recent technical success of the Japanese, 
        most experts still rate the U.S. as highly competitive in high-
        performance computing. The depth and strength of U.S. 
        capability stems in part from the sustained research and 
        development program carried out by federal science agencies 
        under an interagency program codified by the High-Performance 
        Computing Act of 1991. That Act is widely credited with 
        reinvigorating U.S. high-performance computing capabilities 
        after a period of relative decline during the late 1980s.

        <bullet>  The Federal Government promotes high-performance 
        computing in several different ways. First, it funds research 
        and development (R&D) at universities, government laboratories 
        and companies to help develop new computer hardware and 
        software; second, it funds the purchase of high-performance 
        computers for universities and government laboratories; and 
        third, it provides access to high-performance computers for a 
        wide variety of researchers by allowing them to use government-
        supported computers at universities and government labs.

        <bullet>  In recent years, federal agency efforts once again 
        appear to have lost momentum as federal computing activities 
        began focusing less on high-performance computing and more on 
        less specialized computing and networking technologies.

        <bullet>  Responding to concerns that U.S. efforts to develop 
        and deploy high-performance computers may have flagged, OSTP 
        created an interagency task force--the High-End Computing 
        Revitalization Task Force (HEC-RTF)--to examine federal high-
        performance computing programs and make recommendations for 
        improvement. Dr. Marburger will release the task force report 
        during his appearance before the Committee.

        <bullet>  On April 27, 2004, Representative Judy Biggert 
        introduced H.R. 4218, the High-Performance Computing 
        Revitalization Act of 2004, which would update the High-
        Performance Computing Act of 1991 and, in particular, would 
        require the High-Performance Computing R&D Program to ``provide 
        for sustained access by the research community in the United 
        States to high-performance computing systems that are among the 
        most advanced in the world in terms of performance in solving 
        scientific and engineering problems, including provision for 
        technical support for users of such systems.'' H.R. 4218 also 
        requires the Director of OSTP to ``develop and maintain a 
        research, development, and deployment roadmap for the provision 
        of high-performance computing systems for use by the research 
        community in the United States.'' This and other provisions in 
        the bill are designed to ensure a robust ongoing planning and 
        coordination process so that the national high-performance 
        computing effort is not allowed to lag in the future.

5. Major Issues Addressed in H.R. 4218

Assuring U.S. Researchers Access to the Most Advanced High-Performance 
Computing Systems Available.


    What the Bill Does: The bill requires the High-Performance 
Computing Research and Development Program to ``provide sustained 
access by the research community in the United States to high-
performance computing systems that are among the most advanced in the 
world in terms of performance in solving scientific and engineering 
problems, including provision for technical support for users of such 
systems.'' The bill also specifically requires the NSF and the DOE 
Office of Science to provide U.S. researchers with access to ``world 
class'' high-performance computing systems.
    Why That's Necessary: Beginning in the 1980s with the NSF 
supercomputer centers program, the Federal Government has been 
providing university researchers with access to the fastest computers. 
Today, university researchers are concerned that the Federal 
Government, and particularly NSF, may be moving away from a commitment 
to provide such access. While NSF has reiterated its intention to 
continue to provide access to the fastest computers through 
supercomputer centers, it has also said it will place greater emphasis 
on distributed collections of many computers (known as ``grid 
computing''), which may not provide computing capability equal to that 
of the fastest supercomputers. At the same time, DOE has indicated it 
wants to expand its efforts to provide access to large, single-location 
machines, but it is not clear how much access DOE will be able to 
provide or whether its machines will be open to researchers in all 
fields as NSF-funded machines are.

Assuring Balanced Progress on All Aspects of High-Performance 
Computing.

    What the Bill Does: The bill also requires the program to support 
all aspects of high-performance computing for scientific and 
engineering applications, including software, algorithm and 
applications development, development of technical standards, 
development of new computer models for science and engineering problem 
solving, and education and training in all the disciplines that support 
advanced computing.
    Why That's Necessary: New supercomputers (hardware) alone won't 
help researchers. The development of advanced software and applications 
programs is essential to enable researchers to use the additional 
computing power.

Assuring an Adequate Interagency Planning Process to Maintain Continued 
U.S. Leadership.

    What the Bill Does: The bill requires the Director of OSTP to 
``develop and maintain a research, development, and deployment roadmap 
for the provision of high-performance computing systems for use by the 
research community in the United States.'' This and other provisions in 
the bill are designed to ensure a robust ongoing planning and 
coordination process so that the national high-performance computing 
effort is not allowed to lag in the future.
    Why That's Necessary: The High-Performance Computing Act of 1991 
codified an interagency planning process that remains in place today. 
However, the chief product of this process in recent years has been an 
annual review of activities undertaken by agencies, rather than a 
prospective planning document. A forward-looking process would enhance 
coordination between agencies and maximize the total benefit of federal 
investment.

6. Current Issues in High-Performance Computing

Is the U.S. Competitive?
    The world's fastest computer, Japan's Earth Simulator, is designed 
to perform simulations of the global environment and to address 
scientific questions related to climate, weather, and earthquakes. NEC, 
a leading Japanese computer manufacturer, built the Earth Simulator for 
the Japanese government at a cost of at least $350 million. The first 
measures of the Earth Simulator's speed, taken in April 2002, 
determined that the Earth Simulator was significantly faster than the 
former record holder--the ASCI White System at Lawrence Livermore 
National Laboratory--and also used the machine's computing power with 
far greater efficiency.\1\
---------------------------------------------------------------------------
    \1\ For the fastest U.S. computers, typical scientific applications 
are usually only able to utilize 5-10 percent of the theoretical 
maximum computing power, while the design of the Earth Simulator makes 
30-50 percent of its power accessible to the majority of typical 
scientific applications.
---------------------------------------------------------------------------
    Twice a year, researchers at the University of Tennessee and the 
University of Mannheim (United Kingdom) compile a list of the world's 
500 fastest supercomputers. The latest list became public on November 
16, 2003 (see Table 2 in Appendix II).\2\ The Earth Simulator is 
approximately twice as fast as the second place machine, the ASCI Q 
system (located at Los Alamos National Laboratory and built by Hewlett-
Packard). Of the top twenty machines, eight are located at DOE national 
laboratories and two at U.S. universities.\3\ IBM manufactured six of 
the top twenty machines and Hewlett-Packard manufactured five.
---------------------------------------------------------------------------
    \2\ The top 500 list is compiled by researchers at the University 
of Mannheim (Germany), Lawrence Berkeley National Laboratory, and the 
University of Tennessee and is available on line at http://
www.top500.org/. For a machine to be included on this public list, its 
owners must send information about its configuration and performance to 
the list-keepers. Therefore, the list is not an entirely comprehensive 
picture of the high-performance computing world, as classified 
machines, such as those used by NSA, are not included.
    \3\ The two university machines are located at the Pittsburgh 
Supercomputing Center (supported primarily by NSF) and Louisiana State 
University's Center for Applied Information Technology and Learning. 
The remaining 12 machines include four in Europe, two in Japan, and one 
each at the National Oceanic & Atmospheric Administration, the National 
Center for Atmospheric Research, the Naval Oceanographic Office, and 
NASA.
---------------------------------------------------------------------------
What Types of High-Performance Computers Should the U.S. Develop?
    The success of the Earth Simulator has caused a great deal of soul-
searching in the high-performance computing community in the U.S. The 
Earth Simulator is built from custom-made components, and is based on a 
computer architecture that the U.S. had stopped pursuing in the 1990s. 
At that time, U.S. programs chose to favor the use of commercially 
available components for constructing high-performance computers. An 
advantage of this approach was that it made high-performance computers 
more cost-effective to develop, by leveraging development costs against 
a larger market.
    Some computing experts have concluded that this strategy of relying 
largely on commercial needs to guide the development of supercomputer 
components has left U.S. academic researchers at a disadvantage. That's 
because certain kinds of research questions--such as those involved in 
climate modeling--are difficult to pursue on the kinds of computers 
that can be built with commercial components. The Japanese Earth 
Simulator, for example, is not based on a computer architecture that 
would be of widespread interest in the commercial market.
    Federal agencies are in the process of reviewing their programs to 
decide which kinds of computer architecture R&D to pursue. H.R. 4218 is 
silent on this issue, but a decision on what kinds of computer 
architectures to pursue would be part of the planning required by the 
bill.
    This question is significant in that NSF first became involved in 
offering supercomputer access because in the early 1980s foreign 
researchers often had more and better access to top supercomputers than 
U.S. researchers did. With the advent of the Earth Simulator, this may 
be true again for climate and earthquake researchers. Federal civilian 
agencies, particularly NSF, need to figure out how to help develop 
computers that will be useful to U.S. scientists in a wide variety of 
fields. The research needs of different scientific fields require 
distinct computer architectures, and so serving the entire user 
community will most likely require the development of a number of 
diverse computer architectures.
    Supercomputers--regardless of the extent of their appeal in the 
commercial market--are still in the end manufactured private companies. 
In the U.S., the major producers of high-performance computers include 
IBM, Hewlett-Packard, and Silicon Graphics, Inc. and Cray. Leading 
Japanese manufacturers include NEC, Fujitsu, and Hitachi. In the past, 
Congress prevented federal research funds from being used to purchase 
Japanese supercomputers.
Where are the NSF and DOE Office of Science and Programs Headed?
    NSF and the DOE Office of Science are the lead agencies responsible 
for providing high-performance computing resources for U.S. civilian 
research. (See Appendix II.) Both NSF and the DOE Office of Science are 
moving ahead in significant new directions. NSF recently signaled that 
it will place greater emphasis on developing grid computing resources. 
Meanwhile, DOE has indicated it will expand its efforts to provide 
access to large, single-location machines but has not yet implemented 
these plans. Both agencies are at a point of transition as they 
redefine their roles in providing access to U.S. researchers to high-
performance computing resources.
    NSF's support three large supercomputer centers,\4\ which in FY03 
served approximately 3,000 users, mostly from academia. (When the 
supercomputer center program started, there were five initial centers.) 
In addition to providing cyberinfrastructure, NSF's Computer and 
Information Sciences and Engineering Directorate supports roughly $70 
million of research on hardware, systems architecture, and advanced 
applications.
---------------------------------------------------------------------------
    \4\ The three NSF-supported centers are the San Diego 
Supercomputing Center at the University of California-San Diego, the 
National Center for Supercomputing Applications at the University of 
Illinois Urbana-Champaign, and the Pittsburgh Supercomputing Center, 
jointly run by Carnegie Mellon University and the University of 
Pittsburgh.
---------------------------------------------------------------------------
    In FY04, the DOE Office of Science initiated a new effort in the 
development of next-generation computer architectures (NGA). The 
program will emphasize the development of computer architectures that 
do not rely on commercial components or computing needs. The Department 
issued an initial request for proposals for the NGA program in March 
2004. The NGA Program received $38 million in FY04, and the same amount 
is requested for FY05.
    DOE also administers the National Energy Research Scientific 
Computing Center (NERSC) at Lawrence Berkeley National Laboratory, 
which provides high-end computing resources to over 2,000 scientists 
annually. According to Department figures, 35 percent of NERSC users 
are university-based, but the majority are those are funded through DOE 
grants. The budget for NERSC is on an upward trend, up from $22 million 
in FY03 to $32 million in FY04, with $38 million proposed for FY05. 
These increases reflect the Office of Science strategy to expand its 
role as a provider of high-performance computing resources.
    Also, NSF and the Defense Advanced Research Projects Agency (DARPA) 
have jointly released a solicitation for software for high-performance 
computing (NSF/DARPA).\5\
---------------------------------------------------------------------------
    \5\ The NSF/DARPA solicitation for research on software and tools 
for high-end computing is available on line at http://www.nsf.gov/pubs/
2004/nsf04569/nsf04569.htm.
---------------------------------------------------------------------------

7. Background

What Is High-Performance Computing?
    High-performance computing--also called supercomputing, high-end 
computing, and sometimes advanced scientific computing--refers to the 
use of machines or groups of machines that can perform very complex 
computations very quickly. High-performance computers are, by 
definition, the most powerful computers in the world at a given moment 
in time. High-performance computers are used to solve highly complex 
scientific and engineering problems, or to manage vast amounts of data. 
Technologies improve so quickly that the high-performance computing 
achievements of a few years ago could now be handled by today's 
desktops.
    The speed of high-performance computers is measured in ``flops,'' a 
unit signifying a calculation each second. The prefix ``Tera'' 
signifies trillions, and thus a one Teraflop machine can execute a 
trillion calculations each second. The world's fastest machine, Japan's 
Earth Simulator, can execute 35 Teraflops, or 35 trillion calculations 
each second.
What Is High-Performance Computing Used For?
    High-performance computers are often used to simulate physical 
systems that are difficult to study experimentally. Such simulations 
can be an alternative to actual experiments (e.g., for nuclear weapon 
testing and climate modeling), or can test researchers' understanding 
of a system (e.g., for particle physics and astrophysics). Industry 
researchers use high-performance computers to simulate how new products 
will behave in different environments (e.g., for development of new 
industrial materials). Other major uses for supercomputers include 
performing massive mathematical calculations (e.g., for codebreaking) 
and managing vast amounts of data (e.g., for government personnel 
databases).

         Scientific Applications: High-performance computers are used 
        to tackle a rich variety of scientific problems. Large-scale 
        climate modeling examines possible future scenarios related to 
        global warming. In biology and biomedical sciences, researchers 
        perform simulations of protein structure and folding, and also 
        model blood flows. Astrophysicists model planet formation and 
        supernova, while cosmologists simulate conditions in the early 
        universe. Particle physicists perform complex calculations 
        involving the basic building blocks of matter. Geologists model 
        stresses within the earth to study plate tectonics, while civil 
        engineers simulate the impact of earthquakes.

         National Defense Applications: The National Security Agency 
        (NSA) is a major user and developer of high-performance 
        computers for specialized tasks relevant to codebreaking (such 
        as factoring large numbers). The DOE National Nuclear Security 
        Administration (NNSA) is also a major user and developer of 
        machines used in modeling nuclear weapons. The Department of 
        Homeland Security uses high-performance computing to extract 
        useful data from large amounts of information; to model the 
        dispersal of plumes of biological, chemical, and radiological 
        agents; and to identify pathogens using their DNA signatures. 
        The Department of Defense uses high-performance computing to 
        model armor penetration, and for weather forecasting. Many 
        scientific applications may have future defense applications. 
        For example, computational fluid dynamics studies could be used 
        to model turbulence surrounding military aircraft.

         Industrial Applications: The automotive industry uses high-
        performance computers for vehicle design and engineering. The 
        movie industry uses massive computer animation programs to 
        produce films. Pharmaceutical companies simulate chemical 
        interactions to design new drugs. The commercial satellite 
        industry manages huge amounts of data in generating maps. 
        Financial companies and other industries use large computers to 
        process immense and unpredictable Web transaction volumes, to 
        mine databases for sales patterns or fraud, and to measure the 
        risk in investment portfolios.

What Types of High-Performance Computers Are There?
    There are a number of different ways to build high-performance 
computers, and different configurations are better suited to different 
problems. While there are many possible configurations, they can be 
roughly divided into two classes: big, single-location machines and 
distributed collections of many computers (this approach is often 
called grid computing). Each approach has its benefits--the big 
machines can be designed for a specific problem and are often faster, 
while grid computing is attractive in part because the purchase and 
storage cost is often lower than for a large specialized supercomputer.
    At least since the mid-1990's, the U.S. approach to developing new 
capabilities has emphasized using commercially-available components as 
much as possible. This emphasis has resulted in an increased focus on 
grid computing, and has influenced the designs of large, single-
location machines. The U.S. has favored supercomputer designs based on 
ever-larger numbers of commercially available processors, coupled with 
improvements in information sharing between processors.
    Users thus have a number of options for high-performance computing, 
and must take into account the pros and cons of different 
configurations when deciding what sort of machine to use. Users must 
also design software to allow the machine to solve each problem most 
efficiently. For example, some problems, such as climate modeling and 
codebreaking, require a great deal of communication between computer 
components. Other applications, such as large-scale data analysis for 
high energy physics experiments or bioinformatics projects, can be more 
efficiently performed on distributed machines, each tackling its own 
piece of the problem in relative isolation.
What's the Status of Federal High-Performance Computing Capabilities?
    In 1991, Congress passed the High-Performance Computing Act, 
establishing an interagency initiative (now called National Information 
Technology Research and Development (NITRD) programs) and a National 
Coordination Office for this effort. Eleven agencies or offices 
participate in the high-end computing elements of the NITRD program. 
Tables 1a and 1b in Appendix II show the funding level by agency for 
FY03, the most recent year for which budget data is available. (The 
overall FY05 budget request for NITRD is $2 billion, but the breakout 
for the high-performance computing component of that is not yet 
available.)
    The total requested by all 11 agencies in FY03 for high-performance 
computing was $846.5 million. The largest research and development 
programs are at NSF, which requested $283.5 million, and the DOE Office 
of Science, which requested $137.8 million. Other major agency 
activities (all between $80 and $100 million) are at the National 
Institutes of Health (NIH), DARPA, the National Aeronautics and Space 
Administration (NASA), and NNSA. Different agencies concentrate on 
serving different user communities and on different stages of hardware 
and software development and application. (Tables 1a and 1b do not 
include the procurement costs for high-performance computers purchased 
by agencies, such as NNSA and the National Oceanic and Atmospheric 
Administration (NOAA), for computational science related to their 
missions.\6\ )
---------------------------------------------------------------------------
    \6\ For example, in FY03 NOAA spent $36 million on supercomputers--
$10 million for machines for climate modeling and $26 million for 
machines for the National Weather Service.

         National Science Foundation: In the mid-1980s, NSF established 
        supercomputer centers to serve the academic community. These 
        supercomputing centers provide researchers with access to high-
        performance computing capabilities and also with the technical 
        support they need to use the facilities effectively. NSF also 
        supports the development of the Extensible Terascale Facility 
        (ETF), a nationwide grid of machines that can be used for 
        advanced communications and data management. The ETF will be 
        coming online in the next year, and a challenge for NSF will be 
        managing the ETF to serve a wide array of users with different 
        scientific computation needs while integrating the ETF with the 
---------------------------------------------------------------------------
        supercomputing centers.

         Department of Energy: DOE has been a major force in advancing 
        high-performance computing for many years. Both the Office of 
        Science and the NNSA invest significantly in high-performance 
        computing. Activities under the Office of Science include the 
        Advanced Scientific Computing Research program, which funds 
        research in applied mathematics, in network and computer 
        sciences, and in advanced computing software tools. In FY04, 
        the Office of Science initiated a new program on next-
        generation architectures (NGA) for high-performance computing. 
        NNSA uses high-performance computers for simulations and 
        weapons modeling through the Accelerated Strategic Computing 
        Initiative (ASCI).

         Defense Advanced Research Projects Agency: DARPA has 
        traditionally focused on hardware development, including 
        research into new architectures. On July 8, 2003, DARPA 
        announced it had selected Cray, IBM, and Sun Microsystems to 
        participate in the second phase of its High-Productivity 
        Computing Systems program. The goal of the program is to 
        provide a new generation of economically viable, high-
        productivity computing systems for national security and 
        industrial applications by the year 2010.

         Other Agencies: NIH, NASA, and NOAA are primarily users of 
        high-performance computing. NIH manages and analyzes biomedical 
        data and models biological processes. NOAA uses simulations for 
        weather forecasting and climate change modeling. NASA relies on 
        high-performance computers for applications including 
        atmospheric modeling, aerodynamic simulations, data analysis 
        and visualization. Scientists at the National Institute of 
        Standards and Technology collaborate with companies and 
        universities to develop high-performance computing applications 
        to address industrial problems. The NSA both develops and uses 
        high-performance computing for a number of applications, 
        including codebreaking. As a user, NSA has a significant impact 
        on the high-performance computing market, but due to the 
        classified nature of its work, the size of its contributions to 
        High-End Computing Infrastructure and Applications and the 
        amount of funding it uses for actual operation of computers is 
        not public.

         Interagency Coordination: The National Coordination Office 
        (NCO) coordinates planning, budget, and assessment activities 
        for the NITRD Program through a number of interagency working 
        groups. The NCO reports to OSTP and the National Science and 
        Technology Council. The NCO also manages the HEC-RTF, an 
        interagency effort on the future of U.S. high-performance 
        computing. The HEC-RTF is tasked with the development of a 
        roadmap for the interagency research and development for high-
        end computing core technologies, a federal high-end computing 
        capacity and accessibility improvement plan, and a discussion 
        of issues relating to federal procurement of high-end computing 
        systems.

8. Witness Questions

    The witnesses were asked to address the following questions in 
their testimony:
Questions for Dr. Marburger

        1.  What are the Administration's views on the High-Performance 
        Computing Revitalization Act of 2004?

        2.  Please describe the findings and recommendations of the 
        High-End Computing Revitalization Task Force. How will these 
        findings and recommendations be incorporated into the 
        Networking and Information Technology Research and Development 
        program that you oversee?

        3.  What are the respective roles of the National Science 
        Foundation and the Department of Energy with regard to the 
        provision of high-performance computing resources to university 
        researchers?
Questions for Dr. Wladawsky-Berger

        1.  How does high-performance computing affect U.S. industrial 
        competitiveness?

        2.  Are current efforts on the part of the federal civilian 
        science agencies in high-performance computing sufficient to 
        assure U.S. leadership in this area? What should agencies such 
        as the National Science Foundation and the Department of Energy 
        be doing that they are not already doing now?

        3.  Where are you targeting IBM's high-performance computing 
        research efforts? Are there particular industrial sectors that 
        will benefit in the near-term from anticipated high-performance 
        computing developments?
Questions for Dr. Stevens

        1.  How does high-performance computing affect the 
        international competitiveness of the U.S. scientific 
        enterprise?

        2.  Are current efforts on the part of the federal civilian 
        science agencies in high-performance computing sufficient to 
        assure U.S. leadership in this area? What should agencies such 
        as the National Science Foundation and the Department of Energy 
        be doing that they are not already doing now?

        3.  Where should the U.S. be targeting its high-performance 
        computing research efforts? Are there particular industrial 
        sectors or science and engineering disciplines that will 
        benefit in the near-term from anticipated high-performance 
        computing developments?
Questions for Dr. Reed

        1.  How does high-performance computing affect the 
        international competitiveness of the U.S. scientific 
        enterprise?

        2.  Are current efforts on the part of the federal civilian 
        science agencies in high-performance computing sufficient to 
        assure U.S. leadership in this area? What should agencies such 
        as the National Science Foundation and the Department of Energy 
        be doing that they are not already doing now?

        3.  Where should the U.S. be targeting its high-performance 
        computing research efforts? Are there particular industrial 
        sectors or science and engineering disciplines that will 
        benefit in the near-term from anticipated high-performance 
        computing developments?

APPENDIX I

    Section-by-Section Analysis of H.R. 4218, the High-Performance 
                  Computing Revitalization Act of 2004

Sec. 1. Short Title

    ``High-Performance Computing Revitalization Act of 2004.''

Sec. 2. Definitions

    Amends section 4 of the High-Performance Computing Act of 1991 (HPC 
Act) to further elaborate on, or amend, the definition of terms used in 
the Act:

        <bullet>  ``Grand Challenge'' means a fundamental problem in 
        science or engineering, with broad economic and scientific 
        impact, whose solution will require the application of high-
        performance computing resources and multi-disciplinary teams of 
        researchers

        <bullet>  ``high-performance computing'' means advanced 
        computing, communications, and information technologies, 
        including supercomputer systems, high-capacity and high-speed 
        networks, special purpose and experimental systems, 
        applications and systems software, and the management of large 
        data sets

        <bullet>  ``Program'' means the High-Performance Computing 
        Research and Development Program described in section 101

        <bullet>  ``Program Component Areas'' means the major subject 
        areas under which are grouped related individual projects and 
        activities carried out under the Program

    Strikes the definition of ``Network'' that refers to the National 
Research and Education Network, which no longer exists as such.

Sec. 3. High-Performance Computing Research and Development Program

    Amends section 101 of the HPC Act, which describes the organization 
and responsibilities of the interagency research and development (R&D) 
program originally referred to as the National High-Performance 
Computing Program--and renamed the High-Performance Computing Research 
and Development Program in this Act. Requires the program to:

        <bullet>  Provide for long-term basic and applied research on 
        high-performance computing

        <bullet>  Provide for research and development on, and 
        demonstration of, technologies to advance the capacity and 
        capabilities of high-performance computing and networking 
        systems

        <bullet>  Provide for sustained access by the research 
        community in the United States to high-performance computing 
        systems that are among the most advanced in the world in terms 
        of performance in solving scientific and engineering problems, 
        including provision for technical support for users of such 
        systems

        <bullet>  Provide for efforts to increase software 
        availability, productivity, capability, security, portability, 
        and reliability

        <bullet>  Provide for high-performance networks, including 
        experimental testbed networks, to enable research and 
        development on, and demonstration of, advanced applications 
        enabled by such networks

        <bullet>  Provide for computational science and engineering 
        research on mathematical modeling and algorithms for 
        applications in all fields of science and engineering

        <bullet>  Provide for the technical support of, and research 
        and development on, high-performance computing systems and 
        software required to address Grand Challenges

        <bullet>  Provide for educating and training additional 
        undergraduate and graduate students in software engineering, 
        computer science, computer and network security, applied 
        mathematics, library and information science, and computational 
        science

        <bullet>  Provide for improving the security of computing and 
        networking systems, including research required to establish 
        security standards and practices for these systems

    Requires the Director of the Office of Science and Technology 
Policy (OSTP) to:

        <bullet>  Establish the goals and priorities for federal high-
        performance computing research, development, networking, and 
        other activities

        <bullet>  Establish Program Component Areas that implement the 
        goals established for the Program and identify the Grand 
        Challenges that the Program should address

        <bullet>  Provide for interagency coordination of federal high-
        performance computing research, development, networking, and 
        other activities undertaken pursuant to the Program

        <bullet>  Develop and maintain a research, development, and 
        deployment roadmap for the provision of high-performance 
        computing systems for use by the research community in the 
        United States

    Leaves substantially unchanged the provisions of the HPC Act 
requiring the Director of OSTP to:

        <bullet>  Provide an annual report to Congress, along with the 
        annual budget request, describing the implementation of the 
        Program, including current and proposed funding levels and 
        programmatic changes, if any, from the previous year

        <bullet>  Consult with academic, State, and other appropriate 
        groups conducting research on and using high-performance 
        computing

    Requires the Director of OSTP to include in his annual report to 
Congress:

        <bullet>  A detailed description of the Program Component 
        Areas, including a description of any changes in the definition 
        of activities under the Program Component Areas from the 
        previous year, and the reasons for such changes, and a 
        description of Grand Challenges supported under the Program

        <bullet>  An analysis of the extent to which the Program 
        incorporates the recommendations of the Advisory Committee 
        established by the HPC Act--currently referred to as the 
        President's Information Technology Advisory Committee (PITAC)

    Requires PITAC to conduct periodic evaluations of the funding, 
management, coordination, implementation, and activities of the 
Program, and to report to Congress once every two fiscal years, with 
the first report due within one year of enactment.
    Repeals section 102 of HPC Act, the ``National Research and 
Education Network,'' which requires the development of a network to 
link research and educational institutions, government, and industry. 
This network was developed but has since been supplanted by the 
Internet.
    Repeals section 103 of the HPC Act, ``Next Generation Internet,'' 
as this program is no longer in existence.

Sec. 4. Agency Activities

    Amends section 201 of the HPC Act, which describes the 
responsibilities of the National Science Foundation (NSF) under the 
Program. Requires NSF to:

        <bullet>  Support research and development to generate 
        fundamental scientific and technical knowledge with the 
        potential of advancing high-performance computing and 
        networking systems and their applications

        <bullet>  Provide computing and networking infrastructure 
        support to the research community in the United States, 
        including the provision of high-performance computing systems 
        that are among the most advanced in the world in terms of 
        performance in solving scientific and engineering problems, 
        including support for advanced software and applications 
        development, for all science and engineering disciplines

        <bullet>  Support basic research and education in all aspects 
        of high-performance computing and networking

    Amends section 202 of the HPC Act, which describes the 
responsibilities of the National Aeronautics and Space Administration 
(NASA) under the Program. Requires NASA to conduct basic and applied 
research in high-performance networking, with emphasis on:

        <bullet>  Computational fluid dynamics, computational thermal 
        dynamics, and computational aerodynamics

        <bullet>  Scientific data dissemination and tools to enable 
        data to be fully analyzed and combined from multiple sources 
        and sensors

        <bullet>  Remote exploration and experimentation

        <bullet>  Tools for collaboration in system design, analysis, 
        and testing

    Amends section 203 of the HPC Act, which describes the 
responsibilities of the Department of Energy (DOE) under the Program. 
Requires DOE to:

        <bullet>  Conduct and support basic and applied research in 
        high-performance computing and networking to support 
        fundamental research in science and engineering disciplines 
        related to energy applications

        <bullet>  Provide computing and networking infrastructure 
        support, including the provision of high-performance computing 
        systems that are among the most advanced in the world in terms 
        of performance in solving scientific and engineering problems, 
        and including support for advanced software and applications 
        development, for science and engineering disciplines related to 
        energy applications

    Amends section 204 of the HPC Act, which describes the 
responsibilities of the Department of Commerce, including the National 
Institute of Standards and Technology (NIST) and the National Oceanic 
and Atmospheric Administration (NOAA), under the Program.
    Requires NIST to:

        <bullet>  Conduct basic and applied metrology research needed 
        to support high-performance computing and networking systems

        <bullet>  Develop benchmark tests and standards for high-
        performance computing and networking systems and software

        <bullet>  Develop and propose voluntary standards and 
        guidelines, and develop measurement techniques and test 
        methods, for the interoperability of high-performance computing 
        systems in networks and for common user interfaces to high-
        performance computing and networking systems

        <bullet>  Work with industry and others to develop, and 
        facilitate the implementation of, high-performance computing 
        applications to solve science and engineering problems that are 
        relevant to industry

    Requires NOAA to conduct basic and applied research in high-
performance computing applications, with emphasis on:

        <bullet>  Improving weather forecasting and climate prediction

        <bullet>  Collection, analysis, and dissemination of 
        environmental information

        <bullet>  Development of more accurate models of the ocean-
        atmosphere system

    Amends section 205 of the HPC Act, which describes the 
responsibilities of the Environmental Protection Agency (EPA) under the 
Program. Requires EPA to conduct basic and applied research directed 
toward the advancement and dissemination of computational techniques 
and software tools with an emphasis on modeling to:

        <bullet>  Develop robust decision support tools

        <bullet>  Predict pollutant transport and their effects on 
        humans and on ecosystems

        <bullet>  Better understand atmospheric dynamics and chemistry

APPENDIX II

Table 1a: Fiscal Year 2003 Budget Requests for High End Computing by 
                    Agencies Participating in the National Information 
                    Technology Research and Development program 
                    (dollars in millions)





                    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    

Source: NITRD National Coordination Office Fiscal Year 2003 Blue Book. 
The Blue Book is released in August of each year, and thus the data on 
FY 2003 spending and FY 2004 budget requests levels has not yet been 
provided to the National Coordination Office.

Note: In addition to the research and development-type activities that 
are counted for the data included in this table and Table 1b, many 
agencies devote significant funding to the purchase and operation of 
high-performance computers that perform these agencies' mission-
critical applications.

Acronyms: DARPA--Defense Advanced Research Projects Agency, DOE/NNSA--
Department of Energy's National Nuclear Security Administration, EPA--
Environmental Protection Agency, NASA--National Aeronautics and Space 
Administration, NIH--National Institutes of Health, NIST--National 
Institute of Standards and Technology, NOAA--National Oceanic and 
Atmospheric Administration, NSA--National Security Agency, NSF--
National Science Foundation, ODDR&E--Office of the Director of Defense 
Research and Engineering.

Table 1b: Funding History from fiscal year 1992 to fiscal year 2003 of 
                    high-performance computing research and development 
                    programs at various agencies (dollars in millions)






                    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                    

Source: NITRD National Coordination Office Blue Books, Fiscal Years 
1992 to 2003.

Acronyms: DARPA--Defense Advanced Research Projects Agency, DOE/NNSA--
Department of Energy's National Nuclear Security Administration, DOE/
SC--Department of Energy's Office of Science, EPA--Environmental 
Protection Agency, NASA--National Aeronautics and Space Administration, 
NIH--National Institutes of Health, NIST--National Institute of 
Standards and Technology, NOAA--National Oceanic and Atmospheric 
Administration, NSA--National Security Agency, NSF--National Science 
Foundation, ODDR&E--Office of the Director of Defense Research and 
Engineering, VA--Department of Veterans Affairs.

Program History: Figures from FY 1992-1995 reflect the funding for the 
High-Performance Computing Systems and the Advanced Software Technology 
and Algorithms Programs. Figures from FY 1996-1999 reflect the funding 
for the High-End Computing and Computation Program. Figures from FY 
2000-2003 reflect the funding for the High-End Computing Infrastructure 
and Applications and Research and Development Programs.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. The hearing will come to order. I want 
to welcome everyone here today to discuss an issue that has 
been of continuing interest to this committee, high-performance 
computing.
    I first became interested in this issue back in the early 
'80s, when I sat right at the end of the first row as a junior 
Member, when Ken Wilson, a Nobel laureate in physics, who was 
then at Cornell, testified that he and his students sometimes 
had to go overseas to get access to the fastest computers.
    Prompted by those concerns, and by concerns about the 
health of the U.S. computing industry, this committee helped 
provide the impetus for the National Science Foundation 
Supercomputer Center program, which I think everyone here would 
agree has been a resounding success.
    Indeed, spawned in part by those centers, there has been a 
supercomputing revolution in this country. High-performance 
computing has become an everyday part of scientific research in 
both academia and industry. Computation has become a third way 
of pursuing scientific questions, along with theory and 
experimentation.
    And while the computing industry doesn't look much like it 
did in the early '80s--thank God for that--revolutions often 
leave bodies in their wake. U.S. computing capability has 
continued to advance, and we often hear that today's desktop 
computers have the power that was once limited to the highest-
end models. It never ceases to amaze me that my 12-year-old 
grandson can hold some game of his in his hands that has 
greater capacity than what I was initially exposed to when 
Sperry Univac developed something way back when.
    But we can't take that success for granted, and indeed, 
there are signs of trouble ahead. The Japanese Earth Simulator 
was a wake-up call that our leadership is being challenged and 
that we, perhaps, had put too many of our eggs in pursuing 
computer architectures with commercial applications. And we are 
starting once again to hear concerns from academia that they 
may not have continuing access to the fastest machine. That 
sounds an alarm.
    This concern is provoked, in part, by the somewhat mixed 
signals being sent both by NSF and the Department of Energy 
about how they will proceed in the future. I am also concerned 
that we not have a situation in which NSF and DOE both run to 
catch this particular ball, and end up with it falling between 
them.
    The antidote to all of this is, in part, to re-invigorate 
the interagency process we put together in the High-Performance 
Computing Act of 1991. I particularly wish to congratulate Mrs. 
Biggert and Mr. Davis for introducing a bill that would do just 
that. We plan to move this bill forward swiftly.
    We hope that the revived process and clearer focus called 
for in the bill will ensure an integrated, adequately funded 
supercomputing effort among the federal agencies that will help 
the computing industry develop new machines and will help 
academic researchers gain access to them.
    I hope our distinguished witnesses today will help us 
figure out how we can accomplish these goals and what else we 
should be doing, and I hope that Dr. Marburger will be able to 
assure us that we will be investing the necessary resources in 
high-performance computing which now undergirds all of science 
and engineering.
    With that, let me yield the remainder of my time to Mrs. 
Biggert, the chair of our Energy Subcommittee, to talk about 
her bill.
    [The prepared statement of Mr. Boehlert follows:]
            Prepared Statement of Chairman Sherwood Boehlert
    I want to welcome everyone here today to discuss an issue that has 
been of continuing interest to this committee, high-performance 
computing.
    I became interested in this issue back in the early '80s, in the 
first years I served on this committee, when Ken Wilson, a Nobel 
laureate in physics who was then at Cornell, testified that his 
students sometimes had to go overseas to get access to the fastest 
computers.
    Prompted by those concerns, and by concerns about the health of the 
U.S. computing industry, this committee helped provide the impetus for 
the National Science Foundation (NSF) supercomputer center program, 
which I think everyone here would agree has been a resounding success.
    Indeed, spawned in part by those centers, there has been a 
supercomputing revolution in this country. High-performance computing 
has become an everyday part of scientific research in both academia and 
industry; computation has become a third way of pursuing scientific 
questions, along with theory and experimentation.
    And while the computing industry doesn't look much like it did in 
the early '80s--revolutions often leave bodies in their wake--U.S. 
computing capability has continued to advance, and we often hear that 
today's desktop computers have the power that was once limited to the 
highest-end models.
    But we can't take that success for granted, and indeed there are 
signs of trouble ahead. The Japanese Earth Simulator was a wake-up call 
that our leadership is being challenged and that we perhaps had put too 
many of our eggs in pursuing computer architectures with commercial 
applications. And we are starting once again to hear concerns from 
academia that they may not have continuing access to the fastest 
machines.
    This concern is provoked, in part, by the somewhat mixed signals 
being sent both by NSF and the Department of Energy (DOE) about how 
they will provide access in the future. I'm also concerned that we not 
have a situation in which NSF and DOE both run to catch this particular 
ball and end up with it falling between them.
    The antidote to all of this is, in part, to re-invigorate the 
interagency process we put together in the High-Performance Computing 
Act of 1991. I want to congratulate Mrs. Biggert and Mr. Davis for 
introducing a bill that would do just that. We plan to move the bill 
forward swiftly.
    We hope that the revived process and clearer focus called for in 
the bill will ensure an integrated, adequately funded supercomputing 
effort among the federal agencies that will help the computing industry 
develop new machines and will help academic researchers gain access to 
them.
    I hope our distinguished witnesses today will help us figure out 
how we can accomplish those goals and what else we should be doing, and 
I hope that Dr. Marburger will be able to assure us that we will be 
investing the necessary resources in high-performance computing, which 
now undergirds all of science and engineering.
    With that, let me yield the remainder of my time to Mrs. Biggert, 
the chair or our Energy Subcommittee, to talk about her bill.

    Ms. Biggert. Thank you, Mr. Chairman, and thank you for 
yielding me time, and thank you for holding this hearing today.
    When we think of how computers affect our lives, we 
probably think of the work we do on our office desktop 
machines, or maybe the Internet surfing we do in our spare 
time. We don't normally think of the enormous contribution that 
supercomputers, also called high-performance computers, make to 
the world around us.
    You can't have world class science if you don't have world-
class computers, and that's why my bill, H.R. 4218, allows U.S. 
researchers access to the high-performance computing systems 
that are among the most advanced in the world. To facilitate 
broader and easier access, H.R. 4218 also provides technical 
support for those users.
    Keeping high-performance computing strong in this country 
requires coordination of our R&D efforts. Unfortunately, the 
interagency planning progress has lost the vitality it once 
had. Congress must find a way to invigorate that process. My 
bill does so by requiring the White House Office of Science and 
Technology Policy to direct an interagency planning process and 
develop and maintain a roadmap for the research, development, 
and deployment of high-performance computing resources.
    The report Dr. Marburger has brought with him today is an 
excellent beginning, and I commend the High-End Computing 
Revitalization Task Force for making this valuable 
contribution. It is clear from the report that we have a lot of 
catching up to do, but now, we have a map for the first part of 
our journey.
    There is more to supercomputing than building big machines. 
We need to have a balanced approach that includes software, 
algorithm, and applications development, development of 
technical standards, and education and training. H.R. 4218 
requires the relevant federal agencies to support all these 
aspects of high-performance computing.
    We could not imagine the kind of problems that the 
supercomputers of tomorrow will be able to solve, but we can 
imagine the kind of problems we will have if we fail to provide 
researchers in the United States with the computing resources 
they need to remain world-class.
    I look forward to today's testimony on this important 
issue, and yield back.
    [The prepared statement of Mrs. Biggert follows:]
           Prepared Statement of Representative Judy Biggert
    When we think of how computers affect our lives, we probably think 
of the work we do on our office desktop machines, or maybe the Internet 
surfing we do in our spare time. We don't normally think of the 
enormous contribution that supercomputers--also called high-performance 
computers--make to the world around us.
    World-class computers are essential for doing world-class science. 
My bill, H.R. 4218, ensures that the U.S. research community has access 
to high-performance computing systems that are among the most advanced 
in the world, and provides technical support for users of these 
systems.
    Keeping high-performance computing strong in this country requires 
support at the federal level. Unfortunately, interagency planning 
process has lost the vitality it once had. Congress must find a way to 
reinvigorate that process. My bill does so by requiring the White House 
Office of Science and Technology Policy to develop and maintain a 
research, development, and deployment roadmap for the provision of 
high-performance computing resources to the U.S. research community.
    The report Mr. Marburger has brought with him today is an excellent 
beginning and I commend the Task Force for making this valuable 
contribution. It's clear from the report that we have a long way to go, 
but now we have a map for the first part of our journey.
    We know it's not enough to simply buy big machines. We need to have 
a balanced approach that includes software, algorithm and applications 
development; development of technical standards; education, and 
training. I note that my bill provides support for all these aspects of 
high-performance computing.
    As we meet in this chamber today, we cannot imagine the kinds of 
problems that the supercomputers of tomorrow will be able to solve. But 
we can imagine the kind of problems we will have if we fail to provide 
researchers in the United States with the computing resources they need 
to remain world-class. I look forward to hearing today's testimony on 
this important issue.
    Thank you.

    Chairman Boehlert. Thank you very much. Mr. Davis.
    Mr. Davis. Mr. Chairman, thank you very much. I am pleased 
to join you in welcoming our witnesses in this hearing that we 
are having on H.R. 4218, the High-Performance Computing 
Revitalization Act of 2004, which Congresswoman Biggert and I 
have introduced.
    I look forward to working with you on this bill. The need 
for the legislation we are considering arises from what I would 
characterize as a weakening of the planning mechanisms for the 
program established in the High-Performance Computing Act of 
1991. The annual program plan required by the 1991 statute is 
no longer delivered to Congress at the time of the President's 
budget submission, and it now serves as, more often, an 
overview of past results than as a description and rationale 
for funding priorities going forward.
    Another strong indicator for breakdown in the planning 
process is the special task force that was created last year to 
assess federal efforts to deploy and develop high-end computing 
systems, partly in response to the concern that the U.S. was 
falling behind in this technology.
    This matter clearly should have been an important agenda 
item, and subsequently addressed in a comprehensive way, under 
the normal interagency planning and coordinating process that 
was established by the 1991 Act.
    The High-Performance Computing Revitalization Act has 
specific provisions that attempt to elevate the priority of 
high-end computing under this program. It also seeks to 
strengthen the process for allocating program priorities, and 
improving program implementation by requiring formal biennial 
reviews by the President's Information Technology Advisory 
Committee.
    Today, the Committee will hear from the President's science 
advisor, and from outside experts who have been asked to review 
the bill and provide their comments and recommendations. I am 
interested, obviously, in your views on whether the current 
priorities and resource allocations of interagency programs are 
properly balanced, and whether the current agency roles are 
effective.
    In my District, we are particularly proud of Oak Ridge 
National Lab as it leads the supercomputing efforts of the 
Department of Energy. Oak Ridge and its partners will receive a 
$25 million grant from the Department of Energy for a 
supercomputer to be housed in a new 170,000 square foot 
facility and supported by a staff of 400.
    I am thrilled that East Tennessee will be the new home of 
the world's fastest computer. I appreciate the attention of 
our--the attendance of our witnesses, and I look forward to our 
discussion. I yield back the remainder of my time.
    [The prepared statement of Mr. Davis follows:]
           Prepared Statement of Representative Lincoln Davis
    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
to this hearing on H.R. 4218, the High-Performance Computing 
Revitalization Act of 2004, which Congresswoman Biggert and I have 
introduced.
    The need for the legislation we are considering today arises from 
what I would characterize as a weakening of the planning mechanism for 
the program established in the High-Performance Computing Act of 1991. 
The annual program plan required by the 1991 statute is no longer 
delivered to Congress at the time of the President's budget submission, 
and it now serves as more of an overview of past results than as a 
description and rationale for funding priorities going forward. Another 
strong indicator of a breakdown in the planning process is the special 
task force that was created last year to assess federal efforts to 
develop and deploy high-end computing systems, partly in response to 
concerns that the U.S. was falling behind in this technology. This 
matter clearly should have been an important agenda item, and 
subsequently addressed in a comprehensive way, under the normal 
interagency planning and coordination process established by the 1991 
Act.
    The High-Performance Computing Revitalization Act has specific 
provisions that attempt to elevate the priority of high-end computing 
under the program. It also seeks to strengthen the process for 
allocating program priorities and improve program implementation by 
requiring formal biennial reviews by the President's Information 
Technology Advisory Committee.
    Today, the Committee will hear from the President's Science Advisor 
and from outside experts who have been asked to review the bill and 
provide their comments and recommendations. I am interested in their 
views on whether the current priorities and resource allocations of the 
interagency program are properly balanced and whether current agency 
roles are effective.
    In my district, we are particularly proud of Oak Ridge National 
Laboratory as it leads the supercomputing efforts for the Department of 
Energy. Oak Ridge and its partners will receive a $25 million grant 
from the Department of Energy for a supercomputer to be housed in a new 
170,000 square foot facility and supported by a staff of 400. I am 
thrilled that East Tennessee will be the new home of the world's 
fastest computer.
    I appreciate the attendance of our witnesses, and I look forward to 
our discussion.

    Chairman Boehlert. Thank you very much, Mr. Davis.
    [The prepared statement of Mr. Smith follows:]
            Prepared Statement of Representative Nick Smith
    I'd like to thank Chairman Boehlert and Ranking Member Gordon for 
holding this hearing to examine the Federal Government's role in the 
development of high-performance computing capabilities. I would also 
like to thank the distinguished witnesses for joining us here today.
    Supercomputers allow us to make discoveries and develop new 
products more quickly and at a much lower cost than we would have 
thought imaginable even 10 years ago. I welcome Dr. John H. Marburger, 
III, Dr. Irving Wladawsky-Berger, Dr. Rick Stevens, Dr. Daniel Reed 
here today and look forward to learning more about the current uses, 
issues and relevance in the development of high-performance computers
    As the Chairman of the Research Subcommittee, I am especially 
interested in the much needed continuous investment at all stages of 
the technology pipeline, from initial investigation of new concepts to 
technology demonstrations and products. With no initial, speculative 
research, this becomes a problem with no gain or success. With the 
current lack of technology demonstrations, new research ideas are much 
less likely to grow beyond anything but an idea. Continuous investment 
is needed in all contributing sectors and agencies including but not 
limited to the financial investment and support. Universities, national 
laboratories, private sector corporations and vendors need to share in 
every aspect of the effort to develop high-performance computers that 
will better the U.S. both economically by providing jobs, but also by 
gaining respect among the international community.
    In my home state of Michigan, the auto industry is the source of a 
lot of jobs, but I don't think anyone back home will be too concerned 
if supercomputer impact modeling puts a few crash test dummies out of 
work.
    Supercomputers are vitally important to our technological and 
economic competitiveness globally, so it is obviously disturbing that 
Japan's Earth Simulator is faster and more efficient than anything in 
the United States. The best hope for the U.S. to maintain its edge 
against rising global competition is by fostering and expanding our 
most prized intellectual asset: innovation. Over the past 30 years, 
innovation has given the U.S. and the rest of the world wave after wave 
of technological advancement and generated millions of high-skilled 
jobs. If we want to ensure that successive waves of innovation begin in 
the U.S., and that U.S. workers are first to benefit from ``the next 
big things,'' we have to have necessary innovation infrastructure in 
place. I'm glad that we are talking about this issue today, but I hope 
that we don't rush to judgment on how the Federal Government can 
``fix'' the problem.
    According to an April, 2003 report, IBM it is developing, in 
conjunction with Lawrence Berkeley National Laboratory and Argonne 
National Laboratory, a system that will perform at twice the level as 
the Earth Simulator by 2005. In addition, the Department of Energy has 
contracted with IBM to develop two systems, ASCI Purple and Blue Gene/
L, that together will be able to perform 460 trillion operations per 
second. The Earth Simulator's peak capability is 40 trillion operations 
per second.
    There may be some need to adjust how the Federal Government 
supports high-end computing to address areas of need for specific 
industries or types of research. Still, America's supercomputing 
capabilities are technologically competitive and I hope that as we move 
forward with this dialogue that we focus on ways to build on that 
strong track record.
    Again, I would like to thank the Chairman and Ranking Member for 
holding this hearing.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss federal research and development activities in 
support of high-performance computing and the High-Performance 
Computing Revitalization Act of 2004 recently introduced by my 
colleagues Congresswoman Biggert and Congressman Davis. Supercomputers 
are an essential component of U.S. scientific, industrial, and military 
competitiveness. Users of these computers are spread throughout 
government, industry, and academia.
    Within my home state of Illinois, the University of Illinois has 
the Center for Supercomputing Research and Development (CSRD). The CSRD 
conducts research in supercomputing and parallel processing and has 
developed the Cedar panel processing system to demonstrate that this 
technology is practical across a wide range of applications.
    As the U.S. develops new high-performance computing capabilities, 
continued coordination among agencies and between government and 
industry will be required. The bill introduced by my colleagues seeks 
to improve coordination and accomplish the goal of developing new 
capabilities efficiently so that all of the scientific, governmental, 
and industrial users have access to the high-performance computing 
hardware and software best suited to their needs.
    I am interested to know about the current state of U.S. 
competitiveness in supercomputing. Further, I am interested to know if 
adequate research programs are currently in place for the development 
of future supercomputing systems that will meet the needs of most 
science and engineering fields.
    I thank the witnesses for appearing before our committee and look 
forward to their testimony.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman, for calling this hearing to examine the 
very important issue of High-Performance Computing. I also want to 
thank our witnesses for agreeing to appear today.
    We are here to examine the role the Federal Government can play in 
high-performance computing research and development activities. There 
has been much discussion on whether the United States is losing ground 
to foreign competitors in the production and use of supercomputers and 
whether federal agencies' proposed paths for advancing our 
supercomputing capabilities are adequate to maintain or regain the U.S. 
lead.
    As we all know, a high-performance computer, also called a 
supercomputer, is a broad term for one of the fastest computers 
currently available. Such computers are typically used for number 
crunching, including scientific simulations, (animated) graphics, 
analysis of geological data (e.g., in petrochemical prospecting), 
structural analysis, computational fluid dynamics, physics, chemistry, 
electronic design, nuclear energy research, and meteorology.
    Supercomputers are state-of-the-art, extremely powerful computers 
capable of manipulating massive amounts of data in a relatively short 
time. They are very expensive and are employed for specialized 
scientific and engineering applications that must handle very large 
databases or do a great amount of computation, among them meteorology, 
animated graphics, fluid dynamic calculations, nuclear energy research 
and weapon simulation, and petroleum exploration.
    High-performance computers are gaining popularity in all corners of 
corporate America. They are used to analyze vehicle crash tests by auto 
manufacturers, evaluate human diseases and develop treatments by the 
pharmaceutical industry and test aircraft engines by the aero-space 
engineers.
    It is quite evident that supercomputing will become more important 
to America's commerce in the future. I look forward to working with 
this committee on its advancement. Again, I wish to thank the witnesses 
for coming here today to help us conceptualize this goal.

    [The prepared statement of Ms. Jackson Lee follows:]
        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    'hank you for convening this timely and provocative hearing. It 
seems that almost everything we do in Science, in Research and 
Development, is all critically dependent on computers and information 
analysis. American leadership in everything from Space exploration, to 
drug design, to defense could be jeopardized by losing the edge in 
computing speed and efficiency. The startup of the Earth Simulator in 
Japan two years ago served as a wake-up call that perhaps we are 
lagging in this critical field.
    We need to take a close look at the possible effects of our 
investments, or lack of investments, in supercomputing technology. What 
might be the long-term effects of giving up leadership in 
supercomputing? Will that loss trickle-down and lead to us falling 
behind in chip manufacturing, software design, or education of the 
next-generation engineers and computer scientists? Will our industries 
and perhaps even defense become dependent on a foreign power?
    I hope not. It is in the American spirit to strive for excellence. 
The High-Performance Computing Act of 1991 was meant to set us on a 
course to retain our leadership in computing in an array of scientific 
and engineering fields. Unfortunately, that initiative is falling into 
disarray. The Administration's proposed budget for FY 2005 actually 
cuts the coordinated R&D program by one percent, at a time when our 
economy is still struggling to rebound and federal investments in 
growth industries are absolutely critical.
    To accent the lack of ``vitality'' in our high-end computing 
endeavors, the President's budget description includes a new ``High-End 
Computing Revitalization Task Force'' with members from around various 
federal R&D agencies.
    We are at a cross-roads here. Japan has recently taken a lead in 
the supercomputing race--we can either celebrate their progress and 
find ways to capitalize on their investments, or we can be spurred on 
to greatness on our own. This committee, with excellent leadership from 
the Chairman and Ranking Member, has never been afraid to take on such 
far-reaching questions. I welcome this fine panel of experts to guide 
us through this dialogue, and thank them for taking the time to be here 
today.
    I look forward to the discussion. Thank you.

    Chairman Boehlert. And now, for our very distinguished 
panel, and I want to thank all of you for being resources to 
this committee. You help us learn, and then hopefully, we can 
follow and lead.
    Dr. John H. Marburger III, Director of the White House 
Office of Science and Technology Policy. Dr. Marburger, welcome 
back. Dr. Irving Wladawsky-Berger, Vice President for 
Technology and Strategy, IBM Corporation. Doctor. And for the 
purposes of an introduction, the Chair now recognizes the 
gentlelady from Illinois, Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman. It is my pleasure to 
introduce one of our witnesses, Dr. Rick Stevens. Dr. Stevens 
is the Director of the Mathematics and Computer Science 
Division at Argonne National Laboratory, which is located in my 
District, as if you didn't know, because I mention it all the 
time, but----
    Chairman Boehlert. The whole world knows.
    Ms. Biggert. He is also a Director of the National Science 
Foundation TerraGrid project, which aims to build the Nation's 
most comprehensive open infrastructure for scientific 
computing. And I think it is safe to say that he is probably 
one of the smartest residents of my District, and it is an 
honor for me to be able to congratulate him publicly today.
    As Mr. Davis mentioned just yesterday, the DOE announced 
that Oak Ridge National Laboratory and Argonne, in partnership 
with IBM, Cray, and Silicon Graphics, had won a peer-reviewed 
competition to develop the next generation architectures for 
high-performance computers. So congratulations, Dr. Stevens, 
for leading your team at Argonne in this successful 
collaborative effort, and also congratulations to Dr. 
Wladawsky-Berger from IBM.
    So welcome, Dr. Stevens.
    Dr. Stevens. Thank you.
    Chairman Boehlert. Thank you very much, and 
congratulations, Dr. Stevens. You have a very effective 
advocate here in Washington. She is sitting to my left. And for 
the purposes of an introduction, the Chair recognizes Mr. 
Miller of North Carolina.
    Mr. Miller. Thank you, Mr. Chairman. I am pleased to 
introduce Professor Daniel A. Reed, who now resides in North 
Carolina. He is the Director of the Renaissance Computing 
Institute--is it pronounced RENCI--an interdisciplinary center 
spanning the University of North Carolina-Chapel Hill, Duke 
University, and North Carolina State University.
    Before that, he was the Director of the National Center for 
Supercomputing Applications at the University of Illinois at 
Urbana-Champaign, where he also led the National Computational 
Science Alliance, a consortium of roughly 50 academic 
institutions and national laboratories that is developing the 
next generation of software infrastructure for scientific 
computing; was one of the principal investigators and chief 
architect of the NSF TerraGrid.
    Professor Reed is also the former head of the Department of 
Computer Science at the University of Illinois, which is one of 
the oldest and most highly ranked computer science departments 
in the country, although I assume he will bring the ranking 
with him now to my alma mater.
    He is the William R. Kenan, Jr. Eminent Professor at the 
University of North Carolina-Chapel Hill, where he conducts 
interdisciplinary research in high-performance computing.
    Chairman Boehlert. Thank you very much, and Dr. Stevens and 
Dr. Reed, it must comfort you some to know that you have Mr. 
Miller and Ms. Biggert here constantly reminding us of the 
excellence with which you do your work.
    This is a wonderful panel, and I also want to have a couple 
of words to say about one who is not here today. That is Mr. 
Robert Bishop, Chairman and Chief Executive Officer of Silicon 
Graphics, Inc. He has coined a phrase that I think neatly sums 
up the task before us, and this is his phrase: ``In order to 
out-compete economically in the 21st Century, America will have 
to out-compute its international competitors.''
    Mr. Bishop had come to Washington from the West Coast to 
testify at a hearing that unfortunately had to be cancelled 
because of the schedule of the House. He could not join us 
today, but he is a valuable resource, also, as all of the panel 
members are, and we appreciate his good words.
    We will start with Dr. Marburger.
    Dr. Marburger. Thank you, Mr. Chairman.
    I welcome this opportunity to discuss high-performance 
computing and the Administration's views on the High-
Performance Computing Revitalization Act of 2004. And I ask 
that my full written statement be included in the record.
    I have a short oral presentation.
    Chairman Boehlert. And without objection, the full 
statements of all the panelists will be included in their 
entirety in the record. We would ask that you try to 
summarize--or not be arbitrary in the time allocated, but we 
give you a guideline, five to seven minutes.
    Thank you.

STATEMENT OF DR. JOHN H. MARBURGER, III, DIRECTOR, WHITE HOUSE 
            OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Thank you.
    Information technology does underlie many of the most 
technological developments of our time. It plays an enabling 
role in all of the President's priorities--winning the war on 
terrorism, securing our homeland, and strengthening the 
economy. Consequently, networking and information technology 
R&D continues to be one of this Administration's highest 
interagency R&D priorities. Our Office of Science and 
Technology Policy is actively engaged in interagency 
coordination of this area.
    The High-Performance Computing Act of 1991 laid the 
foundations for the multi-agency networking and information 
technology R&D program, which we call NITRD, which represents 
the Federal Government's combined R&D efforts in this field. 
This program remains a priority of this Administration, and is 
flourishing today.
    In the High-Performance Computing Revitalization Act of 
2004, the Committee has provided a timely update of this 
important legislation, while preserving the original 
legislation's intent and scope. I share your enthusiasm for and 
commitment to high-performance computing, and I am pleased to 
convey the Administration's support for this bill, the High-
Performance Computing Revitalization Act of 2004, in its 
current form.
    I would like to take this opportunity to mention some 
Administration initiatives related to high-end computing, or 
supercomputing, which has been and continues to be a high 
priority area within the broader NITRD program. The President's 
Fiscal Year 2004 and 2005 budgets stressed the importance of 
high-end computing, as did a priority guidance memo that was 
sent out, or will be sent out soon--actually, in the previous 
year, for Fiscal Year 2005. This is a document that the OMB 
Director and I send to the heads of science and technology 
agencies every year to outline our top multi-agency R&D 
priorities, and NITRD has been a priority ever since I have 
been in Washington.
    We emphasize high-end computing, because the technical 
activities requiring it are growing, creating a need for 
advanced computational capabilities that has never been 
greater. Decisions made years ago that were sensible at the 
time led to a dependence largely on bundled clusters of 
commercial, off-the-shelf processors. The promise of high 
aggregate performance at relatively low cost made the choice of 
these systems highly attractive. However, while these systems 
are effective for some classes of applications, many others, 
including certain applications relevant to national security 
analyses, are poorly served by these commercial, off-the-shelf 
based solutions. Addressing this problem, however, is costly, 
beyond the resources of all but a few federal agencies, and 
virtually all private sector enterprises.
    In the 1990s, due to the limited market for high-end 
computing systems and the dramatic expansion of the market for 
low and mid-range systems, the U.S. computer industry focused 
primarily on the hardware and software needs of business 
applications and smaller scale scientific and engineering 
problems, and as a result, the flow of R&D needed to maintain 
high-end computing technologies in the U.S., and the human 
capital required to sustain its cutting edge, have failed to 
keep up with the opportunities for development.
    With these concerns in mind, my office, OSTP, created a 
task force under the auspices of the National Science and 
Technology Council, and made up of agency experts in high-end 
computing. This High-End Computing Revitalization Task Force, 
with an unpronounceable acronym, was asked to develop a 
forward-looking plan for federal high-end computing. And I am 
pleased to provide the Committee today with the Task Force's 
report, The Federal Plan for High-End Computing, which you 
have, I think everyone here has it.
    In it, the Task Force addresses the needs of major federal 
science and technology areas for high-end computing, 
articulating and synthesizing the urgent problems facing high-
end computing, and providing proposed solutions for addressing 
them.
    These include detailed roadmaps for investments in key R&D 
areas, which include hardware, software and systems. 
Importantly, the report also includes a recommendation that 
future so-called leadership class systems--leading edge high 
capability computers capable of tackling heretofore unsolvable 
computational problems--be treated as national resources for 
use by all of the agencies that participate in the systems 
development, and those agencies' constituents. I provided more 
information on the Task Force's findings and recommendations in 
my extensive written testimony.
    The recommendations will certainly not be implemented 
overnight. They will require a dedicated effort by all the 
relevant agencies, and OSTP is committed to facilitating this 
effort. Some benefits of the Task Force's work are already 
evident, primarily as a result of the high level of interagency 
cooperation in preparing the report. To cite just one example, 
three agencies, NSF, Department of Energy's Office of Science, 
and the Department of Defense, have combined forces to initiate 
the High-End Computing University Research Activity, a pilot 
program aimed at funding basic research in different theme 
areas related to high-end computing. Joint planning has led to 
two closely coordinated solicitations. The agencies' 
involvement in the Task Force was a key factor in the 
development of this program, and a sign of the future benefits 
we can expect from this important effort.
    I commend the Task Force for developing this report and for 
their commitment to continue the work they have begun, by 
making high-end computing a continued vigorous interagency 
activity that fully captures the synergies evident in this 
report, and I look forward to working with all of the agencies 
this year, to see that the Task Force's recommendations are 
considered in the preparation of the agencies' Financial Year 
'06 budget requests. Addressing the issues facing the Nation's 
high-end computing enterprise will require a sustained and 
coordinated effort. The Task Force's report constitutes an 
important first step.
    And Mr. Chairman, I think this hearing itself is another 
important step. Thank you very much for the opportunity to 
address you on this issue today.
    [The prepared statement of Dr. Marburger follows:]
              Prepared Statement of John H. Marburger, III
    Mr. Chairman and Members of the Committee, I am pleased to meet 
with you today to discuss high-performance computing and share with you 
the Administration's views on the High-Performance Computing 
Revitalization Act of 2004. Networking and information technology (IT) 
research and development (R&D) continues to be one of this 
Administration's highest interagency R&D priorities, and the Office of 
Science and Technology Policy (OSTP) is actively engaged in interagency 
coordination of this area.
    Advancements in IT underlie many of the most important 
technological developments of our time. The influence of IT is truly 
pervasive, having a profound impact on the way we work, learn, do 
business, and communicate. IT plays an enabling role in all of the 
President's priorities: winning the war on terrorism, securing the 
homeland, and strengthening the economy. Its impact in this last area 
has been particularly profound, with tremendous increases in 
productivity, in particular, serving to reshape the economy. Virtually 
all aspects of commerce today have felt the impact of IT, from product 
development to supply-chain management. Federally-funded R&D underpins 
these advances.

The NITRD program

    For all of these reasons, the multi-agency Networking and IT R&D 
(NITRD) program, which represents the Federal Government's combined R&D 
efforts in this field, has been and remains a priority of this 
Administration. As such, it has been featured in each of President 
Bush's budget requests to Congress. The R&D aspects of the Budget are 
in turn shaped in part by the memorandum that the Office of Management 
and Budget (OMB) Director and I send to the heads of agencies with 
science and technology responsibilities every year, outlining our top 
multi-agency R&D priorities. Agencies take this memo into account when 
crafting their budget submissions. The commitment to the NITRD 
portfolio signaled in these memos is reflected in the funding increases 
this program--one of the more mature R&D programs in the federal 
portfolio--has realized. The increases to the NITRD portfolio total 14 
percent, to over $2 billion, since President Bush took office in 2001.
    A formal interagency working group, which exists under the National 
Science and Technology Council's (NSTC's) Committee on Technology, 
coordinates interagency efforts related to the NITRD program. The NSTC 
is a Cabinet-level council that advises the President on science and 
technology. It is chaired by the President or Vice President, though 
that responsibility is typically delegated to the OSTP Director. It is 
the principal means to coordinate science and technology matters within 
the federal research and development enterprise.
    The Interagency Working Group on NITRD is made up of experts from 
12 different agencies with responsibilities for R&D in networking and 
IT. The group meets regularly and has established seven reporting 
categories in order to focus on particular areas of emphasis within the 
overall NITRD portfolio. These Program Component Areas (PCAs) cover the 
following areas: (1) high-end computing infrastructure and 
applications, (2) high-end computing research and development, (3) 
human computer interaction and information management, (4) large-scale 
networking, (5) software design and productivity, (6) high-confidence 
software and systems, and (7) social, economic and workforce issues 
related to IT. Coordinating groups associated with these PCAs meet 
regularly to determine research needs, coordinate activities, and 
review progress.
    Every year, the NITRD ``blue book''--a supplement to the 
President's Budget--outlines the activities and funding levels for each 
of the seven areas listed above. This document provides more detailed 
descriptions of NITRD program activities and more specific budgetary 
information than is present in the overall Budget. The FY 2005 blue 
book will be available this summer.
    The President's Information Technology Advisory Committee (PITAC), 
which is made up of private sector representatives with expertise in 
IT, provides expert, outside advice to the NITRD program. President 
Bush announced his intention to appoint the current 24 members of PITAC 
to their positions in May of last year. They have since tackled the 
important issue of the role of IT in the health care system, and are 
embarking on an examination of the Nation's cyber security R&D 
activities. A future activity will address issues related to 
computational science, a field that focuses on scientific simulation.

The High-Performance Computing Revitalization Act of 2004

    Both the NITRD program's and PITAC's foundations are found in the 
High-Performance Computing Act of 1991 (P.L. 102-194). The Act, which 
was subsequently updated with the Next Generation Internet Act of 1998 
(P.L. 105-305), defines an interagency program for the Nation's 
networking and IT R&D activities. It required the formation of goals 
and priorities for high-performance computing, which was defined 
broadly to mean ``advanced computing, communications, and information 
technologies.. . .'' It required establishment of an advisory committee 
to provide outside advice to the program, and identified specific 
agency activities.
    The program that developed from this legislation--the NITRD 
program--is flourishing today. In the High-Performance Computing 
Revitalization Act of 2004, the Committee has provided a timely update 
of this important legislation while preserving the original 
legislation's intent and scope. I share your enthusiasm for and 
commitment to high-performance computing and I am pleased to convey the 
Administration's support for the High-Performance Computing 
Revitalization Act of 2004, in its current form.

High-end computing within the NITRD program

    High-end computing--or supercomputing, as it is sometimes referred 
to--is an important element of the NITRD program. Certain of today's 
important and unsolved scientific and engineering problems can be 
answered only with high-end computers employing hundreds to thousands 
of times more computational power than is available in today's systems. 
These unsolved problems include important national security challenges 
in areas such as cryptanalysis and image processing of satellite and 
other data, as well as important scientific and technological questions 
related to the analysis of complex systems such as aircraft, the 
atmosphere, and biological systems.
    Two PCAs exist to support interagency coordination of high-end 
computing within the NITRD program, one on Infrastructure and 
Applications, and the other on R&D. Together, they encompass advances 
in hardware, software, architecture, and application systems; advanced 
concepts in quantum, biological, and optical computing; algorithms for 
modeling and simulation of complex physical, chemical, and biological 
systems and processes; and information-intensive science and 
engineering applications.
    A number of agencies with active interest in high-end computing 
participate in coordination: the National Science Foundation (NSF), the 
National Institutes of Health (NIH), the National Aeronautics and Space 
Administration (NASA), the Department of Defense (DOD), which includes 
the Defense Advanced Research Projects Agency (DARPA), the National 
Security Agency, and the Office of the Director, Defense Research and 
Engineering, the Department of Energy (DOE) (both the Office of Science 
and the National Nuclear Security Administration), the National 
Institute of Standards and Technology (NIST), the National Oceanic and 
Atmospheric Administration, and the Environmental Protection Agency 
(EPA).
    High-end computing has been and continues to be a high-priority 
area within the NITRD program. The President's FY 2004 and 2005 Budgets 
stressed the importance of high-end computing, as did the OSTP/OMB FY 
2005 guidance memorandum I referred to earlier.

NSF's and DOE's provision of high-end computing resources to academic 
                    researchers

    I understand that the Committee is particularly interested in 
better understanding the provision of high-end computing resources by 
DOE and NSF to university researchers. NSF remains the largest provider 
of supercomputing resources to academic researchers, though need 
continues to outstrip demand. In addition to NSF-funded scientists and 
engineers, users include large numbers of NIH-, NASA-, and DOE-funded 
scientists and engineers.
    NSF support for high-performance computing will continue to advance 
a broad range of science and engineering areas, with emphasis on the 
support of university-based science and engineering research and 
education. Moreover, the national community has identified a pressing 
need to create a state-of-the-art cyberinfrastructure that integrates 
and makes broadly accessible state-of-the-art high-performance compute 
nodes, research instruments that generate research data, data storage 
and management resources, visualization tools that advance capabilities 
to interpret and analyze data, and new tools for collaboration.
    Responsive to this need, NSF's focus on cyberinfrastructure will 
continue to advance high-performance computing while broadening the 
scope of facilities and services supported to create new science and 
engineering knowledge. In addition, NSF will continue, through 
education, outreach and training as well as development of ``services'' 
to make this new cyberinfrastructure available to and usable by a wider 
range of the national research and education community.
    NSF-funded high-performance computing centers include the San Diego 
Supercomputing Center, the National Center for Supercomputing 
Applications, and the Pittsburgh Supercomputing Center. These Centers 
are partnering in the Teragrid effort that integrates their leading 
edge high-end computing facilities with complementary resources at the 
California Institute of Technology, Argonne National Laboratory, 
Indiana University, Purdue University, the University of Texas, and Oak 
Ridge National Laboratory; the resources are connected by a high-
performance backbone network (40 gigabytes/second). NSF's Middleware 
Initiative is developing software to support distributed applications 
including collaboration and grid computing.
    NSF builds on a wide range of collaborations among universities, 
federal partnerships (including DOE and DOE Labs), and other sectors. 
Access to these facilities is available to university researchers 
through application to the centers. Accounts tailored to development, 
mid- and high-range needs, educational use, and for Southeastern 
Universities Research Association and Experimental Program to Stimulate 
Competitive Research applicants are available. The Partnerships for 
Advanced Computational Infrastructure and Teragrid facilities allocated 
more than 169,000,000 CPU (central processing unit) hours to users in 
FY 2003. Upgrades, both in progress and planned, will significantly 
increase available CPU hours.
    NSF continues significant investments in high-end computing; NSF 
plans $70 million in FY 2005 for high-end computing facilities. This 
investment is complemented by significant investments in education, 
outreach and training, which increase the number and diversity of the 
user communities, as well as investments in application codes, 
software, and new technologies for the next generation of computing.
    DOE's Office of Science operates several high-end computing 
facilities, including (1) the National Energy Research Scientific 
Computing Center (NERSC) at Lawrence Berkeley National Laboratory, 
which is the flagship high-end computing facility for the Office of 
Science; (2) the Center for Computational Sciences (CCS) at the Oak 
Ridge National Laboratory; and (3) the Environmental Molecular Sciences 
Laboratory (EMSL) at Pacific Northwest National Laboratory. All are 
managed as unclassified open facilities in support of the DOE Office of 
Science mission. University researchers who are working on applications 
that are relevant to the broad science mission of the Office of Science 
can apply for access to these facilities, which is granted on a 
competitive peer-reviewed basis. For example, up to seven percent of 
NERSC resources are available to researchers for mission-relevant work 
that is not directly supported by the Office of Science.
    An exception to the requirement for mission relevance is DOE's 
Innovative and Novel Computational Impact on Theory and Experiment 
(INCITE) program at NERSC. The goal of the program is to provide ten 
percent of the computational resources at NERSC in very large 
allocations to a small number of computationally intensive large-scale 
research projects selected based on their ability to make high-impact 
scientific advances. The INCITE program specifically encouraged 
proposals from universities and other research institutions.
    In FY 2004, 52 proposals were submitted, with more than 60 percent 
coming from academic researchers, requesting a total of more than 130 
million hours of supercomputer processor time. The three awards in FY 
2004 amount to ten percent of the total computing time available on 
NERSC's current IBM supercomputer.
    The Office of Science yesterday announced an award for their 
``Leadership-class System,'' a $25 million investment in FY 2004. The 
request for applications for acquisition of this leadership-class 
system specified that ``Proposed activities should be designed to 
support computational science applications research areas relevant to 
the mission of the Office of Science, as well as those of other federal 
agencies.'' University researchers--regardless of which federal agency 
supports their work--will be granted access to this leadership-class 
computational resource, again on a competitive peer-reviewed basis.

Challenges facing the high-end computing enterprise

    The challenges facing high-end computing today are significant. 
Decisions made years ago-sensible at the time--led to a dependence 
largely on bundled clusters of commercial-off-the-shelf (COTS) 
processors. The promise of high aggregate performance at relatively low 
cost made the choice of these systems highly attractive. However, we 
now know that while these systems are effective for some classes of 
applications, many others--including certain applications relevant to 
national security considerations--are poorly served by COTS-based 
solutions. Addressing this problem, however, is costly--prohibitively 
so--for all but a few federal agencies and virtually all private-sector 
enterprises.
    In the 1990s, due to the limited market for high-end computing 
systems and the dramatic expansion of the market for low and mid-range 
systems, the U.S. computer industry focused primarily on the hardware 
and software needs of business applications and smaller scale 
scientific and engineering problems. As a result, the flow of R&D 
needed to maintain high-end computing technologies in the U.S., and the 
human capital required to sustain its cutting edge, have failed to keep 
up with opportunities for development.

The High-End Computing Revitalization Task Force

    With these concerns in mind, OSTP initiated the organization of a 
task force, under the auspices of the NSTC, made up of agency experts 
in high-end computing. This High-End Computing Revitalization Task 
Force (HECRTF) was given a specific charge based on the issues outlined 
in the President's FY 2004 Budget, which said:

         ``Due to its impact on a wide range of federal agency missions 
        ranging from national security and defense to basic science, 
        high-end computing--or supercomputing--capability is becoming 
        increasingly critical. Through the course of 2003, agencies 
        involved in developing or using high-end computing will be 
        engaged in planning activities to guide future investments in 
        this area, coordinated through the NSTC. The activities will 
        include the development of an interagency R&D roadmap for high-
        end computing core technologies, a federal high-end computing 
        capacity and accessibility improvement plan and a discussion of 
        issues (along with recommendations where applicable) relating 
        to federal procurement of high-end computing systems. The 
        knowledge gained from this process will be used to guide future 
        investments in this area. Research and software to support 
        high-end computing will provide a foundation for future federal 
        R&D by improving the effectiveness of core technologies on 
        which next-generation high-end computing systems will rely.''

    Specifically, the Task Force was asked to develop a forward-looking 
plan for high-end computing with the following three components: (1) an 
interagency R&D roadmap for high-end computing core technologies, (2) a 
federal high-end computing capacity and accessibility improvement plan, 
and (3) recommendations relating to federal procurement of high-end 
computing systems.
    I am pleased to provide the Committee with the Task Force's report, 
the Federal Plan for High-End Computing. In its report, the Task Force 
addresses the needs of major federal science and technology areas for 
high-end computing, articulating and synthesizing the urgent problems 
facing high-end computing.
    The Task Force lays out detailed roadmaps for investments in key 
R&D areas, which include hardware, software, and systems. They 
emphasize the importance of addressing the increasing gap between the 
theoretical peak performance and the sustained system performance of 
high-end computers--a problem that has plagued the massive multi-
processor systems currently in use. Their report also emphasizes the 
need for procurement of ``early access'' systems that will enable the 
development of more robust systems and help identify failed approaches 
before full-scale procurements take place.
    The report also addresses issues related to the acquisition, 
operations, and maintenance of high-end computing systems by agencies, 
including so-called ``leadership class'' systems--leading-edge, high-
capability computers capable of tackling heretofore unsolvable 
computational problems. The Task Force recognized that the costs 
associated with the development of leadership systems are beyond the 
reach of almost any agency working alone. At the same time, the Task 
Force emphasized that the need is great: demand for high-end computing 
capabilities surpasses the resources available in every agency, and 
some of the smaller agencies, such as EPA and NIST, rely on the 
resources of other agencies to meet their need. To address this, the 
Task Force recommends that future leadership systems be treated as 
national resources, for use by all of the agencies that participate in 
the system's development (and those agencies' constituents). They 
suggest specific mechanisms by which agencies that lack the resources 
to develop high-end computing systems can partner with larger agencies 
for access to existing systems.
    Additional sections of the report address procurement issues, which 
are currently hampered by the diversity of agency needs for high-end 
systems and their practices governing procurement of them. The Task 
Force suggests the initiation of several pilot projects related to 
procurement to address this. These include the development of improved 
suites of benchmarks that better mirror applications, an evaluation of 
the total cost of ownership of several similar systems, and the 
development of a common solicitation and use of a single suite of 
benchmarks for procurement, using lessons learned from the first two 
pilot projects.
    Finally, the report describes interagency mechanisms through which 
to coordinate implementation of various aspects of the plan.
    It is important to recognize that benefits of the Task Force's work 
have already begun to accrue, with the high level of interagency 
cooperation already leading to tangible results. For example, three 
agencies--NSF, DOE's Office of Science and DOD--have combined forces to 
initiate the High-End Computing University Research Activity, a pilot 
program aimed at funding basic research in different ``theme'' areas 
related to high-end computing. Joint planning has led to two closely 
coordinated solicitations. With software as the theme for 2004, NSF 
recently issued a program solicitation (that also incorporates DARPA 
interests) for research on ``Software and Tools for High-End 
Computing.'' This program, for which the anticipated funding of $7 
million was provided by both NSF and DARPA, will support ``innovative 
research activities aimed at building complex software and tools (on 
top of the operating system) for high-end architectures.'' A second 
solicitation, from DOE's Office of Science but also with DARPA interest 
and funding, is focused on ``Operating/Runtime Systems for Extreme 
Scale Scientific Computation.'' The agencies' involvement in the HECRTF 
was a key factor in the development of these programs, and a sign of 
the future benefits we can expect from this important effort.
    I commend the Task Force for developing their report and for their 
commitment to continue the work that they have begun by making high-end 
computing a continued, vigorous interagency activity that fully 
captures the synergies evident in their report. I look forward to 
working with all of the agencies this year to see that the Task Force's 
recommendations are considered in the preparation of agencies' FY 2006 
budget requests. Addressing the issues facing the Nation's high-end 
computing enterprise will require a sustained and coordinated effort. 
The Task Force's report constitutes an important first step.

                  Biography for John H. Marburger, III
    John H. Marburger, III, Science Adviser to the President and 
Director of the Office of Science and Technology Policy, was born on 
Staten Island, N.Y., grew up in Maryland near Washington D.C. and 
attended Princeton University (B.A., Physics 1962) and Stanford 
University (Ph.D., Applied Physics 1967). Before his appointment in the 
Executive Office of the President, he served as Director of Brookhaven 
National Laboratory from 1998, and as the third President of the State 
University of New York at Stony Brook (1980-1994). He came to Long 
Island in 1980 from the University of Southern California where he had 
been a Professor of Physics and Electrical Engineering, serving as 
Physics Department Chairman and Dean of the College of Letters, Arts 
and Sciences in the 1970's. In the fall of 1994 he returned to the 
faculty at Stony Brook, teaching and doing research in optical science 
as a University Professor. Three years later he became President of 
Brookhaven Science Associates, a partnership between the university and 
Battelle Memorial Institute that competed for and won the contract to 
operate Brookhaven National Laboratory.
    While at the University of Southern California, Marburger 
contributed to the rapidly growing field of nonlinear optics, a subject 
created by the invention of the laser in 1960. He developed theory for 
various laser phenomena and was a co-founder of the University of 
Southern California's Center for Laser Studies. His teaching activities 
included ``Frontiers of Electronics,'' a series of educational programs 
on CBS television.
    Marburger's presidency at Stony Brook coincided with the opening 
and growth of University Hospital and the development of the biological 
sciences as a major strength of the university. During the 1980's 
federally sponsored scientific research at Stony Brook grew to exceed 
that of any other public university in the northeastern United States.
    During his presidency, Marburger served on numerous boards and 
committees, including chairmanship of the governor's commission on the 
Shoreham Nuclear Power facility, and chairmanship of the 80 campus 
``Universities Research Association'' which operates Fermi National 
Accelerator Laboratory near Chicago. He served as a trustee of 
Princeton University and many other organizations. He also chaired the 
highly successful 1991/92 Long Island United Way campaign.
    As a public spirited scientist-administrator, Marburger has served 
local, State and Federal Governments in a variety of capacities. He is 
credited with bringing an open, reasoned approach to contentious issues 
where science intersects with the needs and concerns of society. His 
strong leadership of Brookhaven National Laboratory following a series 
of environmental and management crises is widely acknowledged to have 
won back the confidence and support of the community while preserving 
the Laboratory's record of outstanding science.

    Chairman Boehlert. Thank you very much, Dr. Marburger. Dr. 
Wladawsky-Berger.

 STATEMENT OF DR. IRVING WLADAWSKY-BERGER, VICE PRESIDENT FOR 
            TECHNOLOGY AND STRATEGY, IBM CORPORATION

    Dr. Wladawsky-Berger. Good morning, Mr. Chairman. I 
genuinely appreciate the opportunity to be here with you.
    I was asked to comment on three questions, and have done so 
at length in the testimony I have submitted for the record. All 
three questions go to the heart of some very critical issues of 
competitiveness, the role of government, and our own strategy 
for high-performance computing.
    I have given considerable thought to issues like this in 
the course of my 30 plus years in the IT industry. During that 
time, I have been associated in one way or another with high-
performance computing, and based on that experience, I am 
convinced that supercomputers are more important now than they 
have ever been.
    In response to the Committee's first question, let me say, 
as unambiguously as I can, that supercomputers are essential to 
overall U.S. leadership in a global marketplace, and in 
particular, to U.S. industrial competitiveness. I say that for 
two reasons. First, the increasing importance of Grand 
Challenge applications, such as those originally posed by the 
High-Performance Computing Act of 1991. And second, the fact 
that we are becoming an increasingly integrated information-
based society, subject to unremitting change and relentless 
competitive pressures.
    The Grand Challenges that the HPC Act envisioned us 
tackling were profound, among them, the prediction of global 
climate change, new improved drugs, and understanding the 
formation of galaxies, the nature of new materials, and the 
structure of biological molecules.
    Thanks to the combined efforts of industry, academia, and 
government, the U.S. established a strong position of global 
competitive leadership in high-performance computing. We did so 
with machines that by today's standards are rudimentary. Ten 
years ago, for example, the number one ranked machine on the 
world's Top 500 list of supercomputers performed 125 billion 
calculations per second. Today, it would not even make the 
list. And we did it, not with machines alone, but by building 
and exploiting an HPC infrastructure of skills, applications, 
and R&D, as well as government, university, and industry 
collaborations. All in all, that infrastructure has ensured 
sustainable leadership for the long-term.
    Today, the Grand Challenges are grander still, both in 
their complexity and in the opportunity they present. Life 
science, for example, is an entirely new Grand Challenge for 
supercomputing, one that can revolutionize health care in this 
country and the rest of the world. It is a Grand Challenge we 
cannot afford to ignore. Our country's continuing commitment to 
high-performance computers will make it possible to address the 
new Grand Challenges and continue to lead the world in these 
crucial areas.
    My second reason for believing that high-performance 
computing is more important than ever is that we are becoming 
an increasingly integrated information-based society. 
Omnipresent communications keep the world online and in touch 
24 hours a day. Billions of devices are being connected to the 
Internet. Microprocessors are turning up in everything, from 
oil drilling rigs to home appliances. Open standards are 
integrating all this technology and enabling it to amass and 
transmit colossal volumes of information.
    At IBM, we call this emerging state On Demand. On Demand 
describes an information-based society with everything and 
everyone connected using open standards, and with computing 
power, storage, and networking essentially unlimited. Even at 
that accelerated integration, it came as no surprise to us that 
400 chief executive officers in a recent IBM survey cited their 
ability to respond to change as an absolute priority. Those 
CEOs are looking for the ability to take all that information 
created by customers and competitors and process it in real 
time.
    In the On Demand world, real-time applications and 
mountains of information make supercomputing not an option, but 
an essential requirement. Information without real-time 
analysis and insight cannot deliver the competitive advantage 
required by an On Demand society. That is why we believe that 
supercomputing is rapidly becoming part of the modern computing 
fabric.
    Supercomputers are the high-leverage tools that can mean 
the difference between success and failure in a 
hypercompetitive global economy. American institutions, from 
business to government to healthcare and education, need these 
tools to continue competing and winning.
    In an information-based society, supercomputers must be 
ubiquitous, and that means that they must become more and more 
affordable. The same forces that drove down the cost of PCs, 
bandwidth, memory, and IT in general are making high-
performance computing more affordable. And as a result, high-
performance computing is crossing the boundary between the lab 
and the rest of society, becoming ever-present in the IT 
infrastructure and essential for our institutions to innovate.
    Innovation remains the key to competing in a changing 
global economy. Research is a critical driver of innovation, 
and is needed more than ever, given the environment of change 
and opportunity that we face. And that is why we strongly 
support H.R. 4218 and its objective of enhancing U.S. 
leadership in high-performance computing.
    Let me address the question of U.S. leadership. I believe 
that leadership includes many factors; hardware and software, 
of course, but also skills, applications, and application 
development tools, training, research, and development, and the 
many other factors that make supercomputing valuable.
    Our nation needs the federal agencies, civilian and 
defense, to focus on all these factors to ensure continued 
success and leadership. The U.S. should also increase its 
application capability in a cost-effective manner, focusing on 
the importance of commercially viable technologies. Agencies 
are questioning whether they can meet their highly specific 
mission needs using commercial technology, technology which 
tends to be less expensive, and therefore, more likely to 
spread through society.
    I believe strongly that they can. Industry stands ready to 
partner with federal agencies to understand and help solve 
their critical application needs. Thank you, and I look forward 
to answering your questions.
    [The prepared statement of Dr. Wladawsky-Berger follows:]
             Prepared Statement of Irving Wladawsky-Berger
    Good morning, Mr. Chairman and Members of the Committee and thank 
you for inviting me to be with you today. My name is Irving Wladawsky-
Berger. I am Vice President, Technology and Strategy at the IBM 
Corporation. I genuinely appreciate the opportunity to offer you our 
perspective on the questions before the Committee.
    Having been associated with high-performance computing for more 
than 30 years, I think it is important to share with you the 
fundamental shift we see happening in supercomputing and the role it 
will play in determining our nation's position in the global economy.
    First, I'd like to thank Representative Biggert for her leadership 
on the important issue of high-performance computing and express my 
appreciation to all of you for considering H.R. 4218 today. It is 
critical that our nation support the basic tenets of this bill to: 1) 
assure U.S. researchers access to the most advanced high-performance 
computing systems available; 2) assure balanced progress on all aspects 
of high-performance computing; and 3) assure an adequate interagency 
planning process to maintain continued U.S. leadership.
    Second, I think a little historical perspective may be helpful.
    There was a time when many in the U.S. feared that we would lose 
leadership in this critical area to the Japanese IT industry. Instead, 
thanks to the combined efforts of industry, academia and government, 
the U.S. established a strong leadership position in high-performance 
computing.
    Why was this so important?
    Because we needed supercomputing to address such grand challenges 
as:

        <bullet>  Enhancing military systems

        <bullet>  Building more energy-efficient cars and airplanes

        <bullet>  Designing better drugs

        <bullet>  Forecasting weather and predicting global climate 
        change

        <bullet>  Improving environmental modeling, and

        <bullet>  Understanding the formation of galaxies, the nature 
        of new materials, and the structure of biological molecules.

    Our leadership in high-performance computing technology allowed us 
to maintain our leadership internationally in these areas, and we did 
so with machines that are rudimentary by today's standards. Ten years 
ago, for example, the number one ranked machine on the world's Top 500 
list of supercomputers performed 125 billion calculations per second. 
Today that computer would not even make the list.
    I believe that supercomputing is even more important today than it 
was in the 1990s when we established our leadership. And if anything it 
is even more important now that we not only maintain but extend our 
leadership.
    The same economic and social forces that are making PCs, the 
Internet, wireless and other technologies ubiquitous are transforming 
the high-performance computing segment.
    Supercomputers have become so much less expensive and so much more 
powerful that they can now be applied in areas where they were never 
before affordable. In effect, the country's continuing commitment to 
this technology is making it possible to address new grand challenges. 
It is imperative that we do so.

        <bullet>  EPA, for example, will use a powerful new 
        supercomputer to assess the risks to human health and the 
        environment posed by exposure to chemical and air pollution and 
        other agents.

        <bullet>  The State University of New York at Buffalo will use 
        high-performance computers at our Deep Computing On Demand 
        center to study human proteins and target drugs for cancer, 
        Alzheimer's, AIDS, multiple sclerosis and other diseases.

    Life sciences clearly represents an entirely new set of Grand 
Challenges for supercomputing with the potential to revolutionize 
health care in this country and the rest of the world. We cannot afford 
to ignore it.
    We created our Blue Gene supercomputer initiative--ironically using 
the same chips found in game-players--to tackle the Grand Challenge of 
protein folding. But there are other milestones we must reach--
including the simulation of drug interactions with human cells--that 
are beyond today's systems. Today, we ultimately test new drugs on 
human beings. We know the cost and human suffering inherent in this 
process can be reduced dramatically over time with very sophisticated 
high-performance simulations leveraging many petaflops of computing 
power.
    But supercomputing is no longer limited to the ``classic'' Grand 
Challenges.
    At IBM we have described an emerging state of business called On 
Demand. This is fundamentally what happens when we become an 
information-based society with everything and everyone connected using 
open standards, and with computing power, storage and networking 
essentially unlimited.
    Real-time applications and unprecedented amounts of data are 
creating an environment in which supercomputing is a requirement. Real-
time transactions and data without real-time analysis and insight are 
no longer enough. We see this already in areas as diverse as fraud 
detection and customer relationship management. We believe 
supercomputing is rapidly becoming an essential part of the modern 
computing fabric.
    Omnipresent communications keeps the world online and in touch 24-
hours a day. Some experts believe that by 2006 the number of devices 
attached to the Internet--everything from PCs, smart phones and set-top 
boxes to RFID tags, home appliances and automobiles--will approach ten 
billion; the number of users will approximate one billion; the number 
of online buyers a half-billion; and the total amount of commerce $5.5 
trillion. Indeed, the price/performance ratio of microprocessors has 
made them so affordable that they can be integrated in huge numbers 
into everything from oil well drilling rigs and home appliances to 
vending machines and automobiles. Adidas is even putting them in 
running shoes.
    Open standards are integrating all this technology and enabling it 
to amass and transmit information. The availability of information on 
such a scale and timeframe leads to decisions, decisions to actions, 
actions to change and change to the need for response. The pace of 
change will only accelerate and its magnitude will only increase with 
the constant proliferation and integration of technology.
    Given that prospect, it is not surprising that in a recent IBM 
survey of 400 chief executive officers worldwide, the ability to 
respond to change was cited as a major need. Those CEOs were calling 
for the ability to take all that information created by customers and 
competitors and process it in real time. More and more, it is important 
to solve complex problems that are critical to competing in a global 
marketplace that demands the highest quality products offered at 
attractive prices with the best possible customer service.
    Supercomputers are an excellent tool to collect and analyze data; 
simulate and model problems; and create real-time solutions. The power 
of supercomputers helps industry and the scientific community to 
innovate and create solutions faster and at less cost.
    It is only with high-performance computing that we can hope to do 
the real-time information analysis that will enable us to respond 
faster and more effectively to the developing challenges and growing 
opportunities all our institutions face. Examples include gathering 
data to meet security challenges, developing everything from airplanes 
to health-related items, meeting customer needs, simulating drug 
reactions in the body, and tracking climate and weather to better 
understand the environmental challenges of the modern world.
    Supercomputers can permit just about all of society's 
institutions--not just the research community--to understand change 
better and to act with precision. But to make supercomputers more 
ubiquitous and increasingly helpful in a wide range of problems in 
business, health care, education, national security and every other 
aspect of society, those supercomputers must be affordable.
    High-performance computing is crossing the boundary between the lab 
and the rest of society and is on the road to becoming a ubiquitous and 
conventional part of the IT infrastructure. As such, it should continue 
to be a driver of economic growth, a strategic tool for our scientific 
and business communities, and a strong pillar of our competitiveness in 
a changing, often turbulent, global marketplace.
    The United States must ensure that it will have the high-
performance computing assets needed in order to prosper in a constantly 
changing environment. Clearly, that requires aggressive research, 
performed at a level commensurate with the environment of change that 
we face, including the application of high-performance computing to 
produce real innovation.
    We need to foster an environment of innovation much the way the 
High-Performance Computing Act of 1991 and the Federal High-Performance 
Computing and Communications (HPCC) program did when they gave 
scientists, engineers and industry leaders increased access to high-
performance computers, thus building the user community and advancing 
science.
    Innovation has always been the strong suit of the United States. 
Today, innovation remains the key to maintaining our ability to compete 
in a changing global economy where technology, science and education 
are becoming widespread among developing as well as developed nations. 
And the most advanced technologies--like supercomputing--remain the key 
to innovation and competitive advantage.
    Let me turn now to the specific questions posed by the Committee.

How does high-performance computing affect U.S. industrial 
competitiveness?

    Supercomputing today is more important than ever, especially with 
the massive amounts of data we collect, analyze and use as well as the 
increasing complexity of our world. This is true given the competitive 
environment we live in, with constant growth in Asia and the European 
Union. This is equally true at the level of the individual firm, where 
customers have become far more demanding in terms of responsiveness, 
quality and price. U.S. businesses recognize the value of high-end 
computing, and want the benefit of affordable access to these tools.
    High-end computing has become the third node of science and 
engineering. By bridging theory and experimentation with computing and 
simulation, American industry is able to address some of the most 
complex, computationally intensive problems. Application areas extend 
from aircraft and automobile design to fusion reactor and accelerator 
design to materials science to petroleum exploration. High-end 
computing extends the amount of science and engineering that can be 
supported by available computational resources.
    Supercomputing is the preferred tool of analysis for the sheer mass 
of available digital data created by advances in processing capability 
and inexpensive communications. New applications include the processing 
of streaming data, analysis of video and audio data, real-time security 
scanning and new areas such as information-based medicine.
    Consider what two of our customers are already doing:

        <bullet>  Locus Pharmaceuticals is using supercomputing to 
        develop novel small molecule therapeutics for viral diseases 
        like AIDS.

        <bullet>  General Motors is installing the industry's fastest 
        supercomputer based on our own POWER4 technology to promote 
        greater global collaboration, improve validation testing and 
        reduce product-development costs. They expect it to shorten 
        some vehicles' time-to-market by as much as four years.

    High-performance computing is making it possible to provide high-
powered analytical capability to traditional commercial applications. 
In the past, such systems have been focused on the management of data 
and planning models. Today, we are adding real-time operational 
capabilities, permitting analysis of the data and response to changing 
external situations.
    Delivering these capabilities sooner rather than later will be 
vital to U.S. industry's ability to compete in an economic and 
regulatory environment that is changing and often uncertain. 
Fortunately, a new business model for delivering high-end computing to 
U.S. industry is emerging, effectively widening the application base 
and reducing costs. Specifically, I am referring to the offering of 
supercomputing power to customers over the Internet, helping to free 
them from the fixed costs and management responsibility of owning a 
supercomputer. In this model, a business is able to avoid technological 
risk as well as the financial risk associated with supercomputer 
ownership. That is especially important for companies with short-term 
projects or those with variable needs for supercomputing power.
    Let me reiterate that price/performance plays a major role in 
making supercomputing a prime tool for competitive advantage. In that 
regard, scalable systems based on common components make it possible to 
reach a large user base, help reduce the cost and risk of development, 
and support a wide range of applications. Cooperation among application 
and systems developers is key to achieving sustained performance 
improvements. This is true in both the business world and in the 
academic and scientific arenas. In universities, where individual 
investigators lead small research teams and are funded by research 
grants, a system's price is a major factor in determining which 
projects proceed and at what rate.
    As you know, however, technology by itself is not enough. Our 
competitiveness will also depend on fostering a broad set of 
sophisticated skills to match the sophistication and capability of the 
technology. Our analysis indicates a growing need for many special 
skills like technical and scientific solutions architects, business 
transformation consultants, software engineers and application 
portfolio managers. Highly skilled personnel are critical to the 
success of the IT industry which in turn is necessary for the economy's 
competitiveness.
    That is one reason IBM invests heavily in training and professional 
development. This year we will invest over $750 million to help our 
employees build skills, including more than $200 million for ``hot'' 
skills. $400 million (53 percent) will be spent in the U.S. This 
investment will ensure that our employees have the skills that 
customers need in today's highly competitive IT world.

Are current efforts on the part of the federal civilian science 
agencies in high-performance computing sufficient to assure U.S. 
leadership in this area? What should agencies such as the National 
Science Foundation and the Department of Energy be doing that they are 
not already doing?

    The current efforts of federal civilian agencies are a good start, 
but are not enough to meet present demands. This is why we support the 
bill under consideration and its objectives of: 1) assuring U.S. 
researchers access to the most advanced high-performance computing 
systems available; 2) assuring balanced progress on all aspects of 
high-performance computing; and 3) assuring an adequate interagency 
planning process to maintain continued U.S. leadership. I believe that 
these steps will help the U.S. to advance high-performance computing 
and maintain our position of leadership.
    That leadership is based on a many factors. They include: 
sustainability, meeting application needs, developing algorithms, 
enhancing skills and creating test beds and partnerships between 
government, industry and universities. By these measures, there is no 
question that the U.S. continues to lead the world in high-performance 
computing.
    However, to meet the challenges and complexity of the world today, 
supercomputing must both meet the ``classic'' Grand Challenges and 
become ubiquitous in the solution of a wide variety of problems. There 
must be a concerted effort to do the necessary research and to move 
even faster than before if we are to maintain our leadership. In the 
final analysis, it is the cumulative presence of a variety of 
leadership characteristics, including skills, technologies (both 
hardware and software), application development, training 
methodologies, research, development, engineering, and manufacturing 
capabilities that will advance high-performance computing. Agencies 
must focus on all of these components to ensure success.
    My fundamental view is that the U.S. should increase its 
application capability in a cost-effective manner. The roadmap 
developed to meet these needs must be based on commercially viable 
technologies that can be optimized for application-specific needs.
    The government agencies must work with the research communities and 
the private sector to define supercomputing applications and technology 
solutions. The Federal Government should not attempt to dictate market 
trends and architectural paths for industry. Rather, the government as 
a partner with industry should specify its critical needs and work with 
industry to meet them. These partnerships are critical.

Where are you targeting IBM's high-performance computing research 
efforts? Are there particular industrial sectors that will benefit in 
the near-term from anticipated HPC developments?

    IBM's research strategy revolves around solving complex scientific 
and business problems more quickly and at lower costs. We continue to 
aggressively evolve and improve our product line by developing advanced 
microprocessors which we then use to build scalable families of 
products. We are also conducting considerable research to overcome 
obstacles to high degrees of parallelism.
    We are doing a number of things to advance our systems, such as:

        <bullet>  Studying cost effective, uniprocessor building blocks 
        that take advantage of the ability to run multiple system 
        activities at the same time (concurrency, i.e., interconnecting 
        main memory, storage, various caches, and then processor 
        execution units and algorithms and application software).

        <bullet>  Recognizing that sustained system performance is more 
        than just hardware, but includes also application development 
        performance and application execution performance.

        <bullet>  Bringing evolutionary technological improvements to 
        current systems with functional integration at the chip package 
        level to provide differentiation.

        <bullet>  Continuing to perform research into the most 
        difficult problems in silicon semiconductor technology and 
        performance.

        <bullet>  Exploring open standard software as a critical aspect 
        of future research and performance.

    Our strategy requires that we pursue application-driven design 
through partnerships with the national labs, universities and 
government agencies. We are working to satisfy a spectrum of customer 
performance and price needs, so naturally we maintain continued 
partnerships with the technical and scientific community. We are 
engaged in a number of studies to combine new processor architectures 
with innovative high-performance networks.
    Our strategy is based on the following beliefs:

        1.  HPC systems and applications are crucial, since they will 
        continue to drive advancement in the computer industry. It is 
        not an issue of just technology and hardware. Advancement 
        depends on servers, software, storage, communications and a 
        business model for low-cost delivery of high-performance 
        computing.

        2.  Petaflop performance will advance in response to the needs 
        of the scientific community, and growing application complexity 
        requires adaptable high-performance computing systems. It is 
        critical to listen to users and then focus on and develop the 
        applications that meet their needs.

        3.  Architecture should scale up and scale out. We have 
        pioneered both these models. We are committed to sustainable 
        models and long-term viability as well as to ensuring that our 
        customers have the greatest performance for the least amount of 
        money.

        4.  Simulation and modeling are key to solving 21st century 
        problems.

        5.  Partnerships between government, universities and industry 
        are critical.

    Therefore, our research strategy involves working closely with the 
Federal Government in general and not solely with the agencies within 
the jurisdiction of the Science Committee, like the Department of 
Energy's Office of Science and the National Science Foundation, but 
very actively with other agencies, such as the Department of Defense 
and the Department of Energy's Defense programs. In this regard, I 
believe that the National Institutes of Health should place greater 
focus on the power that supercomputing could provide for further 
advances in the life sciences.
    We view each of our government collaborations as an opportunity to 
undertake Grand Challenge applications and address the most complex 
problems of our times. Our view is that we should leverage our systems 
expertise in these arenas. These partnerships are valuable to industry, 
universities and government and we all benefit in unique ways. For a 
company like IBM, for instance, these projects are relevant to our 
commercial business and we can leverage this opportunity for learning 
and importing these new ideas into our products.
    Industrial sectors that will benefit include: the life sciences, 
aircraft and automotive manufacturers, pharmaceutical companies, 
petroleum companies, and consumer products businesses.

Conclusion

    It is critical that high-performance computing in the United States 
advance to meet the challenges of our complex world. Meeting our 
applications needs, the needs of our scientists and our businesses, and 
the skill demands of the 21st century will help us to advance high-
performance computing and keep the U.S. at the keen edge of innovation.
    H.R. 4218 will help us accomplish this goal. Its emphasis on a mix 
of leadership, partnerships, powerful and affordable systems, and a 
strong focus on basic research will keep the U.S. competitive and help 
us maintain the innovative spirit that has made us global leaders in 
technology and the most prosperous society on Earth.

                 Biography for Irving Wladawsky-Berger
    Dr. Irving Wladawsky-Berger has responsibility for key IBM 
initiatives that are critical to the future of the IT industry. In that 
capacity, he leads IBM's company-wide e-business on demand initiative. 
The next major phase of the Internet and e-business, e-business on 
demand helps customers fuse their business processes with advanced IT 
capabilities to achieve whole new dimensions in productivity and 
innovation. ``On Demand businesses'' are more responsive in real-time 
to any threat or opportunity, more focused on their own core expertise, 
better able to implement a variable cost structure and--being built on 
a resilient IT infrastructure--more available to their constituents.
    In conjunction with this, Dr. Wladawsky-Berger leads IBM's 
participation in the movement toward open standards and open source 
software like Linux; and guides the company's Next Generation Internet 
efforts. In addition, he collaborates very closely on IBM's Grid and 
Autonomic Computing efforts to make the Internet a self-managing, 
distributed computing platform capable of delivering computing services 
on demand.
    Dr. Wladawsky-Berger's role in IBM's Internet and e-business 
activities began in December 1995 when he was charged with the dual 
objectives of formulating IBM's overall strategy in the emerging 
Internet opportunity, and developing and bringing to market leading-
edge Internet technologies that could be integrated into IBM's 
mainstream business.
    He began his IBM career in 1970 at the Company's Thomas J. Watson 
Research Center where he started technology transfer programs to move 
the innovations of computer science from IBM's research labs into its 
product divisions. After joining IBM's product development organization 
in 1985, he continued his efforts to bring advanced technologies to the 
marketplace, leading IBM's initiatives in supercomputing and parallel 
computing including the transformation of IBM's large commercial 
systems to parallel architectures. He has managed a number of IBM's 
businesses, including the large systems software and the UNIX systems 
divisions.
    Dr. Wladawsky-Berger is a member of the University of Chicago Board 
of Governors for Argonne National Laboratories and the Technology 
Advisory Council for BP International. He was co-chair of the 
President's Information Technology Advisory Committee, as well as a 
founding member of the Computer Sciences and Telecommunications Board 
of the National Research Council. He is a Fellow of the American 
Academy of Arts and Sciences. A native of Cuba, he was named the 2001 
Hispanic Engineer of the Year.
    Dr. Wladawsky-Berger received an M.S. and a Ph.D. in physics from 
the University of Chicago.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much, Doctor. Dr. 
Stevens.
    Dr. Stevens. Good morning, Mr. Chairman.
    Chairman Boehlert. Microphone, please.
    Dr. Stevens. Good morning, Mr. Chairman, Members of the 
Committee, and especially Representative Biggert. I think----
    Chairman Boehlert. Now, wait a minute. Proceed, Doctor.

    STATEMENT OF DR. RICK STEVENS, DIRECTOR MATHEMATICS AND 
     COMPUTER SCIENCE DIVISION, ARGONNE NATIONAL LABORATORY

    Dr. Stevens. I thank you for granting me this opportunity 
to comment on the future path of high-performance computing 
research in the U.S.
    I would like to start by thanking Representatives Biggert 
and Davis for introducing H.R. 4218 to reauthorize the High-
Performance Computing Act. This is a very critical bill. This 
bill, like its predecessor, will have a considerable impact on 
science in the U.S.
    What I want to do right now is make a couple of points, 
summarize two important activities happening at NSF and DOE, 
and then provide a few recommendations.
    My first point is that high-performance computing is a 
critical technology for the Nation. It is needed by all 
branches of science and engineering, and it is a critical 
policy tool for government leaders. More important, its 
availability is a pacing item for much of science. Without 
increased access to high-performance computing, certain 
activities and scientific inquiries will slow down. For me 
personally, scientific computing is the most important thing 
that I can think of to work on. My most recent interests are in 
evolution of bacteria and studying epilepsy in children. High-
performance computers are essential for both of those 
activities.
    Second point. The United States is the undisputed leader in 
the development of high-performance computing technologies, 
hardware, software, et cetera. But we are also the undisputed 
leader in education and training for high-performance 
computing, and because we are training the next generation, we 
are setting the direction not just for the U.S., but for the 
world. That direction must be to use this leadership to improve 
our scientific productivity over the long-term, and the impact 
that will have on our economics.
    Third point. In addition to the computing hardware and 
software, high-performance computing environments today are 
required to be connected to many other kinds of resources. 
Databases and instruments are two very important things. Grid 
computing, as Irving had mentioned, is a mechanism for doing 
that that enables us to tie high-performance computing to 
experimental technologies in life science, medicine, 
nanoscience, and physics, and to use these systems to analyze 
the large volumes of data that will come out of those 
endeavors.
    Fourth point. While we are maintaining our leadership in 
science and technology, we have to have a rigorous research 
activity to improve performance and usability of these systems. 
Performance cannot be measured simply by a benchmark on the Top 
500 list. It needs to be measured by real applications and real 
results. We have fallen away from that recently.
    Fifth point. Maintaining our international leadership in 
science and technology requires that the United States 
dramatically improve its performance in deploying large-scale 
systems for civilian science and engineering. We have made 
dramatic progress in deploying these systems for defense. We 
have not kept up in the civilian sector.
    The NSF has embarked on a large-scale project known as the 
TerraGrid to connect resources across the Nation for serving 
the university community. In this way, grid computing will 
provide the power of entire laboratories to individual 
researchers, regardless of their location. NSF and the 
Department of Energy should collaborate to ensure that grid 
technology is broadly deployed and uses standard protocols and 
interfaces.
    Secondly, DOE has recently started the development of 
national leadership computing capability, the recent 
announcement on Tuesday. By deploying the highest performance 
open computers possible, these leadership computing systems 
will enable researchers to push the scientific envelope and 
create next-generation software for critical applications in 
areas of interest to the Nation, including global climate 
modeling, fusion energy research, life sciences, nanoscience, 
astrophysics, and chemistry. DOE and the National Science 
Foundation should collaborate in the development and deployment 
of these scale systems for the future.
    Let me try to summarize with three high level 
recommendations. First of all, we need to aim high. The U.S. 
should aim for nothing less than world leadership in high-
performance computing. We need to develop the most capable 
computer systems in the world, make them work, make them work 
well, and make them available to the broad national scientific 
community.
    DOE and NSF should have a focused research and development 
program to achieve breakthrough level computing performance on 
a set of representative applications that are critical for the 
next ten years of scientific process. Examples such as I gave 
before, bioinformatics, computational biology, nanoscience, 
environment, climate, complex device modeling, et cetera.
    By focusing on achieving performance breakthroughs on real 
applications, instead of benchmarks or abstract peak 
performance, many new ideas may be brought to bear on the 
problem, and novel application-specific systems may be 
developed that will provide new ideas for next-generation 
general purpose systems.
    Second recommendation. We must learn from our mistakes. We 
learned from the original High-Performance Computing bill in 
'91 that sometimes it doesn't work well to have different 
agencies working on different parts of the problem, one 
responsible for hardware, one responsible for software, one 
responsible for applications, and no one responsible for 
integrating these systems into a coherent whole, and making 
them available to users. We must not make that mistake this 
time around.
    Third recommendation. We must connect high-performance 
computing to the future. We recognize that some of the biggest 
scientific impacts in the future may not come from the same 
directions as they have in the past. In particular, we are in 
the midst of a revolution in biology as a result of access to 
large-scale computers, data systems, and high-throughput 
experimental technologies. This revolution will have a far-
ranging impact on our science, our society, our security, and 
our health. So, how to engage the NIH is one of the critical 
questions facing those in government that manage advanced 
computing programs and those of us in academia and research 
laboratories who try to do that work.
    Each institute has a potential need for high-performance 
computing. There are 27 institutes in NIH. We need to somehow 
find a way to engage them. NIH needs broad access to 
significant amounts of capacity computing, but they also need 
access to the most capable computer systems for those areas 
that are ready, like lung and heart modeling, neuroscience, 
infectious disease modeling, and cancer.
    In conclusion, Mr. Chairman, thank you for your time and 
this committee's support for the U.S. scientific enterprise, 
support that has created a system capable of fueling sustained 
economic growth while fostering an open environment for 
scientific discovery. I would be happy to answer any questions.
    [The prepared statement of Dr. Stevens follows:]
                   Prepared Statement of Rick Stevens
    Good morning, Mr. Chair and Members of the Committee. Thank you for 
granting me this opportunity to comment on the future path of high-
performance computing research. I am Rick Stevens, Director of the 
Argonne National Laboratory's Mathematics and Computer Science Division 
and founding director of the Computation Institute and professor of 
computer science at the University of Chicago. I am also the current 
director of the NSF TeraGrid project. I am a researcher in scientific 
and high-performance computing.
    I have prepared remarks addressing your questions regarding the 
reauthorization of the High-Performance Computing Act of 1991.

        <bullet>  How does high-performance computing affect the 
        international competitiveness of the U.S. scientific 
        enterprise?

    During the past several decades high-performance computing has 
become a critical capability for U.S. science and engineering research. 
The quantity and quality of scientific projects that rely on high-
performance computing either for simulations or for data analysis are 
increasing rapidly worldwide.
    In some areas of research--such as materials science, genomics, 
astrophysics, climate modeling, high-energy physics, plasma physics, 
and cosmology--scientific progress can be linked directly to sustained 
availability of high-performance computing systems. In these areas U.S. 
researchers are competing directly with their international peers based 
on the level of computing capability they can bring to bear on a 
problem.
    Therefore, it is reasonable to state that U.S. international 
scientific competitiveness is directly affected by high-performance 
computing.
    In addition, emerging economies such as India and China will 
eventually (perhaps greatly) exceed the United States in the total 
number of employed scientists and engineers. To maintain our leadership 
in important science and technology areas, we will need to make our 
scientists as productive as possible. One way to do so is to extend our 
leadership in high-performance computing and extend our ability to 
apply high-performance computing to emerging areas such as 
nanotechnology, biotechnology, engineering, and environmental 
research--areas where rapid technological progress is possible and 
where the economic benefits of this rapid progress will have near-term 
impact.
    Most university-based U.S. scientists have access through peer-
reviewed proposals to the NSF and DOE high-performance computer 
systems, which are among the most powerful in the world. Access to 
high-performance computing (HPC) systems by non-university-based 
researchers varies depending on agency, with some agencies such as 
NNSA, NASA, and DOD providing considerable access and other such as EPA 
and NIH providing less access.

        <bullet>  Are current efforts on the part of the federal 
        civilian science agencies in high-performance computing 
        sufficient to assure U.S. leadership in this area? What should 
        agencies such as the National Science Foundation and the 
        Department of Energy be doing that they are not already doing 
        now?

    The current efforts of the civilian science agencies are 
commendable but inadequate to ensure sustained and broad U.S. 
leadership. These efforts are also inadequate to meet the demonstrated 
current demand from U.S. scientists. Current demand is approximately 
three times the current capacity.
    The United States has arguably the best science funding system in 
the world. The diversity of funding agencies and the mixture of basic 
research supported by the NSF and mission research supported by DOE, 
NASA, NIH, EPA, and NIST have enabled a rich national research 
portfolio, in fact the richest portfolio of any nation. However, this 
diversity of funding sources and programs also means that there are 
occasional missed opportunities and lack of coordination.
    Coordination is particularly important when developing computing 
and data infrastructures (e.g., Grids) and the systems software 
necessary to integrate computing, databases, instruments and other 
resources into a coherent scientific resource for the community. 
Without explicit roles and responsibilities and the associated funding, 
doing the right thing is often impossible.
    In the past, there have also been difficulties in the ``technology 
pipeline'' hand-off. For many years the DOD and recently the NNSA have 
played a leading role in developing new HPC architectures. DARPA played 
a major role in the 1980s and 1990s in developing parallel computing 
systems. During this same time NSF, DOE, and NASA were responsible for 
deploying systems for civilian science users and for developing systems 
software, applications, and networking. However, no single agency or 
set of agencies was explicitly responsible for deploying ``at scale'' 
the most advanced systems for general scientific use. As a consequence 
the final integration of software, hardware, and applications necessary 
to make full use of the advanced capabilities was often left undone: 
usability suffered, users suffered, and science was not well served.
    Historically it has been assumed (until recently) that the best way 
to provide HPC capabilities to the research community was to fund the 
basic architecture research at universities and occasionally companies, 
fund some of the enabling software research at labs and universities, 
and fund the applications, but to rely on the commercial marketplace to 
move the ideas and technology from the research stage to the product 
stage for hardware and to have the commercial market complete the 
software environments necessary to make the machines usable.
    Our experience of the past 5-10 years indicates that this strategy 
is not adequate to maintain leadership in high-performance computing. 
While there is some commercial demand for high-performance systems, 
this demand tends to focus on the lower-end of these systems and to be 
concerned mainly with achieving low-cost capacity cycles.
    The research community has a need for capacity, and its demand can 
generally be met by low-end commercial offerings. However, the research 
community also requires purpose-built ``high-capability'' systems. It 
is these purpose-built capability systems that are the drivers for 
scientific progress. Like special-purpose instruments--space 
telescopes, electron microscopes, particle accelerators, and Mars 
rovers--they capture the scientific imagination, and entire communities 
are built around them. Unfortunately, there is not a high commercial 
demand or, in some cases, even any commercial demand, for these 
systems.
    As we push the frontiers on computer technology, it is likely that 
there will be a partial divergence between those systems that are 
ideally suited for classes of large-scale scientific computation and 
those systems that are best suited for general-purpose business 
computing.
    When the scientific community can leverage commodity technologies, 
commodity components and commodity software, it should. Where these 
technologies are not adequate for the task, then appropriate 
technologies should be developed and put to use.
    NSF and DOE should work together and with other agencies, 
particularly with DARPA, to plan large-scale development and deployment 
of future scientific computing systems aimed at creating a sustained 
series of advances in computer performance delivered to real scientific 
applications.
    Applications science communities need fundamental improvements in 
supercomputer performance and scalability. However, we should not aim 
to achieve a one-time performance record but to begin multiple 
activities that can be sustained over many hardware generations (5-10 
years). These sustained efforts will enable us to understand which 
applications are best suited for which types of architectures and to 
optimize them.
    Important problems in predicting regional impacts of global 
warming, modeling pollution transport, understanding the evolution of 
molecular machines, predicting new drug targets, developing novel 
materials, and even developing new computational devices require orders 
of magnitude more computing power than is currently available to 
academic and laboratory scientists. It is unlikely that one type of 
high-performance computing architecture will be sufficiently effective 
on all applications areas. Therefore, it is important to have a 
diversity of HPC systems under development and to engage the 
applications community to evaluate each class of system to determine 
which combinations of algorithms and architectures are best suited for 
each problem domain and to provide some risk management, in case some 
ideas turn out not to work. I therefore further suggest that

DOE and NSF work together to develop and deploy a series of the most 
capable systems in the world for civilian science. These systems should 
span a range of architectural ideas, and vendors should balance price/
performance against applications specificity.

    As leading agencies for supporting civilian computational science, 
NSF and DOE should work together to ensure that the United States 
designs, builds, and deploys a comprehensive integrated computing and 
data infrastructure (i.e., a National Science Grid) that is usable by 
all U.S. scientists regardless of institutional affiliation. NSF has 
already made an excellent start in this direction with programs such as 
the National Middleware Initiative (NMI) and the Extended Terascale 
Facility (i.e., TeraGrid). DOE has developed numerous technologies in 
the SciDAC and National Collaboratories program that are directly 
relevant to this infrastructure. NASA also has much to contribute 
through its Information Power Grid project. However, more needs to be 
done to ensure that U.S. researchers can access resources supported 
from multiple agencies in a convenient and secure fashion and with 
standard protocols and standard tools. Agencies also need to focus on 
enabling applications communities to exploit this shared infrastructure 
to reduce overhead, improve productivity, and facilitate sharing and 
collaboration. Therefore, I suggest the following.

NSF and DOE should work together to construct a National Science Grid.

    The National Science Grid would further the democratization of U.S. 
science by empowering individual researchers--regardless of their 
location--with the power of entire institutions. This effort will teach 
us much about how to improve scientific productivity and will lead to 
commercial benefits as well. It is also in this National Science Grid 
that we must deploy next-generation supercomputers.

        <bullet>  Where should the U.S. be targeting its high-
        performance computing research efforts? Are there particular 
        industrial sectors or science and engineering disciplines that 
        will benefit in the near-term from anticipated high-performance 
        computing developments?

    High-performance computing research should be targeted at four 
major goals.

        1.  Developing Multiple Generations of New Systems. It should 
        produce multiple new ``purposebuilt'' architectures that are 
        optimized for large-scale scientific computing. Each of these 
        systems should target particular classes of applications such 
        that the total of all classes cover the important and known 
        applications areas. Areas of importance include systems that 
        address both regular and irregular problems, data-intensive 
        problems, and problems that require interactivity. These 
        systems should reach for performance goals of three to four 
        orders of magnitude beyond current systems over the next ten 
        years.

        2.  Develop Systems Software Needed to Make Next-Generation 
        Systems Highly Usable. Scalable systems software is needed that 
        enables the largest systems to run reliably, with high-
        throughput I/O, advanced scheduling, secure access, 
        scalability, and extensibility. Systems software research 
        should be open source and cross-platform wherever possible to 
        provide maximum benefit to the community.

        3.  Develop Next-Generation Environments for Scientific Problem 
        Solving. Advanced software environments for scientific 
        computing are needed that improve our ability to solve large-
        scale problems. Creating these environments will require 
        research in new types of languages such as automated reasoning 
        systems, new language implementation techniques and compilers, 
        visualization and interactive analysis methods, collaboration 
        tools, and data management technologies.

        4.  Invest in Fundamental Research. Accelerated research is 
        needed in fundamental methods and algorithms for scientific 
        problem solving. This research should include novel theoretical 
        formulations of problems and methods that trade computation for 
        storage or that might be applicable for new types of 
        computational devices (e.g., field programmable gate arrays or 
        cellular automata).

    A number of scientific and engineering areas can benefit from 
increased access to high-performance systems in the near-term and new 
architectures aimed specifically at them in the long-term. These 
include climate modeling, materials science and nanoscience, molecular 
modeling, phylogeny and molecular evolution, genomics analysis, 
computational astrophysics and cosmology, computational chemistry and 
drug design, theoretical physics, plasma physics, and computational 
modeling of the heart, lungs, and nervous system. I believe that the 
interaction between NSF, DOE, and NIH will be a particularly important 
and fruitful area for collaboration in the near-term and the long-term.
    In summary:

        1.  HPC is a critical technology for the Nation. It is needed 
        by all branches of science and engineering and is a critical 
        policy tool for government leaders. Its availability is a 
        pacing item in many areas of science.

        2.  The United States is the undisputed world leader in the 
        development of HPC technologies, including hardware, software, 
        and applications. The United States also leads the world in 
        education and training for HPC.

        3.  In addition to computing hardware and software, HPC 
        environments today include advanced networking, Grid computing, 
        and data-intensive computing, in addition to classical 
        simulation and modeling. New high-throughput experimental 
        technologies in life science and medicine, nanoscience, and 
        physics, as well as large-scale imaging and sensing networks, 
        are highly dependent on increased access to HPC for data 
        analysis and acquisition.

        4.  Maintaining our international leadership in science and 
        technology requires that the United States maintain a vigorous 
        research and development program in HPC in universities, 
        laboratories, and private industry. These R&D programs should 
        set their sights on the most aggressive performance and 
        usability goals possible.

        5.  Maintaining our international leadership in science and 
        technology requires that the United States dramatically improve 
        its performance in deploying large-scale systems for civilian 
        science and engineering research and make these systems 
        available to all qualified users in the U.S. scientific 
        community regardless of institutional affiliation or funding 
        source.

        6.  The NSF has embarked on a large-scale project known as the 
        ``TeraGrid'' to deploy, via the Grid, high-performance 
        computing to the civilian science community. Grid computing 
        connects multiple distributed large-scale computing resources 
        with high-performance storage, leading-edge visualization 
        resources, scientific databases, and instruments to create a 
        unified computing environment for science. In this way Grid 
        computing will provide the computing power of entire 
        laboratories to individual researchers regardless of their 
        location. NSF and DOE should collaborate to ensure that Grid 
        technology is broadly deployed and uses standard protocols and 
        interfaces.

        7.  DOE has begun development of a national leadership 
        computing capability that will provide unprecedented computing 
        performance to all areas of science and engineering. By 
        deploying the highest-performance open computers possible, 
        these leadership-computing systems will enable researchers to 
        push the scientific envelope and create next-generation 
        software for critical applications in areas of interest to the 
        Nation, including global climate modeling, fusion energy, life 
        sciences, nanoscience, astrophysics, and computational 
        chemistry. DOE and NSF should collaborate in the development 
        and deployment of leadership-class HPC systems.

Recommendations

        1.  Aim high. The U.S. should aim for nothing less than world 
        leadership in HPC. We need to develop the most capable computer 
        systems in the world, make them work, and make them available 
        to the broad national scientific community.

    The DOE and the NSF should have a focused research and development 
program to achieve breakthrough-level computing performance on a set of 
set of representative applications that are critical for the next ten 
years of scientific progress. Examples of such areas include 
bioinformatics and computational biology, computational nanoscience, 
environmental and climate modeling, complex device modeling, and multi-
scale multi-physics applications in astrophysics and advanced 
industrial processes.
    By focusing on achieving performance breakthroughs on real 
applications, instead of benchmarks or abstract peak performance, many 
new ideas may be brought to bear on the problem, and novel application-
specific systems may be developed that will provide new ideas for next-
generation general purpose systems.

        2.  Learn from our mistakes. The original HPCC (1991) program 
        showed that it doesn't work well to have different agencies 
        responsible for hardware development, software, and 
        applications and no agency responsible for integration and 
        broad deployment. We should charge NSF and DOE with this broad 
        mission: NSF because of its strong connection to university 
        science and DOE because of its experience in developing large-
        scale user facilities and technology integration.

    We as a nation should pursue multiple computer development paths, 
including public and private partnerships and novel architectures, 
while increasing the level of expectations for usability of deployed 
computing environments. The key goal is that there should be a number 
of projects each managed by a single agency responsible for making 
usable resources from the technology developed across the broad 
national effort.

        3.  Connect HPC to the future. We recognize that some of the 
        biggest scientific impacts in the future may come from 
        different directions from those in the past. The NIH has the 
        largest non-defense research budget in the world and funds the 
        vast majority of life science and biomedical research in the 
        United States. It is widely recognized that bioinformatics and 
        computational biology are revolutionizing both basic biology 
        research, and research of direct clinical importance. I 
        therefore recommend that NIH be considered as a partner with 
        NSF and DOE in the future responsibility of applications 
        science for our national HPC program.

    How to effectively engage NIH is one of the critical questions 
facing those in government that manage advanced computing programs. NIH 
is a large organization with many institutes. Each institute has a 
potential need for HPC and could be a target of partnerships with 
agencies with established programs and with existing HPC 
infrastructures. NIH needs broad access to significant amounts of 
capacity computing, as well as access to the most capable systems for 
those areas of research that are ready to exploit these systems (e.g., 
neuroscience, heart and lung modeling, infectious disease). We are in 
the midst of a revolution in biology as a result of access to large-
scale computers, data systems, and high-throughput experimental 
techniques. This revolution will have far-ranging impact on our 
science, our security, our economy, and our health.

    In conclusion, Mr. Chair, I thank you for your time and this 
committee's support for the U.S. scientific enterprise, support that 
has created a system capable of fueling sustained economic growth while 
fostering an open environment of discovery and wonder. I would be happy 
to answer any questions that you may have.

                       Biography for Rick Stevens
    Professor Rick Stevens is Director of the Mathematics and Computer 
Science Division at Argonne National Laboratory and co-founder and 
Director of the University of Chicago/Argonne Computation Institute, 
which was created to provide an intellectual home for large-scale 
interdisciplinary projects involving computation at the two 
institutions. He is internationally recognized for his work in high-
performance computing, collaborative and visualization technologies, 
and computational science, including computational biology. He has a 
broad set of research interests best characterized by the idea that 
advanced computing and communications technology is a primary enabling 
tool for accelerating scientific research. His research has focused on 
a range of strategies for increasing the impact of computation on 
science, from architectures and applications for petaflops systems to 
Grid computing to advanced visualization and collaboration technology 
for improving scientific productivity of distributed teams. He is 
currently Director of the NSF TeraGrid project and formerly was chief 
architect of the National Computational Science Alliance. He has a 
long-standing interest in applying computing to problems in the life 
sciences and has been systematically focusing his energies in this 
direction during the past decade. He is Professor of Computer Science 
at the University of Chicago, where he teaches and supervises graduate 
students in the areas of systems biology, collaboration and 
visualization technology, and computer architecture.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you very much, Dr. Stevens. Dr. 
Reed.

STATEMENT OF DR. DANIEL A. REED, WILLIAM R. KENAN, JR. EMINENT 
     PROFESSOR, UNIVERSITY OF NORTH CAROLINA AT CHAPEL HILL

    Dr. Reed. Good morning, Chairman Boehlert, and Members of 
the Committee.
    As Representative Miller mentioned, I am chair of a new 
institute in the Carolinas looking at applications of high-
performance computing across a range of disciplines, but 
especially life sciences. I am delighted to be here to discuss 
H.R. 4218. I would also like to express my appreciation to 
Representative Biggert for her sponsorship and leadership with 
this bill. I believe it is critical. I also chair the Community 
Input Workshop, which provided input to the agency process for 
producing the HECRTF report to which Dr. Marburger alluded.
    In response to your questions regarding the HPC Computing 
Revitalization Act, I would like to make three points today. 
The first, related to international competitiveness, is that 
high-performance computing, as you noted in your opening 
remarks, has emerged as a third element of a research portfolio 
that complements theory and experiment. In cosmology, where 
experiments are not possible, it allows researchers to explore 
models of the universe's origins. In climatology, it allows 
rapid analysis of humanity's long-term effects on the 
environment. And in biology, it enables researchers to study 
the effects of genetics, pathogens, and particulates on 
respiratory disease.
    Legend says that Archimedes remarked on discovery of the 
lever ``Give me a place to stand, and I can move the world.'' 
Today, science and computational science have become largely 
synonymous, and high-performance computing is the intellectual 
lever that helps assure U.S. competitiveness in an increasingly 
competitive world.
    However, there is one unique aspect that I think we must 
realize about high-performance computing that distinguishes it 
from our investments in other research instruments, and that is 
its universality as an intellectual amplifier. Powerful new 
telescopes advance astronomy, but not material science. 
Powerful new particle accelerators advance high-energy physics, 
but not genetics. High-performance computing is universal as a 
tool that advances research discovery in all of the sciences.
    That brings me to my second point, the current status of 
our efforts in coordinated solutions. Because all research 
domains do benefit from high-performance computing, but none is 
solely defined by it, the high-performance computing endeavors 
often lack the cohesive community of advocates that might be 
found in an individual discipline, and this has often led to, 
in my judgment, an overdependence on market forces to shape 
what emerges as technologies to advance science.
    During the past three years, at least six community reports 
have highlighted the need for more integrated approaches, and 
in this regard, I applaud the Committee for capturing these 
recommendations in the HPC Revitalization Act. My only 
recommendation beyond the basic Act would be to consider 
mechanisms to aid the transfer of technologies that are 
promising and applicable to the nature of science and to 
commercial practice. There are substantial costs to develop 
high-performance computing systems tailored to science, and the 
limited markets associated with those sometimes mean that 
government mechanisms may be necessary to help sustain those 
developments, again, for systems tailored to science.
    More generally, I believe an integrated interagency 
initiative, as envisioned by the HPC Act, should clearly 
articulate the scope of each agency's responsibilities, and as 
Dr. Stevens noted, as part of a broad computing ecosystem. It 
should include verifiable metrics for interagency collaboration 
and progress that are coupled to national priorities.
    Now, there has been a lot of debate about the relative 
roles of the National Science Foundation and the Department of 
Energy in providing access to high-end computing systems. In my 
judgment, this debate misses the critical point. The 
collaborative commitments of both are necessary to sustain 
scientific research. Both need to deploy and maintain world-
class computing systems in support of scientific discovery, 
again, in an integrated infrastructure, the supports, data 
management, storage, network, and workforce development.
    Finally, to echo something that Dr. Stevens said, the 
biological triumphs of the last decade are due in no small part 
to biological insight, but also to the judicious applications 
of computing technologies. Hence, I believe it is critical that 
the National Institutes of Health should also lead by 
supporting computing research, and by working with the other 
agencies to deploy in the integrated infrastructure in support 
of biomedical research.
    This brings me to my third and final point, where we go 
from here. Today, the lack of high-performance computing 
systems designed for important scientific and national problems 
unnecessarily constrains our innovation. Integrated vehicle 
designs with lifetime warranties are within reach. Personalized 
medicines tailored to the individual genetics of particular 
individuals are also on the horizon. To make these 
opportunities a reality, however, we must develop new high-
performance computing systems that better support the needs of 
critical applications as a focus initiative that focuses on 
sustained, not simply peak performance.
    In addition, we must recognize that we must make these 
systems easier to use and more productive, particularly for 
commercial domains in support of national competitiveness. 
There is no silver bullet that will eliminate our current 
problems. Rather, the challenge is in sustaining an integrated 
interagency research, development, and deployment initiative 
that is reflective of national needs and opportunities.
    Today, high-performance computing is reaping the rewards of 
yesterday's research. We must seed tomorrow's crop of research 
ideas today, lest I fear we will tomorrow subsist on wild 
berries, rather than the fruits of today's research.
    So in conclusion, let me say that I strongly support H.R. 
4218 and its vision for high-performance computing, and I would 
be happy to take questions.
    [The prepared statement of Dr. Reed follows:]
                  Prepared Statement of Daniel A. Reed
    Good morning, Chairman Boehlert and Members of the Committee. Thank 
you very much for granting me this opportunity to comment on 
appropriate paths for scientific computing. I am Daniel Reed, Director 
of the Renaissance Computing Institute (RENCI), a collaborative 
activity of the University of North Carolina at Chapel Hill, Duke 
University and North Carolina State University. I am the former 
Director of the National Center for Supercomputing Applications (NCSA) 
at the University of Illinois, one of three NSF-funded high-end 
computing centers. I am also a researcher in high-performance 
computing.
    In response to your questions regarding the High-Performance 
Computing Revitalization Act of 2004, I would like to make three points 
today regarding high-performance computing.

1. International Competitiveness

High-performance computing has emerged as the third element of the 
research portfolio, complementing theory and experiment. Computing 
breathes life into the underlying mathematics of theoretical models, 
allowing us to understand nuanced predictions and to shape experiments 
more efficiently. Computing also allows us to capture and analyze the 
torrent of experimental data being produced by a new generation of 
scientific instruments and sensors, themselves made possible by 
advances in computing and microelectronics.
    Legend says that Archimedes remarked, on the discovery of the 
lever, ``Give me a place to stand, and I can move the world.'' Today, 
computing pervades all aspects of science and engineering. ``Science'' 
and ``computational science'' have become largely synonymous, and high-
performance computing is the intellectual lever that helps assure U.S. 
scientific leadership in an increasingly competitive world.

High-performance computing plays a special and important role as an 
intellectual lever by allowing researchers and practitioners to bring 
to life theoretical models of phenomena when economics or other 
constraints preclude experimentation. Computational cosmology, which 
tests competing theories of the universe's origins by computationally 
evolving cosmological models, is one such example. Given our inability 
to conduct cosmological experiments (we cannot create variants of the 
current universe and observe its evolution), computational simulation 
is the only feasible way to conduct experiments.

High-performance computing also enables researchers to evaluate larger 
or more complex models and to manage larger volumes of data than would 
be possible on conventional computer systems. Although this may seem 
prosaic, the practical difference between obtaining results in hours, 
rather than weeks or years, is substantial--it qualitatively changes 
the range of studies one can conduct. For example, climate change 
studies, which simulate thousands of Earth years, are only feasible if 
the time to simulate a year of climate in a few hours. Moreover, 
conducting parameter studies (e.g., to assess sensitivity to different 
conditions such as the rate of fluorocarbon or CO<INF>2</INF> 
emissions) is only possible if the time required for each simulation is 
small.

Finally, high-performance computing allows us to couple models to 
understand the interplay of processes across interdisciplinary 
boundaries. Understanding the environmental and biological bases of 
respiratory disease or biological attack requires coupling of fluid 
dynamics models to model airflow and inhalants, whether smoke, 
allergens or pathogens, materials models to surface properties and 
interactions, biophysics models of cilia and their movements for 
ejecting foreign materials, and deep biological models of the genetic 
susceptibility to disease. The complexity of these interdisciplinary 
models is such that they can only be evaluated using high-performance 
computers.

The breadth of these examples highlights a unique aspect of high-
performance computing that distinguishes it from other scientific 
instruments--its universality as an intellectual amplifier. Powerful 
new telescopes advance astronomy, but not materials science. Powerful 
new particle accelerators advance high energy physics, but not 
genetics. In contrast, high-performance computing advances all of 
science and engineering, because all disciplines benefit from high-
resolution model predictions, theoretical validations and experimental 
data analysis. As new scientific discoveries increasingly lie at the 
interstices of traditional disciplines, high-performance computing is 
the research integration enabler.

Although this universality is the intellectual cornerstone of high-
performance computing, it is also its political weakness. Because all 
research domains benefit from high-performance computing, but none is 
solely defined by it, high-performance computing lacks the cohesive, 
well-organized scientific community of advocates found in other 
disciplines. In turn, this has led to over-dependence on market forces 
to shape the design and development of high-performance computing 
systems, to our current detriment.
    Fueled by weapons research and national security concerns, until 
the 1980s, the U.S. government's high-performance computing needs could 
substantively influence the commercial market and assure U.S. supremacy 
in high-performance computing. Scientific and government high-
performance computing needs are now a much smaller fraction of the 
overall computing market, with concomitantly less economic influence.

With the explosive growth of the computing industry and the 
internationalization of information technology, we are in danger of 
losing our international competitive advantage in high-performance 
computing, with serious consequences for scientific research and 
industrial competitiveness. This economic milieu has had profound 
effects on all aspects of high-performance computing--research and 
development, marketing, procurement and operation.

    This brings me to my second point: the current status of our 
efforts.

2. Current Status and Coordinated Solutions

    Not only has high-performance computing enriched and empowered 
scientific discovery, as part of a larger information technology 
ecosystem, it has also been responsible for substantial economic growth 
in the United States. Because of this success, information technology 
and high-performance computing are increasingly international 
activities, with associated competition for intellectual talent and 
access to world-class computing resources.
    In an era of constrained federal budgets and fierce international 
competition, we cannot afford wasted or duplicative efforts. The great 
strength of the U.S. research system is its diversity--many research 
ideas can be explored, with funding opportunities at multiple agencies. 
In computing, this diversity also creates leaks in the pipeline from 
basic research to deployment and commercial infrastructure, and many 
promising ideas are lost. The pipeline from basic research, through 
advanced prototyping and evaluation, to either research infrastructure 
or commercial development, requires tactical and strategic coordination 
across agencies.
    Hence, we must encourage cross-agency collaboration and 
coordination, while leveraging the unique missions and attributes of 
each agency. Only via such interagency coordination can we maintain 
international leadership in high-performance computing. This belief is 
supported by broad community consensus. During the past three years, at 
least six community reports\1\ have highlighted the limitations of 
current approaches and have recommended an integrated, interagency 
initiative in high-performance computing.
---------------------------------------------------------------------------
    \1\ NSF Workshop on Computation as a Tool for Discovery in Physics, 
September 2001--www.nsf.gov/pubs/2002/nsf02176; Report on High-
Performance Computing for the National Security Community, July 2002--
www.hpcc.gov/hecrtf-outreach/bibliography/200302<INF>-</INF>hec.pdf; 
Blueprint for Future Science Middleware and Grid Research and 
Infrastructure, August 2002--www.nsf-middleware.org/MAGIC/default.htm; 
Report of the National Science Foundation Blue-Ribbon Advisory Panel on 
Cyberinfrastructure, January 2003--http://www.cise.nsf.gov/sci/reports/
toc.cfm; DOE Science Networking Challenge, June 2003--gate.hep.anl.gov/
may/ScienceNetworkingWorkshop/; DOE Science Case for Large Scale 
Simulation, June 2003--www.pnl.gov/scales/; Community Workshop on the 
Roadmap for the Revitalization of High-End Computing, June 2003--
www.hpcc.gov/hecrtf-outreach

I applaud the Committee for capturing the central elements of these 
recommendations in the High-Performance Computing Revitalization Act, 
namely the need to (a) train a new generation of high-performance 
computing users and researchers, (b) conduct basic research and 
advanced prototyping for high-performance computing, and (c) develop 
and deploy high-performance systems that match scientific needs. In 
addition to these goals, I recommend that the HPC Act also include 
mechanisms to aid the transfer of promising technologies to commercial 
practice. The substantial engineering costs to develop high-performance 
computing systems and their limited market means that government 
incentives or support may prove necessary to sustain development of 
high-performance systems that can meet national scientific and security 
---------------------------------------------------------------------------
needs.

    I believe an interagency initiative in high-performance computing 
should be based on the following principles:

        1.  An integrated strategic plan that articulates the 
        responsibilities, scope and financial scale of each agency's 
        responsibilities.

        2.  Regular deployment and support of the world's highest 
        performance computing facilities for open scientific use, as 
        part of a broad ecosystem of supporting infrastructure, 
        including high-speed networks, large-scale data archives, 
        scientific instruments and integrated software.

        3.  Coordination and support for national priorities in 
        science, engineering, national security and economic 
        competitiveness.

        4.  Vendor engagement to ensure technology transfer and 
        economic leverage.

        5.  Verifiable metrics of interagency collaboration, community 
        engagement and technical progress that are tied to agency 
        funding.

    The National Science Foundation (NSF) and the Department of Energy 
(DOE) are the primary supporters of physical science and engineering 
research, whereas the National Institutes of Health (NIH) fund the 
majority of life science and biomedical research. Each of these and 
other federal civilian science agencies has a unique, though critical 
role in the computing technology pipeline.
    There has been much debate about the relative roles of NSF and DOE 
in providing access to high-performance computing for scientific 
research. This debate misses the critical point--the coordinated 
actions of both agencies are needed to ensure U.S. competitiveness, and 
both should be charged with deploying and operating systems with the 
highest possible capability.

Reflecting its role as a basic research agency, NSF should support 
advanced systems research, including new architectures, software and 
tools and advanced algorithms. This research is the well spring of 
tomorrow's computing systems and infrastructure and the educational 
opportunity for a new generation of high-performance computing 
researchers. Concurrently, NSF should continue to develop and support 
leading edge computing and data management systems, both for open 
community access and to support its Major Research Equipment (MRE) 
projects.
    Investments in ``computing as science'' (i.e., basic research in 
next generation computing technologies) and ``computing for science'' 
(i.e., deployment of computing infrastructure as a scientific enabler) 
are complementary, with qualitatively different time scales and needs. 
Given the rapid rates of change in computing technologies, high-
performance computing infrastructure must be sustained at adequate 
levels for long periods and renewed regularly if it is to remain 
relevant to research facilities that have 10-20 year operational 
lifetimes.
    Many high-performance computing research ideas can only be 
validated by constructing large-scale prototypes. In the 1970s and 
1980s, the U.S. funded several research and development efforts in 
high-performance computing, and we continue to harvest insights from 
these experiments. Today, there are few, if any such projects, with 
concomitant loss of experience and insight. Hence, DOE should lead 
advanced prototyping and deployment of next-generation high-performance 
computing systems, coupled to its scientific facilities and laboratory 
mission. This advanced prototyping and development should harvest basic 
research ideas from the DOE and NSF portfolios for national deployment.
    Finally, as quantitative biology and biomedicine expand to include 
tools and techniques from the physical and mathematical sciences, the 
National Institutes of Health (NIH) must also assume a leadership role 
in computational science and high-performance computing. The biological 
research triumphs of the past decade were due in no small measure to a 
combination of biological insight and judicious application of new 
computing technology. Equally importantly, the biomedical discoveries 
of this decade, with concomitant cost savings and improved treatments, 
will depend critically on the deep integration of biology, medicine, 
software, algorithms and hardware. Hence, NIH should also lead by 
supporting both computing research and the creation of a national 
infrastructure for biomedical data sharing, computational modeling and 
distributed collaboration that is interoperable with that being 
deployed by NSF and DOE.

While we debate appropriate actions, our international competitors are 
moving ahead. As part of the Sixth Framework, the European Union plans 
to deploy a pan-European Grid as a baseline infrastructure in support 
of scientific research. In the U.S., we are developing a set of loosely 
connected Grids without a common framework or strategic funding plan. 
Similarly, Japanese investment in the Earth System Simulator, the 
world's fastest computing system, is well known.

    This leads me to my third and final point: research needs and 
opportunities.

3. Actions

    The explosive growth of commodity clusters has reshaped the high-
performance computing market. Although this democratization of high-
performance computing has had many salutatory effects, including broad 
access to commodity clusters across laboratories and universities, it 
is not without its negatives. Not all applications map efficiently to 
the cluster programming model of loosely coupled, message-based 
communication, and it is difficult for vendors to make a profit 
developing systems tailored for scientific research. Hence, some 
researchers and their applications have suffered due to lack of access 
to more tightly coupled supercomputing systems. Second, an excessive 
focus on peak performance at low cost has limited research into new 
architectures, programming models, system software and algorithms. The 
result has been the emergence of a high-performance ``monoculture'' 
composed predominantly of commodity clusters and small symmetric 
multiprocessors (SMPs).

In the 1990s, the U.S. high-performance computing and communications 
(HPCC) program supported the development of several new computer 
systems. In retrospect, we did not recognize the critical importance of 
long-term, balanced investment in hardware, software, algorithms and 
applications. Achieving high-performance for complex scientific 
applications requires a judicious match of computer architecture, 
system software, tailored algorithms and software development tools. We 
have substantially under-invested in the research needed to develop a 
new generation of architectures, programming systems and algorithms. 
The result is a paucity of new approaches to managing the increasing 
disparity between processor speeds and memory access times (the so-
called von Neumann bottleneck).

    Hence, we must target exploration of new systems that better 
support the irregular memory access patterns common in scientific and 
national defense applications. In turn, promising ideas must be 
realized as advanced prototypes that can be validated with scientific 
codes. In addition, we must recognize that new programming models and 
tools are needed that simplify application development and maintenance. 
The current complexity of application development unnecessarily 
constrains use of high-performance computing, particularly for 
commercial use. Finally, increases in achieved performance over the 
past twenty years have been due to both hardware advances and 
algorithmic improvements; we must continue to invest in basic 
algorithms research. This critical cycle of prototyping, assessment, 
development and deployment must be a long-term, sustaining investment, 
not a one time, crash program.

Opportunities abound for application of high-performance computing in 
both science and industrial sectors. Integrated vehicle designs with 
lifetime warranties, based on coupled electrical, mechanical and power 
train models, are within reach. Higher resolution cosmological models 
would allow testing of competing theories of the evolution of the 
universe, with sufficient resolution to simulate galaxy formation. 
Personalized medicines, tailored to minimize toxicity and maximize 
efficacy based on individual genetics, are possible based on drug 
chemistry models. All require a new generation of high-performance 
computing systems that can deliver high sustained performance for a 
suite of coupled models.
    There is no ``silver bullet'' that will eliminate current problems 
and ensure continued U.S. preeminence in high-performance computing. 
Rather, the challenge is creating and sustaining an integrated, 
interagency research, development and deployment program that is 
reflective of national needs and opportunities. Today, high-performance 
computing is reaping the rewards of yesterday's research investment. We 
must seed tomorrow's crop of research ideas today, else tomorrow we 
will subsist on wild berries.
    In conclusion, Mr. Chairman, let me thank you for this committee's 
longstanding support for scientific discovery and innovation. Thank you 
very much for your time and attention. I would be pleased to answer any 
questions you might have.
                      Biography for Daniel A. Reed
    Professor Daniel A. Reed is Director of the Renaissance Computing 
Institute (RENCI), an interdisciplinary center spanning the University 
of North Carolina at Chapel Hill, Duke University and North Carolina 
State University. He was previously Director of the National Center for 
Supercomputing Applications (NCSA) at the University of Illinois at 
Urbana-Champaign, where he also led National Computational Science 
Alliance, a consortium of roughly fifty academic institutions and 
national laboratories that is developing next-generation software 
infrastructure of scientific computing. He was also one of the 
principal investigators and chief architect for the NSF TeraGrid. 
Professor Reed is also the former head of the Department of Computer 
Science at the University of Illinois, one of the oldest and most 
highly ranked computer science departments in the country. He holds the 
Chancellor's Eminent Professorship at the University of North Carolina 
at Chapel Hill where he conducts interdisciplinary research in high-
performance computing.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Boehlert. Thank you. Excuse me, thank you very 
much. Thank all of the panelists.
    Let me start by commending Dr. Marburger for identifying 
high-performance computing as a top tier issue for the science 
agencies and for convening the White House-led interagency task 
force to develop a revitalization plan. The Task Force in its 
report constituted a textbook example of how OSTP can 
constructively guide federal science programs. It is exactly 
what Congress had in mind when the Science Committee created 
OSTP back with the Science and Technology Policy Act of 1976. 
So, Dr. Marburger, once again, by everyday performance, you 
distinguish yourself and the important post you hold.
    Let me ask each of the witnesses, what is the most 
important thing the Federal Government ought to be doing that 
it isn't doing, or isn't doing enough of, in the area of high-
performance computing, and think about that for a moment?
    Then I will ask Dr. Marburger to tell us if those gaps are 
reflected in the HECRTF report, and how they will be addressed.
    Let us go--Dr. Wladawsky-Berger. Of Big Blue.
    Dr. Wladawsky-Berger. When we look at progress in high-
performance computing, the biggest steps happen when we are 
working together between industry, the research community in 
universities and national labs, for advanced applications, 
because it is usually by pushing that envelope of advanced 
applications that we learn what works, what doesn't work, that 
we also learn how to make systems usable, because the 
technology by itself is not usable. You need to add 
considerable software. You need to add a lot in application 
development tools. You need to develop applications and 
algorithms, and the bigger the system, the harder it is to 
develop all those additional facilities.
    I think I want to second the statements that Rick Stevens 
and Dan Reed made that in today's world, the grandest of 
challenges are in life sciences. I mean, I am a physicist by 
training. I also come from near territory of Representative 
Biggert, having gotten my degree at the University of Chicago, 
which is sort of nearby. And you know, physics drove a lot of 
high-performance in the 20th Century. In the 21st Century, it 
is life sciences, and the applications are incredibly, and 
their potential is absolutely incredible, but they require a 
lot more work, a lot more pilots, a lot more development of 
applications than we have today.
    So, that--I would say that would be my number one priority.
    Chairman Boehlert. Thank you. Dr. Stevens.
    Dr. Stevens. My assessment of the number one priority is 
that we need to have a sustained development activity over 
multiple generations of hardware, and we need to have multiple 
paths. So, we have to work on multiple kinds of architectures, 
and we need to do it over multiple generations. Each generation 
of hardware might take two or three years to develop, a year to 
manufacture, a year to install, so you are--we are talking 
about a 10 to 15 year horizon, not a three year horizon.
    We have to commit to a multi-year program. Part of that 
program needs to be large-scale deployment, so the scientists 
that can be involved in that multi-generation development 
activity have an expectation of being able to do science on 
those systems when they are developed.
    Right now, as much as this HECRTF plan is actually a huge 
step forward, it still is relatively silent on what is 
necessary to deploy these systems to advanced sciences. It is 
mainly about developing the systems, somewhat silent about the 
deployment strategy. Once you deploy this hardware, you need to 
develop the application software, as Irving has--Wladawsky-
Berger has mentioned. And life science and nanotechnology are 
my two thoughts about which areas are most important for the 
future.
    So, to summarize, multi-year, multi-generation deployment, 
development and deployment, with the software applications 
bundled.
    Chairman Boehlert. Well, you know, given the focus on 
biology, should NIH be playing a larger role?
    Dr. Stevens. Absolutely.
    Dr. Reed. Absolutely.
    Dr. Stevens. There is jurisdictional issues with respect to 
maybe this committee, but NIH needs to be engaged at the 
highest levels, and both vertically and horizontally across 
that agency to advance. And there has been a number of reports 
in the last five years that have tried to lay out a roadmap for 
NIH's participation. We just need to see some of that executed.
    Chairman Boehlert. Thank you. Dr. Reed.
    Dr. Reed. I would echo what both of my friends have said. I 
think the challenge is in sustaining investment and in 
sustaining understanding. My grandmother used to tell me that 
good judgment comes with experience, and experience comes from 
bad judgment. And part of what that means in any discipline is, 
and particularly true of high-performance computing, where one 
is looking at the interaction of complex systems with 
application domains, is you really have to turn the crank 
multiple times. You have to do the R&D, you have to deploy a 
generation of systems, and gain experience with those systems 
with real applications, take those insights, and feed them back 
in to successive generations of improved designs. And that 
ability to move through multiple generations means that we have 
to sustain the investment across the R&D and the deployment in 
order to make those systems really effective.
    We tend to start things, but not finish things, and the 
notion that we can solve a problem in a couple of years with a 
crash initiative and then declare victory and move on doesn't 
solve this kind of problem. And in terms of investment and 
driving problems, I agree that biology and biomedical research 
is one of the great untapped opportunities, and I really 
believe that NIH has to be a player in this.
    I would also say that, though, it is not a black and white 
thing, because a lot of the discoveries, as biology becomes 
quantitative, are from interdisciplinary interactions and 
insights from the physical sciences and mathematics, and that 
fusion of research collaborations in interdisciplinary ways is 
a place that will make a lot of biological discovery happen, 
and high-performance computing is absolutely critical to that.
    Chairman Boehlert. Dr. Marburger, your comment.
    Dr. Marburger. Well, thank you very much.
    First of all, I would like to point out that Congress has 
created some pretty heavy machinery to accomplish some of the 
things that my colleagues here on the panel have pointed to. 
Certainly, the need for sustained investment for getting that 
experience is, I think, satisfied by the existence of the 
National Information Technology R&D Initiative itself, and the 
establishment of PITAC [President's Information Technology 
Advisory Committee], this expert FACA [Federal Advisory 
Committee Act] group, and the existence of a coordinating 
office that reports up under OSTP. I believe that our 
engagement with this issue during the past two years has been 
productive and will be increasingly productive, and I must say 
that the attention by Congress to this issue has been very 
important in sustaining our attention to it.
    So, I do agree with the need for sustained effort first of 
all, and secondly, for effective coordination across agencies. 
And I would like to say a word about that, and particularly the 
participation by NIH. NIH does participate in our interagency 
effort. And I believe that in the future, as a follow-on 
activity to the preparation of this report, which does indeed 
focus more on development than on deployment, I believe that a 
focus on real life problems and applications, as recommended by 
my colleagues here, will have the effect of engaging NIH more 
effectively in future deliberations. Because there is a great--
high-performance computing comes in different colors and 
varieties. There are different architectures, and different 
kinds of hardware structures related to the different types of 
applications. And I believe that NIH is currently getting a lot 
of mileage out of the existing high-end computing architectures 
that are available, these clusters of existing, off-the-shelf 
microprocessors.
    They are enormously powerful for some types of 
bioinformatics, so NIH has a lot to chew on with the existing 
state of supercomputing, and they are doing great things with 
it. A focus on real life applications of other kinds of 
architectures can enable all agencies to learn about the 
potential for increased investment and application relevant to 
their field in a way that our previous focus on development of 
architectures would not.
    So, I think there are some interrelationships among the 
various recommendations that have been made by our panelists 
that are all likely to be addressed under the bill that you 
have proposed, and the structure that has been created and will 
be strengthened in the bill.
    Chairman Boehlert. Thank you very much, Doctor. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. The Department of 
Energy has begun a national leadership class supercomputer that 
will be enormous--I think enormous value to those in the 
business community, as well as research institutions.
    And I certainly applaud these efforts, and look forward to 
America regaining the leadership in this role. However, Dr. 
Stevens, when you testified, you indicated that perhaps maybe 
because there is not any particular agency that would be 
responsible for providing leadership and guidance, that perhaps 
we should choose one, or one of the different agencies that 
would actually provide oversight.
    The question is should responsibility for providing access 
to and support on specialized high-end computing systems be 
assigned to a particular agency, and would you recommend which 
one?
    Dr. Stevens. So, multiple agencies have high demand. The 
two agencies that leap to mind as the candidates for having 
this leadership role are the National Science Foundation and 
the Department of Energy. Both of them have complementary 
skills to bring to the table.
    The NSF funds many thousands of researchers across the 
country and universities, and is in touch with the pulse of 
what academic research is doing, and they need to play a very 
strong role in providing capability systems to that community.
    On the other hand, DOE has the skill and the organizational 
structure to field large development projects, large-scale 
construction projects, large-scale research instruments, and to 
manage them as national user facilities.
    These two skills need to be combined. Neither agency, I 
think, should have the sole responsibility for serving the 
country. That is a single point of failure. I don't think we 
want to have that risk in this endeavor. On the other hand, 
there needs to be much more coordination between those two 
agencies, and a linkage of how they are going to provide 
access.
    For example, the National Science Foundation is prohibited 
by current policy from providing access to researchers at 
FFRDCs [Federally Funded Research and Development Center] for 
access to the high-performance computers at the NSF 
Supercomputer Centers. DOE, up until recently, had a more of an 
internal focus on its allocation of computing resources. In 
order for NSF to be that lead, that policy for FFRDC access 
would have to change. In order for DOE to be the single lead, 
DOE's policy for assigning time to mission applications would 
have to take a second seat to a peer review process similar to 
that applied at the experimental facilities like the Light 
Sources that awards time based on merit, not mission.
    So, I think both agencies need to have this role. I think 
what is really limiting progress is not really the politics of 
interagency role, as much as resources available for large-
scale deployment.
    And if I could just point out that the Japanese Earth 
Simulator was not really a technological enterprise that 
somehow beat us. It was primarily a resource deployment issue. 
That machine cost on the neighborhood of $400 million to 
deploy. At the time at which the Japanese made that commitment, 
the largest systems the U.S. was deploying in that same 
timeframe were on the order of $100 million per system. So 
scale of deployment is really the issue here, not so much 
agency politics.
    Mr. Davis. Would someone else like to respond?
    Dr. Marburger. There are interagency issues associated with 
the guidelines that exist in their operations, and these are on 
the table in the discussions that we have in the OSTP-sponsored 
interagency working groups. I believe that continued focus on 
these issues will bear some fruit. I was very pleased when the 
Department of Energy, for example, did open its computing 
facilities much more broadly to scientists receiving their 
support from other agencies.
    But as this committee is fully aware, there is some 
controversy regarding the opening up of NSF resources to 
scientists who are not at universities, and working--the FFRDCs 
refers to the Department of Energy National Laboratories, of 
course.
    Mr. Davis. Any other--first of all, I am sorry.
    Dr. Reed. I think the challenge, really, is in strategic 
planning across the agencies, and looking at acquisitions and 
deployments as a rolling, sustained activity. We have to move 
to a model where we can make long-term plans about the 
infrastructure that we deploy in support of national scientific 
discovery, because the uncertainty about when a new machine 
will appear at appropriate scale has long-term ramifications, 
and to hark back to what several of us said before about the 
deep integration now of computing as an enabler for science, if 
one looks at the timescale for other large-scale scientific 
facilities we build, we have multi-year planning processes and 
operational lifetimes that may be measured in 10, 20, 30 years. 
We don't have, at the moment, that kind of strategic planning, 
acquisition, and deployment process for high-end computing and 
the associated ecosystem of infrastructure that supports it.
    That creates a lot of uncertainty, not only among the 
people who are primarily--use computing in the narrow sense, 
but in the way that computing infrastructure supports the 
broader scientific enterprise. The data management, the 
analysis, the collaboration support that go with those other 
instruments is now inextricably intertwined with this 
infrastructure as well, and it has to be part of a larger 
planning process.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired. Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman. Just one further step 
in that question. Dr. Marburger, if you could wave a magic 
wand--I know you would love to, but that hasn't been invented 
yet, and--what are the two or three changes that you would make 
now to strengthen the interagency coordination?
    Dr. Marburger. That is a dangerous question for me to 
answer. I think first of all, we have unprecedented cooperation 
among the agencies. There has been tension about strategies. 
People were concerned about competition for resources, and 
perhaps losing control over their own assets, and losing 
leverage over certain types of applications or designs. And 
much of those tensions have dissipated during the past year, 
during the activities of this committee.
    The most important thing is to maintain engagement at a 
sufficiently high level within the agencies to make budget 
decisions and resource allocation decisions. And the first 
thing that I would just like to do is to make sure that the 
relevant agencies are engaged at a sufficiently high level. I 
think they are, but that it is important to maintain that focus 
of leadership at the top.
    Another magic wand would be simply to try to get everybody 
at the same level of awareness of some of the broader scale 
technical issues, like the differences among these types of 
computing facilities, the parallel versus the vector, and so 
forth. That would make it easier to discuss some of these 
things. I do believe that some differentiation in roles is 
absolutely essential. I think it is appropriate for the 
National Science Foundation to focus on connectivity, as it is 
doing, the Department of Energy to focus on major facilities, 
as it is doing, and then other agencies to be users of those 
capabilities in appropriate ways.
    I wish I could reduce the barriers to resource flow among 
the agencies. That is a very--that has always been a serious 
problem for coordinating science programs across agencies. 
There are semi-permeable membranes to the flow of funds and 
resources across the agencies. Fortunately, there is no barrier 
to agencies planning together, and trying to overcome these 
membranes, as it were, that separate them, to overcome them 
from the top down, as they plan their activities.
    These are just some thoughts that come to mind.
    Ms. Biggert. If DOE provides new computer resources to 
academic researchers not associated with DOE, will that 
complement or partially substitute for what NSF is--currently 
provides through its computer centers?
    Dr. Marburger. I think that the facilities that DOE tends 
to provide are unique. It is necessary for NSF-supported 
researchers to have access to them. The model of the 
Synchrotron Light Sources and other accelerator-based user 
facilities at the Department of Energy Laboratories is a very 
good one for supercomputing. It is one that we have in mind and 
would like to support. So, operating these new facilities as if 
they were accelerators is a good model. NSF does provide 
connectivity, currently, that the Department of Energy 
laboratories take good advantage of. And that can continue.
    So, I don't see any insuperable barriers to the model that 
is being proposed here. There are some minor difficulties, but 
I believe they can be worked out.
    Ms. Biggert. Thank you. And before I proceed to other 
questions with the panel, I just wanted to state for the record 
that I did not pack this panel, that I did not know that 
everyone was from the Midwest at the time, but I am very glad 
that you are all here. This is for Dr. Stevens and Dr. Reed.
    How do you anticipate that academic researchers would react 
to DOE taking on a greater role in providing university 
researchers with access to the high-performance computers?
    Dr. Stevens. I think they would react positively under the 
following condition, if they had confidence that the allocation 
on those systems was a peer review process of the highest 
standard, number one.
    Number two, if the systems provided were really unique, 
that is, one of the challenges that we have been talking about 
here is the need for multiple architectures. For example, the 
recent announcement for DOE actually talks about two or three 
architectures ultimately being deployed. If those were pushed 
to the extremes over the next decade, they would be quite 
different from each other.
    The Cray system and the IBM system are on two very 
different paths. If they were pushed to the extreme and at very 
large scale, much larger than say, what could be deployed and 
supported at a university site, then they would be truly 
national resources. They would be unique. They would complement 
what university groups can have, and with appropriate peer 
review, I think those are the combinations for success.
    Chairman Boehlert. Thank you. The gentlelady's time has 
expired.
    Ms. Biggert. Could Dr. Reed answer----
    Chairman Boehlert. Dr. Reed, did you want to respond?
    Ms. Biggert. Yes.
    Dr. Reed. Just briefly.
    Chairman Boehlert. I want to give North Carolina equal 
time.
    Dr. Reed. Well, I do--I agree with what Rick Stevens said. 
I think that the other aspect to bear in mind is that computing 
is part of this ecosystem that connects instruments, and they 
are being developed by multiple agencies, and so the notion 
that one agency provides sole access, I think, has to recognize 
the ground truth that we need to bring this broad 
infrastructure together, and that is important.
    Chairman Boehlert. Thank you very much. Ms. Lofgren. Or Ms. 
Woolsey, I am sorry. Zoe was here.
    Ms. Woolsey. She was here, but I was here before her.
    Chairman Boehlert. Well, all right. And you are still here.
    Ms. Woolsey. Pay attention, Mr. Chairman.
    Chairman Boehlert. So you get----
    Ms. Woolsey. I get 10 minutes.
    Chairman Boehlert. No.
    Ms. Woolsey. Hers and mine. First of all, thank you, panel. 
As usual, the panelists that, even if they are all from the 
Midwest, are always wonderful, that are picked by this 
committee, and by Ms. Biggert herself.
    I would like to acknowledge Dr. Wladawsky-Berger, and--for 
being named the 2001 Hispanic Engineer of the Year.
    Dr. Wladawsky-Berger. Thank you.
    Ms. Woolsey. And being a native of Cuba. And I want to 
thank you for using your brilliance and vision and intellect 
here in our country, in the United States.
    Dr. Wladawsky-Berger. Thank you.
    Ms. Woolsey. Thank you very much. Says something about 
immigration, doesn't it, folks?
    With hardware and software being a main emphasis in this 
nation, and with our need for paying more attention--paying the 
right amount of attention to supercomputing, I want to ask you 
if--about the role of the telecom industry, the wireless 
industry, the fiber-optics industry. I want to know if we are 
putting enough--investing enough in that industry, because 
wouldn't it--I mean, I think I am right that it would certainly 
impede the get-along with supercomputing, yes, if we hold it up 
through that industry.
    So, I am asking you, are we doing enough with the 
infrastructure, the telecom infrastructure, with research and 
development in that area, and are we funding this research 
appropriately? Just any one of you, starting with Dr. 
Wladawsky----
    Dr. Wladawsky-Berger. Well, if I may start, I mean, I can't 
say enough about the importance of broadband to everything, to 
our security, to our economic competitiveness, to healthcare, 
to education. What the Internet taught us is how much more 
valuable all this technology is when all the pieces are 
connected with each other using open standards, than in the old 
days, not too long ago, when they were all separate and they 
were not connected.
    And as for trying to take these supercomputing 
capabilities, and make them available everywhere, from the very 
largest to scientists, to others in a more commercial world, 
the more we have broadband, line-connected and wireless, the 
much more valuable it is going to be.
    Let me just give one little example. We are working, in 
IBM, with a small company that is developing some very 
innovative approaches to detecting skin cancers. They have some 
tools that are noninvasive that analyze the skin, but then that 
information gets transmitted over broadband in real time to 
some commercial supercomputer centers--in this case we partner 
with them--it analyzes that, gets back the answer in real time, 
and now the combination of the supercomputers with the 
broadband is helping whole new applications that you just would 
never have been able to do otherwise.
    Ms. Woolsey. Well, all right. Are we doing enough in that 
direction? I mean, I feel like we----
    Dr. Stevens. Well----
    Ms. Woolsey. Go ahead, Dr. Stevens.
    Dr. Stevens. Let me try to take a stab at it.
    Let me just make an observation. The Earth Simulator. If 
you want to use that, you fly to Japan, and you sit--you go 
into a building, and you sit there with your Japanese 
colleagues and type directly at the machine. That machine is 
not on the network, okay.
    If Japan decided to connect that machine to, say, a high-
performance particle accelerator to analyze protein structures, 
they decide not to do that. In the U.S., deploying systems that 
way would be crazy, right. The NSF has recognized this in the 
TerraGrid project. Now, let us just play this picture forward a 
little bit in time. Today, we are deploying systems that are in 
the order of 10 to 100 teraflops. In five years, we will be 
deploying systems that are a petaflop, 10 to the 15th 
operations per second. If we are lucky, five years beyond that 
in the exaflops and so forth.
    Ms. Woolsey. And you really think I know what that means, 
don't you?
    Dr. Stevens. It is this really big number.
    Ms. Woolsey. Mrs. Biggert does. That is why she----
    Dr. Stevens. It is really big. But----
    Ms. Woolsey.--gets--yeah----
    Dr. Stevens.--here is the point. The point is that in 
supercomputing, if you want to move the data between these 
machines, you need networks that will keep up. That means very 
soon, we will need terabit per second networks. Today, we do 
not have an aggressive R&D program to develop or deploy terabit 
networks to support interconnecting these supercomputing 
resources. So, in that sense, we are falling behind.
    Ms. Woolsey. Dr. Reed.
    Dr. Reed. So let me just amplify those issues. I think 
there are several reasons why the answer to your question is 
yes, we need to do more. One has to do with the connectedness 
of individuals, and in a knowledge economy, our challenge is to 
allow people to work together, and that means exploiting the 
best intellectual talent across the country, regardless of 
location. And networking, high-speed networking, broadband 
networking is the way to do that.
    It is also true that managing the large data volumes, 
whether it be for business and commercial applications or for 
scientific applications, we are a long way from where we need 
to be. The other part of the computer revolution that has 
produced large volumes of data, moving those to people for 
efficient analysis is a remaining challenge.
    And so, how we break down those barriers of time and space, 
and connect everyday things to allow information to flow 
efficiently, we need--yes, we need an integrated program that 
couples that with the other aspects of computing.
    Chairman Boehlert. The gentlelady's time has expired.
    Ms. Woolsey. Thank you.
    Chairman Boehlert. The Chair recognizes the distinguished 
gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, distinguished Chairman. I would like 
to just talk about the hardware of that, and try and get a 
better understanding of that.
    The--several of you commented on the need for major 
advances in hardware. Dr. Stevens, you said that you saw things 
such as global warming or drugs, et cetera, require ``orders of 
magnitude more computing power.'' And I would like to get a 
better handle on that. For example, the life sciences, 
nanotechnology problems, can they be handled on the grid 
systems, such as the NSF TerraGrid or something similar? Are we 
talking about orders of magnitude of improvement in other ways? 
Where are we going in this whole field? And I am somewhat 
familiar with what the Japanese did, and recognize they are 
approaching their limits. Are we going to jump ahead, and how 
are we going to do it? And our--do we need further improvements 
in bandwidth and interconnection as well with this, or are we 
talking about more centralized computer facilities that you can 
access with ordinary broadband? A whole series of questions pop 
in my mind. I am not articulating them very well. Well, let us 
just go down the line from right to left, and get your 
comments. My right to your left. To my left.
    Dr. Reed. Sir, there are a whole series of problems that we 
can, in some sense, see solutions from here, but we can't get 
there at the moment. And let me give you an example of one in 
which I am involved now, that captures in a biological and 
biomedical sense a flavor of that.
    I am involved with a group of researchers that span 
biology, chemistry, physics, and medicine that are trying to 
build a model, a virtual model, of a lung, to understand the 
effects of smoking, cystic fibrosis, cancer, how the 
interactions of it, at a physical science level, what is really 
a computational fluid dynamics model of air flow at the large, 
gross level in the lungs, down through intermediate structures, 
and how particles interact with surfaces, down to the bottom, 
where you are looking at a biophysics problem in understanding 
how cilia and mucus help eject materials, and then at the very 
bottom, the genetic basis of human variation.
    That kind of interdisciplinary problem is the--if we can 
solve a problem like that and build an integrated model, we can 
get some deep insights into the effects of environment on 
health, the genetic susceptibility to various kinds of disease. 
But we don't have the computing capability to solve that 
problem right now. We can model small pieces of that problem. 
We are one, maybe two orders of magnitude from where we would 
need to be to be able to solve that problem.
    So, the thing that I think--and I have said this a couple 
times--I think is really important in this domain is that there 
is no one single solution to this problem. If you look at the 
broad range of problems, we need leadership class computing 
systems, because there are some classes of applications that 
can only be solved with very tightly coupled, single-site 
systems. There are other kinds of critical problems that 
coupling distributed data archives and instruments with some 
intermediate but still high-performance computing capability 
will let us solve, and then there are others where even more 
mundane systems coupled together in the right ways give 
distributed groups of people the ability to solve problems.
    But there is absolutely no doubt that there are science and 
economic benefits that we can see from where we are, if we had 
another order or two of magnitude and capability in high-
performance systems, even in the centralized case.
    Mr. Ehlers. Now, Dr. Stevens, one answer from that, from 
Dr. Reed was one or two orders of magnitude. Would you agree 
with that or are you looking further into the future in----
    Dr. Stevens. I like to look further in the future, of 
course. We need the one or two orders of magnitude to solve the 
problem Dan is talking about, but of course, as soon as we can 
solve that problem, we will want to ask----
    Mr. Ehlers. Yeah.
    Dr. Stevens.--deeper questions, like gee, if we can build a 
virtual lung, why can't we build a virtual human, and now 
understand what happens, instead of doing drug testing on 
people, we can do drug testing, say, for drug interactions or 
whatever, on this virtual human, and maybe we can build virtual 
children, because we don't tend to do drug testing on children 
today, even though it is an important problem for the 
pharmaceutical industry. So, there are all kinds of things that 
I think we will find that we want to do, beyond this one or two 
orders of magnitude.
    Mr. Ehlers. Now, let me be a little more specific. 
Obviously, we are--we don't have unlimited financial resources 
at the Federal Government. Where should our efforts go in order 
to get those one, two, or three orders of magnitude?
    Dr. Stevens. So----
    Mr. Ehlers. What approach should we be taking?
    Dr. Stevens. In the near-term, we need to exploit the 
architectures that we know that work, and we need to scale them 
up to the practical limits of that technology. So in the case 
of vector processors, the recently announced DOE program is a 
good start. In terms of these embedded designs, system on a 
chip designs, which the IBM Blue Gene machine is another one. 
We know practically where we can take that, and it will scale 
over maybe another couple of orders of magnitude.
    To go beyond that, we need to do fundamental R&D in some 
new technologies, okay, and here is a couple of technologies 
that we need to work on. One is that we need to make hardware 
more flexible. And what does that mean? It means right now, the 
hardware that we use to build these computers is sort of fixed 
at the factory. One idea is to make that hardware less fixed at 
the factory, so that each application can reconfigure the 
hardware to be more efficient. That is one idea we need to 
test, and if we can find that works in the small, we need to 
see if it can work in the large.
    Another idea is optics, improving the ability to go to 
optics directly onto the chips, so that we don't have to use 
copper wires in the middle of these machines any more. We can 
do many thousands of optical fibers off of a single chip. That 
will give us enormous flexibility in terms of network 
topologies and improving bandwidth.
    Finally, we are going to reach limits with lithography. We 
are at 90, 60 nanometers currently, and within the next decade, 
we will be down to feature sizes that start to approach single 
molecule sizes, and so we need to leverage research in, say, 
molecular transistors, to figure out how can we make these 
systems several orders of magnitude smaller than they are now, 
and still get performance at reasonable power densities.
    So those are some examples.
    Mr. Ehlers. And before we go to the next one, I would just 
point that is why we need more money for the National Institute 
of Standards and Technology, to help with the lithographic 
process. So, Mr. Chairman----
    Chairman Boehlert. Amen, amen. Next--Mr.----
    Dr. Wladawsky-Berger. Let me talk about efforts we have 
going at IBM, and as my colleagues have said throughout, there 
is no one single architecture that works on everything, so we 
have some programs that are aimed at building the highest 
performance microprocessors you can, and aggregate them in 
large numbers.
    There is another program, which is Blue Gene, where we want 
to aggregate them in huge numbers, in fact, the Blue Gene that 
is going to Lawrence Livermore Lab in 2005 will have 2,000--
65,000 microprocessors, and to do that, you want to use low-
cost microprocessors that don't use too much power, so you can 
aggregate them in large numbers. And that is a very good 
example of the innovation ahead of us.
    How can you design the most powerful supercomputers 
possible at the most affordable cost possible? The approach we 
are taking is to use essentially commercial components, and 
then add a lot of value around them, so you can aggregate them 
in larger and larger and larger numbers. Let us remember that 
human beings, like all organisms, are built out of commodities, 
cells, but by the time you get to higher organisms, let alone 
human beings, I don't think we are commodities. I think some 
very exquisite things we hope have happen to be able to 
aggregate all of those components.
    That is a lot of the excitement of future designs, to push 
orders of magnitude into the future, that will take tremendous 
R&D, and it would also take a lot of understanding of the 
applications.
    Chairman Boehlert. The gentleman's time has expired. Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and let 
me commend you for a series of very effective and important 
hearings. And if I might, just very briefly indulge me. 
Yesterday, Mr. Chairman, I was detained during the hearing of 
H.R. 4107, the Assistance to Firefighters Act. I was in 
judiciary markup with a number of my own bills before the 
Committee. And I just wanted to take a moment before I pose 
questions to those gentlemen to--first of all, say to you that 
I look forward to working with you on this legislation, because 
I am on the Homeland Security Committee with you, and I know 
your interest and your commitment.
    I want to raise two points, and in my study of the bill, I 
am still studying it, I am a chauvinist on Homeland Security. I 
believe it is an important aspect of our work, but I am also 
concerned that our firefighters, who all of us know are 
probably best served by being--keeping those fire grants in the 
U.S. Fire Administration. I raise that point, and hope that we 
will continue to work through that issue.
    And the other point would be that we clarify the very 
valued aspect of the legislation dealing with volunteer 
firefighters, and maintain, however, the credibility of things 
like--in my community, we have things like meet and confer. I 
think that makes us feel better than maybe if we hear some 
other words, but the whole concept of collective bargaining, 
you coming from New York, I know you fully appreciate and 
understand that, but we can work as partners together on this. 
The first people I called in, being able to get home to Houston 
after 9/11 were my firefighters, and we huddled in a meeting 
for a long period of the day, and so I know that they are eager 
to work with H.R. 4107, and this legislation.
    I am eager to work with you on this as well, and wanted to 
make mention of that, and wanted to give my apology for being 
detained in----
    Chairman Boehlert. Thank you. I, too, was detained in an 
Intelligence Committee meeting of--dealing with the abuse 
allegations in Iraq, so those are other subjects for other 
discussions, but I will be glad to work with gentlelady, who 
has two minutes and 40 seconds left.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
just say that the statement, I think, that is most clear is 
that high-performance computing in the United States is at a 
turning point, because we all know that Japan has the either 
smarter one or the faster one. Dr. Marburger, if you can just 
say to me what that does to NASA, what that does to our 
educational desires in that area, and can we get the 
Administration's full support in helping us with the request 
for increased funding, not only to get equal with Japan but to 
get ahead of them, particularly as relates to producing more of 
our scientists who can engage us in this research.
    Dr. Marburger. This Administration does place high-
performance computing very high on its priorities. We intend to 
continue to follow this. We strongly support the bill. It has 
been introduced by this committee, and we look forward to 
working together to get the resources necessary to maintain our 
leadership in the computing area.
    Ms. Jackson Lee. Are we disadvantaged at NASA by not having 
a computer of that level?
    Dr. Marburger. Are we disadvantaging NASA? I would say that 
the NASA programs are the world's leaders in the areas for 
which they have responsibility, and that that leadership 
position of NASA is not currently in jeopardy.
    Ms. Jackson Lee. And what about Homeland Security, which is 
one of the crux of our concerns?
    Dr. Marburger. I do not believe that Homeland Security is 
jeopardized by any current program or proposal. I think the 
Homeland Security computing needs are being addressed. There 
are foreseeable applications in the future, not currently being 
conducted, that could benefit from the types of computing 
architectures being discussed here.
    Ms. Jackson Lee. But the Administration is supportive of 
increased funding to help us develop this technology?
    Dr. Marburger. The Administration supports adequate funding 
for maintaining our leadership in all of these areas.
    Ms. Jackson Lee. All right. Then we probably have a 
disagreement there. I think we need increased funding. Dr. 
Wladawsky-Berger. Help me out. How are we being disadvantaged 
by not having the technology that we need, or being competitive 
with Japan in terms of the type of supercomputer that we need, 
high-performing computer?
    Dr. Wladawsky-Berger. Let me say, I believe Japan right now 
has the fastest computer, but in reality, I really do believe 
the U.S. is way ahead of the rest of the world----
    Ms. Jackson Lee. Good news.
    Dr. Wladawsky-Berger.--in the use of supercomputing, and in 
particular, in the widespread use of supercomputing. Now, it is 
not enough, and the reason it is not enough is because the 
opportunities are so much bigger throughout society, whether it 
is applied to healthcare, to education, to economic 
development, to financial services, and of course, to national 
security. There is probably no problem that cannot be made 
better by the judicious use of information analysis and 
simulation, and that is why we believe we need to do so much 
more, because we all believe, I think, this is the key to 
competitiveness and national security.
    Ms. Jackson Lee. Thank you.
    Chairman Boehlert. The gentlelady's time has expired.
    Ms. Jackson Lee. Thank you.
    Chairman Boehlert. Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I want to thank Dr. 
Marburg--I am going to mispronounce your name--for
    --Marburger, for his speech of December 3, where he focused 
on the important provisions that our committee wrote dealing 
with nanotechnology and the importance of looking at the 
societal implications.
    I think that we, as a species, are faced with three related 
technologies, supercomputing, nanotechnology, and genetic 
engineering, that I would refer to as a reverse Pandora's box. 
You remember Pandora's box. Every evil was in that box, and one 
embodiment of hope. I think these three technologies offer us 
the reverse. Every kind of hope, and one or two unspeakable 
evils.
    The concern I have is--and I have expressed this to my 
colleagues on the Committee--the creation of new intelligent 
life forms through either of two paths, perhaps converging 
paths. One would be through artificial intelligence, 
supercomputing and the related software, in effect, a new 
silicon life form, if you will, although I am told that 
supercomputing levels, ultimately, you will be using a 
different substrate than silicon.
    And the other would be through genetic engineering. I have 
asked some of my constituents whether they think their kids 
will compete successfully on the LSAT with an 800 pound being 
with four 50 pound brains. Some of the more confident have told 
me their kid will still do better on the LSAT. I am not so 
sure. I have met their kids.
    Anyway, I--these technologies will interrelate. 
Supercomputing will obviously help genetic engineering. 
Nanotechnology and the biosciences may allow us to reverse 
engineer the human brain, to turn our artificial--to turn our 
computers into artificial intelligence should we decide to do 
that, a big if.
    And I know that there is a tendency to think that 
artificial intelligence is separate from supercomputing, 
because while supercomputing might grind out more calculations, 
it doesn't come with the new software architecture, but I think 
what we have seen is that if you get enough computer power, you 
can do amazing things with really weak software, and/or barely 
adequate software. So, I don't think that we can regard new 
software as separate from new hardware. The two will work 
together.
    Dr. Marburger, I know you speak for the President at--how 
close are we to a machine that has reached a level of 
intelligence where it would be entitled to the minimum wage?
    Dr. Marburger. Not very. We are quite far from that. In 
terms of just the numbers of components measured by neurons, 
for example, the interconnectivity of the human brain far 
exceeds anything that we can currently build or foresee in the 
immediate--in the foreseeable future with computer hardware. 
But we have three experts here who are closer to this field 
than I am, and I think we should hear from them, if you----
    Mr. Sherman. I--let me ask that not in terms of--I know it 
is not in the foreseeable future. It won't happen during the 
Kerry Administration. Sorry, I had to say that. But do we 
expect this, and keep--it is so hard to predict, because you 
are predicting an accelerating process, while the Internet 
connects, and a growing number of scientists working on a 
growing number of projects, using new tools. The computers get 
smarter, the--you build one on the other. But I will ask all 
three panelists. Are we talking 25 years, 50 years, 100 years?
    Dr. Wladawsky-Berger. Well, let me start--the reality, I 
think, is we don't know. Now, I think that at least in the 
foreseeable future, the real danger is not that advanced 
computers will have evil intent, but they could frustrate the--
a lot by just not working well, because of the complexity of 
managing the incredibly large infrastructure. I mean, look at 
your PC. It may or may not be evil, but God, how many times 
does it frustrate you, because it is not----
    Mr. Sherman. Well----
    Dr. Wladawsky-Berger.--doing what you want it to do.
    Mr. Sherman. Yeah. I think there is frustration in our 
foreseeable future. I--before we get to Dr. Stevens, because I 
know my time is about to elapse, if it hasn't already. But one 
argument is made that even if there was a self-aware computer, 
we would have total control, because it couldn't act in the 
physical world without human beings running around doing its 
bidding, and I would simply say that I know several people that 
would give hands to the Devil in return for a good stock tip.
    Dr. Wladawsky-Berger. Yeah. Let me just add that one of the 
hallmarks of good research is to anticipate problems. It is not 
just--I am sorry--to create things, but to anticipate the 
negative implications of what we are creating, whatever it is. 
Right now, we are all very worried about the complexity of 
managing and programming, and you are bringing up some farther 
out issues, and one of the reasons we all are so strong in 
supporting fundamental research is because that is how you 
anticipate problems and start working on their solutions, way 
ahead of the time those problems hit us.
    Mr. Sherman. Dr. Stevens, I don't know--if the Chairman 
will indulge me, I would like your response as well.
    Dr. Stevens. Well, I mean, it is a fascinating topic. And 
my personal view is that I would be much more concerned with 
near-term issues associated with large-scale computing, either 
this frustration issue, or the use of large-scale data systems 
to collect information and--that may be used for purposes that 
the people whose information it is is not in agreement with, 
whether that is for privacy or other purposes.
    So, I think we are on a path to build a large-scale 
cybernetic structure on this planet. That is the destiny of 
where connecting millions of computers and devices will go. We 
have no idea how to program that system in a way that would 
exhibit intelligent behavior currently. And as you pointed out, 
we have demonstrated through projects like the Deep Blue at IBM 
that relatively straightforward algorithms can, in fact, exceed 
human performance in very constrained activities.
    I would like to see some of those activities to be used for 
good purposes, and to apply simpler intelligences to, sort of, 
you know, be used instead of troops in battle or whatever, that 
may provide benefit in the near-term before we achieve dramatic 
intelligence.
    Just a final comment.
    Mr. Sherman. I would also point out, though, that our--we 
will have the ability at some point to reverse engineer the 
human brain, and that that ability will be enhanced by the 
supercomputing capacity----
    Dr. Stevens. We--absolutely----
    Mr. Sherman.--and the increased capacity we have for brain 
scans.
    Dr. Stevens. Absolutely. And in fact, it will not be 
possible to reverse engineer the brain, or any large, complex 
biological system, without advanced computing, okay. That is 
clear. Right now, if you had to estimate what is the most 
intelligent device we can build, it is roughly between a worm 
and an insect in terms of what it can do.
    Chairman Boehlert. On that closing note----
    Mr. Sherman. Thank you.
    Chairman Boehlert. The gentleman's time has expired. Thank 
you for tickling our fancy, so to speak, and giving us food for 
thought for the future, and thank all of the witnesses for your 
very productive testimony and for being resources to this 
committee. The hearing is adjourned.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Prepared Statement of Bob Bishop

   TO OUT-COMPETE IN THE 21ST CENTURY, U.S. INDUSTRY MUST OUT-COMPUTE

                               Bob Bishop
               Chairman and Chief Executive Officer, SGI

HOW DO U.S. COMPANIES DEPLOY HIGH-PERFORMANCE COMPUTING AND HOW DOES IT 
                    AFFECT U.S. INDUSTRIAL COMPETITIVENESS?

    The role of HPC in U.S. industry today is to solve technical 
problems quickly, gain insight into design alternatives, and bring safe 
and secure products and services to the market early, thus creating 
competitive advantage and improving the quality of our daily lives. HPC 
stimulates global competition, then helps companies compete in fiercely 
competitive markets.
    HPC can also be seen as a nerve center within the corporate setting 
and a conduit to cross-functional thinking. It brings together 
specialists from different fields who, by interaction with each other, 
rapidly improve their understanding, insight and problem solving in 
matters of great complexity. HPC eliminates stovepipe thinking.
    Managers and specialists leverage each other's knowledge in such an 
environment, asking multiple ``what if'' questions, evaluating 
countless scenarios while accelerating cooperative decision-making 
along the way. As a consequence, enterprise level strategy and tactics 
are broadened and strengthened.
    HPC in U.S. industry today is not compute-only activity conducted 
in glass-house isolation. HPC centers are connected via high-speed 
lines to other geographically dispersed decision centers both inside 
and outside of the enterprise. HPC may also direct-connect with 
laboratory instruments, sensor networks, satellite feeds or real-time 
video signals. In fact, it is increasingly common to find rich media 
from multiple sources ``fused'' into a single image, overlaying locally 
generated graphics, and effectively granting ``X-ray vision'' to all 
participants in the HPC session. In this way, HPC becomes a tool for 
superior decision-making.
    Increasingly, HPC drives a creative food chain, from innovation to 
operations, and increasingly delivers interactive real-time solutions. 
Speed and innovation are critical in the corporate race for global 
success.
    Leading U.S. industries have aggressively adopted HPC to improve 
their productivity and competitiveness. Defense, aerospace, automobile, 
chemical, pharmaceutical, medical, energy and media lead the way. Other 
U.S. industries are adopting HPC at a more modest rate.
    Worldwide deployment of HPC is found in similar industry sectors, 
especially in Japan, Germany, France, and the UK. China and India are 
beginning to rapidly adopt HPC as well. The U.S. remains by far the 
most predominant supplier of HPC products however, for both hardware 
and software. Japan is the only other significant HPC equipment maker.
    Leading-edge developments and break-through ideas in modern 
industries require high levels of modeling, simulation, visualization, 
and life-cycle data management. Biotechnology, nanotechnology and 
material science, for example. Vast amounts of intellectual property 
and future wealth are created in the process. Competitors strive to 
out-gun each other with in-house HPC capability, and win the right to 
patent, copyright and trade mark their knowledge.
    HPC must be understood however, not as a single technology, but as 
an ecosystem of multiple technologies, each with its own set of issues 
and challenges: fast processors, complex memory hierarchies, 
interconnect fabrics, massive storage facilities, high-fidelity 
visualization, networking, and multi-layered software, to name but a 
few. A single weak factor will likely reduce the overall effectiveness 
of any HPC installation, dramatically.
    HPC buyers must judiciously balance and combine HPC sub-system 
technologies appropriate to the real-world problems that they are 
attempting to solve. Even then, buyers need to continuously stay 
abreast of updates and developments, keeping their facilities relevant 
and at the leading edge, if they wish to survive.
    Attracting and retaining talent to run an effective HPC facility is 
difficult for most U.S. corporations, especially with the recent dearth 
of computer science graduates emerging from advanced engineering 
schools.
    Perhaps this is because corporate IT spending in the recent past 
has been dominated by business-process applications a la enterprise 
resource planning (ERP), customer relationship management (CRM), 
Internet deployment and mobile computing. Such applications have 
improved the background context in which all corporations must operate. 
However, spending in these areas has not helped the core HPC user, 
except in the few cases where commercial technologies can be 
successfully re-purposed within the HPC mission. For example, Internet 
technology is useful for everyone, technical and commercial, as is the 
PC, the PDA and the cell phone. These latter devices however, are 
mostly used as access mechanisms to remote HPC resources, and do not 
constitute HPC technology in its own right.
    The annual spending of U.S. corporations on business-process 
applications is one hundred-fold greater than that spent on engineering 
and scientific applications. With few exceptions, computer vendors are 
therefore attracted to the commercial side.
    To help spread the adoption of HPC within U.S. private industry 
more broadly, and to help ensure more U.S. government and U.S. industry 
interchange in the future evolution of this critical capability, the 
Washington, DC-based organization ``Council on Competitiveness'' has 
recently begun a High-Performance Computing Initiative. I am privileged 
to serve on this Council's Executive Committee, and would encourage the 
Chairman of the House Committee on Science and its Members to be in 
contact with this effort. The Initiative is gathering data that will 
provide a timely and accurate profile of key HPC users, application 
areas and bottlenecks experienced in U.S. industry today.
    This data will also highlight the multitude of factors that 
determine private industry HPC deployment in the U.S., including 
application software availability, ease-of-use, total-cost-of-ownership 
for equipment and personnel, and return-on-investment to the buyer.
    As for U.S. computer vendors, in the absence of significant HPC 
volume procurements by corporations, it is difficult for them to focus 
solely on industry HPC markets. Hence U.S. computer vendors generally 
concentrate their product developments on the larger business-process 
markets, positioning their HPC activities as a minor sideline. 
Alternatively, they will repackage their commercial machines for 
technical purposes. Neither approach however, will allow HPC to reach 
its full potential. The market requires U.S. Government HPC procurement 
in steady volume to sustain strong U.S. HPC capability. This U.S. 
Government additional volume is especially critical to the health and 
survival of the few computer vendors that remain alive and dedicated to 
HPC today.

WHAT ARE SOME OF THE CURRENT HPC EFFORTS OF THE FEDERAL CIVILIAN 
                    SCIENCE AGENCIES? ARE THEY SUFFICIENT TO ENSURE 
                    U.S. LEADERSHIP IN HPC?

    Recent events have conspired to raise alarm that the U.S. HPC 
industry has fallen behind its foreign rivals. For example, the 
powering on of Japan's Earth Simulator in March 2002, was a ``Sputnik-
like event,'' overshadowing all HPC machines on the planet. As of 
today, this machine is still at the head of the Top 500 Supercomputing 
Sites, as last published in November 2003. The machine is optimized for 
geoscience applications, and is front-ended by three Onyx machines 
supplied by Silicon Graphics Inc (SGI) that convert its numerical 
output to interactive immersive high-fidelity visualization. You can't 
drink from a firehose!
    The ES-40 (Earth Simulator-40 Teraflops) price-tag exceeded $300 
million, excluding the elegant new buildings in which it is housed. It 
was paid for by the Japanese Government and built by NEC along the 
lines of its SX-6 machine, a clustered-vector architecture in its sixth 
generation.
    This is an outstanding example of government-industry cooperation 
in open science, but not necessarily a good example of HPC innovation 
or good HPC architecture. It is certainly a shining example of what 
money can buy. However, the recently installed ALTIX supercomputers at 
Tokyo University's Earthquake Research Center run several earthquake 
codes at similar speeds as the ES-40 at a much lower price. The two 
ALTIX machines, supplied by SGI, incorporate the latest Itanium 2 
processor technology from Intel, the Linux operating system, and SGI's 
fourth generation global shared memory NUMAflex architecture.
    Within the U.S. Government, the National Weather Service (NWS), the 
National Center for Atmospheric Research (NCAR), and the Geophysical 
Fluid Dynamics Laboratory (GFDL) belonging to National Oceanographic 
and Atmospheric Administration (NOAA) are already heavy HPC users. All 
of these centers however, would benefit greatly from additional HPC 
capability, given the importance of weather in our daily lives and 
given the difficulty of weather science. Severe weather continues to 
wreak havoc in many areas of the U.S., and the cost of more accurate 
weather modeling and forecasting capability pales in comparison to the 
damages caused by unforeseen weather events. The cost of hurricane 
evacuation alone on the Atlantic seaboard exceeds $1 million per 
coastal mile, or $100 million in the case of a hurricane that cannot be 
predicted to come ashore within one hundred miles. A 50 percent 
improvement in forecast accuracy would lower this cost by $50 million, 
provided it could be accomplished in a timely manner; enough to recover 
the cost of HPC equipment in a single event, and more importantly, 
saving lives along the way.
    The key to solving problems in weather, climate and environmental 
science is HPC. Nature can only be accurately described and computed 
from equations that take account of complex non-linear interactions 
between multiple natural systems, i.e., rivers, lakes, oceans, 
mountains, forests, dust, pollution, cloud cover, snow cover, ice, 
polar regions, etc. Such equations of motion are so interconnected and 
intertwined that they can only be managed when all aspects are held in 
the global shared memory of a large HPC machine and computed 
simultaneously.
    We have a similar experience at NASA's Goddard Space Flight Center 
and at the NASA Ames Research Center. Both are heavily committed to HPC 
and are driving their climate modeling programs to higher performance 
through extensive use of leading edge HPC. NASA Ames has in fact tuned 
their 512-pprocessor ALTIX machine to world record-breaking memory 
bandwidth performance (the first machine in HPC history to break one 
terabyte-per-second, as measured by the STREAMS Triad benchmark). Both 
NASA facilities will require much more HPC capability however, to 
achieve the Administration's recently announced Code T program 
consisting of a permanent Moon-colony and manned space flight to Mars. 
There is an opportunity here for NASA to build Moon and Mars 
simulators, along the lines of the Japanese Earth Simulator. Such 
simulators would be less difficult however, given that neither the Moon 
nor Mars has an active weather or tectonic system like the Earth.
    There is also the need to design and simulate a new generation of 
spacecraft for the long voyages entailed. Moreover, since NASA's three 
space shuttles will most likely stop flying by the year 2010, the 
design of new generation space vehicles should begin very soon.
    Human and Health Services (HHS) is yet another federal civilian 
science agency that must strongly encourage the deployment of HPC. 
Rapid recognition of pathogens and viruses and the development of their 
counter-acting vaccines is critical to public health. The recent global 
outbreaks of SARS, Ebola, Avian flu, and West Nile disease maybe an 
indication of worse to come. Rapid government response will only be 
achieved through HPC centers and laboratories that are globally 
connected.
    Bio-terrorism is an additional threat for HHS to manage. Crisis 
management will ultimately require real-time modeling and simulation of 
toxin dispersion at the resolution of city streets and office 
buildings, at least in the top one hundred population centers of the 
U.S. These issues and others overlap with the newly formed Department 
of Homeland Security (DHS), which itself must become HPC capable to be 
fully effective.
    The U.S. Department of Energy (DOE) has extensive experience in 
HPC, although mostly for weapons design and nuclear stockpile 
stewardship. HPC deployment however, is recently gaining momentum 
within DOE's Open Science program, and this is a very encouraging trend 
for the U.S. HPC community as a whole. DOE will play a critical role in 
guiding the Nation's future energy infrastructure and building 
alternative energy technologies. It also has extensive experience with 
environmental remediation. These are grand challenge problems that 
require significant HPC resources.
    Generally speaking, there is a clearer recognition across the 
federal civilian agencies today that personal computers do not deliver 
the true horse-power of HPC machines, no matter how many units are 
networked together. One thousand bicycles do not make a truck! However, 
the low entry price of commodity clusters is often attractive for 
certain engineering and scientific applications, especially when these 
applications entail little inter-communications between the elements of 
the cluster. Even then, commodity clusters are only effective if there 
are no real-time interactivity requirements. Surprisingly however, the 
long-term total cost of ownership of a commodity cluster can be higher 
than expected if the full cost of maintenance, software licensing and 
system administration is taken into account.
    Finally, the recent formation of a High-End Computing 
Revitalization Task Force (HECRTF) has been very helpful in building 
knowledge and momentum around the importance of HPC to both U.S. 
industry and the U.S. Federal Government. There is now a greater 
interagency discussion on the topic, and private industry is being 
heavily consulted. We are eagerly awaiting the outcome of this effort. 
Nothing will encourage more future spending by the U.S. computer 
vendors on HPC research and development however, than a strong increase 
in U.S. federal HPC procurement and deployment.

SUMMARY OF SGI's HIGH-PERFORMANCE COMPUTING RESEARCH EFFORTS

    SGI regularly spends 13 percent of its annual revenues on research 
and development. This entire amount is spent on high-performance 
computing, high-performance storage, and high-performance 
visualization.
    SGI dedicates its R&D efforts to system-level architectures 
utilizing industry standard components where appropriate. The unique 
combination of system-level architectures built with standard high-
volume off-the-shelf commodity components, yields an overall price/
performance balance that is very attractive to the HPC user. Full-
custom products are generally too expensive, and full-commodity 
products lack the required performance or productivity. The blended use 
of custom/commodity by SGI is illustrated below:


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    SGI is aggressively focused on the technical, engineering and 
scientific marketplace. Problems in this space require large numbers of 
processors, large amounts of memory, and large amounts of I/O 
bandwidth, all tightly coupled with each other. SGI servers scale-up 
the number of processors, the amount of memory and the level of I/O 
bandwidth independently. To date, SGI has shipped HPC machines with 
1,024 processors and with four terabytes of globally shared main 
memory. Current R&D efforts within SGI are aimed at scaling systems to 
128 thousand processors and to one petabyte of main memory, globally 
shared among all processors. This is an ultra-scale machine, and one 
that is within reach by SGI in the 2007-2008 time frame, in partnership 
with the appropriate funding agency.
    Furthermore, it is SGI's intention to integrate scalar, vector, 
streaming, and special-function processors directly onto the shared 
memory architecture of this machine. The most appropriate processor 
elements will then be brought into action on-the-fly, while the user's 
application code is being executed. This ``multi-paradigm'' concept 
will therefore embrace the best features of several architectures that 
are in the marketplace today. The machine will reconfigure itself in a 
dynamic manner to best suit the application as it runs.
    With respect to our R&D efforts in storage and data life-cycle 
management, CXFS from SGI is a very successful shared-file 
heterogeneous-connect storage area network (SAN) in the market today. 
It will be extended to run over a wide area network, and thus enable 
nationwide single-level file addressing (SAN over WAN).
    With respect to SGI's R&D efforts in visualization, our work 
involves the interactive visualization of massive data sets stored in 
global shared memory, using the diverse compute elements of the multi-
paradigm architecture. We will bring high-fidelity visualization to the 
Linux environment in the near future.
    And with respect to SGI's R&D efforts in software, we will assist 
the Open-Source community scale its Linux-64 operating system to 
accommodate as large a number of processors in a single system image 
configuration as possible. We will also help bring high-level 
scientific programming tools into the market and application program 
interfaces (APIs) that improve the ease-of-use of HPC equipment in 
general.

    SGI's goal is to maintain its position as HPC thought leader and 
the leading supplier of real-time big data machines on the planet.
                        Biography for Bob Bishop
    Bob Bishop has served as Chairman and Chief Executive Officer for 
SGI since 1999. He joined the company in 1986 as founding president of 
SGI's World Trade Corporation and was responsible for all company 
activities outside North America until 1995.
    Prior to joining SGI, Bishop held senior positions with Apollo 
Computer, Inc., from 1982 to 1986 and Digital Equipment Corporation 
from 1968 to 1982.
    Bishop is an elected member of the Swiss Academy of Engineering 
Sciences, serves on the international advisory panel for the Multimedia 
Super Corridor in Malaysia, and is a member of the Executive Committee 
for the Council on Competitiveness in Washington, D.C.
    He earned a B.Sc. (First Class Honors) in mathematical physics from 
the University of Adelaide, Australia, and an M.Sc. from the Courant 
Institute of Mathematical Sciences at New York University.

</pre></body></html>
